United States Department of Labor
        Office of Inspector General




Semiannual Report to the Congress
 April 1, 2000–September 30, 2000
                        Volume 44
                                                                       Inspector General’s
                                                                            Message


This Semiannual Report of the Office of Inspector General (OIG) details some of our most significant
accomplishments for the period April 1, 2000–September 30, 2000. During this period, the OIG
continued to direct its audit, evaluation, and investigation resources to activities that support our
strategic plan goals. Our focus has been to effect positive change and reduce vulnerabilities in
departmental programs and operations, produce a positive return on invested resources, and provide
quality services to stakeholders. OIG audits, investigations, and evaluations conducted during this
period resulted in over $15.7 million in questioned costs; nearly $18.1 million in recommendations that
funds be put to better use; 117 indictments; 110 convictions; and over $66.4 million in investigative
recoveries, restitutions, fines, and penalties.

The following are examples illustrative of our accomplishments during this reporting period. The OIG:


   •   determined that eligibility was not adequately demonstrated for over one-third of individuals
       served by the Dislocated Worker program and, moreover, that evidence suggested the
       program was not serving its intended population;


   •   continued to identify management and performance issues to assist the Department in
       improving its administration of grants and contracts;


   •   identified that miners’ failure to use personal protective equipment contributed to a significant
       number of the fatalities in metal/nonmetal mining;


   •   assisted the Department in achieving high-quality information technology (IT) management.
       For example, a follow-up to our audit on Bureau of Labor Statistics (BLS) data security
       showed that BLS implemented substantial changes recommended by the OIG to improve the
       security of its IT systems. We also identified weaknesses in the Employment and Training
       Administration’s internal control of embargoed unemployment data and press releases that
       subject this sensitive information to early release;


   •   continued to uncover vulnerabilities in DOL worker benefit programs. For example, our
       crossmatch between FECA rolls and Social Security wage information disclosed millions of
       dollars in potential program savings over a 10-year period based on the identification of
       individuals who have earnings while receiving government benefits. From an investigative
       perspective, we opened 164 worker benefit cases and achieved 66 convictions and almost
       $47 million in penalties, fines, and restitutions;


   •   uncovered numerous instances of fraud in DOL’s labor certification program, particularly the
       H-1B temporary work visa program. Our investigations led to the indictment and conviction of
       12 individuals in the last six months;
   Inspector General’s
        Message



   •   combated labor racketeering in unions and the workplace in the areas of employee benefit
       plans focusing on investment management schemes, labor-management relations, and
       internal union affairs. We also focused efforts on organized crime and labor racketeering
       abuses within the transportation, construction, and waterfront industries; and


   •   called attention to legislative issues impacting the Department in areas such as program
       evaluation, worker benefit integrity, information technology oversight, and occupational
       safety and health coverage.

We continue to augment our traditional role by working collaboratively and constructively with the
Department to identify, early in the process, possible impediments that may affect DOL’s success in
administering its programs and in serving the public. Particularly noteworthy are our efforts to assist
the Department in complying with the Government Performance and Results Act and other Federal
requirements.

I would like to commend all OIG staff members for their diligent work and commitment to providing
quality services to our stakeholders. The OIG looks forward to continuing to work effectively with the
Secretary, management, and departmental staff at all levels in our common goal of ensuring the
effectiveness, efficiency, and integrity of the programs that serve and protect American workers and
retirees.




Patricia A. Dalton
Acting Inspector General
                                                                                                     Table of Contents




Significant Management Issues ...................................................................................................... 5

Selected Statistics of the OIG ....................................................................................................... 12

A Prepared Workforce

     Employment and Training: OIG Assessments of Performance and Accountability ................ 15
       Job Training Partnership Act ............................................................................................. 15
       Welfare-to-Work ................................................................................................................ 18
       Adult Training Program ..................................................................................................... 22
       Migrant and Seasonal Farmworker Program .................................................................... 26
       Youth Opportunity Grants ................................................................................................. 28
       Job Corps .......................................................................................................................... 30
       Veterans’ Employment Programs ..................................................................................... 32

     Audit Resolution ...................................................................................................................... 34

     Employment and Training: Fraud Investigations ..................................................................... 36

A Secure Workforce

     Unemployment Insurance Investigations ................................................................................ 45

     Worker Benefits: OIG Assessments of Performance and Accountability ................................ 51
        Office of Workers’ Compensation Programs ..................................................................... 52

     Healthcare Fraud Investigations ............................................................................................. 56

Quality Workplaces

     Worker Protection: OIG Assessments of Performance and Accountability ............................ 65
        Occupational Safety and Health Administration ................................................................ 65
        Mine Safety and Health Administration ............................................................................. 67
        Bureau of International Labor Affairs ................................................................................ 68

     Workplace Fraud Investigations .............................................................................................. 70
      Table of Contents




Departmental Management Focus

     Departmental Management: OIG Assessments of Performance and Accountability .............. 75
     Information Technology: OIG Assessments of Performance and Accountability .................... 80

     Departmental Management: Investigative Activities ............................................................... 84

Labor Racketeering

     Internal Union Investigations ................................................................................................... 89
     Benefit Plan Investigations ...................................................................................................... 93
     Labor-Management Relations Investigations ........................................................................ 101

Legislative Issues ........................................................................................................................ 105

Appendix ..................................................................................................................................... 111
   Audit Statistics ...................................................................................................................... 115
   Summary of Monetary Audit Finding Resolution ................................................................... 120
   List of Final Audit Reports Issued ......................................................................................... 131
   List of Final Evaluation Reports Issued ................................................................................. 137
   Investigative Accomplishments ............................................................................................. 138
   Office of Analysis, Complaints, and Evaluations: Complaint Activity .................................... 146
           Improving
            Program
             Results




       Significant
Management Issues
       Significant
    Management Issues


                  The OIG works with the Department and Congress to provide information
                  and assistance in achieving efficient and effective management of DOL
                  programs. Our primary goals are to ensure that information provided to
                  DOL and Congress will be useful in their management or oversight of the
                  Department and to focus agency attention on mission-critical management
                  problems and stimulate action to resolve them. The OIG has identified
                  the following areas that we consider to be vulnerable to mismanagement,
                  error, fraud, waste, or abuse: the Dislocated Worker program, performance
                  and accountability of grants, protection of worker benefit funds, the Foreign
                  Labor Certification program, the safety and health of Job Corps
                  participants, departmental resource management, and labor racketeering.



    Dislocated Worker Program

                  The OIG is concerned about the extent to which the $1.6 billion Dislocated
                  Worker program is serving its intended population. A recent audit found
                  that 35 percent of fiscal year 1997 program participants were ineligible or
                  that documentation was insufficient to establish their eligibility. We also
                  found programs that were not predominantly serving persons who fit the
                  “traditional” definition of a dislocated worker, namely, victims of plant
                  closings or mass layoffs. We are concerned that the program may not be
                  adequately reaching the target population Congress intended to serve. In
                  addition, we are concerned that the program’s allocation process may not
                  distribute funds to areas where they are most needed. Guidance is
                  therefore necessary to ensure that the program concentrates on persons
                  who are unemployed because of reduced demand for specific jobs or the
                  obsolescence of specific skills rather than on the general unemployed.
                  We believe the guidance should be coupled with an allocation process
                  that distributes funds to where they are most needed.


    Performance and Accountability of Grants

                  DOL’s administration of roughly $9 billion in grant funds continues to be an
                  area of concern. The Department must assure accountability of its
                  existing grant funds while managing several major new grant programs. In
                  our March 2000 Semiannual Report, we reported deficiencies in ETA’s
                  accounting for grant cost reports. In the intervening months, ETA has




6                                                              Semiannual Report to the Congress
                                                                April 1, 2000–September 30, 2000
                                                                           Significant
                                                                        Management Issues


                             intensified its efforts to address those deficiencies. However, we continue
                             to stress the need to ensure that all grantee cost reports are entered in a
                             timely manner into the Department’s financial system to ensure
                             accountability over the billions of dollars involved.

                             In addition, ETA and other agencies, such as the Bureau of International
                             Labor Affairs, have been tasked with implementing major new grant
                             programs. Findings contained in this report related to the Youth
                             Opportunity, Welfare-to-Work, and Child Labor programs identified a
                             number of deficiencies and the need for more attention to grant
                             management. With billions of dollars invested in various grant programs,
                             it is vital for the Department to ensure that grant programs have the
                             necessary financial systems, policies, and monitoring to ensure results-
                             oriented accountability and performance.


    Protection of Worker Benefit Funds

                             The Department administers several programs and statutes designed to
                             provide and protect the benefits of workers, such as the Unemployment
                             Insurance (UI) program, the Black Lung Benefits, Longshore and Harbor
                             Workers’ Compensation, and Federal Employees’ Compensation Act
                             (FECA) programs, and employee pension plans. Protection of benefits is
                             critically important because these programs affect the lives of millions of
                             workers and retirees and involve billions of taxpayer dollars. We remain
                             concerned about the ease with which these programs continue to be
                             defrauded by claimants and medical providers, as well as about systemic
                             weaknesses that lead to waste of program funds.

                             For example, the OIG continues to see a significant amount of healthcare
                             fraud in both DOL-related health plans and union-related health plans,
                             resulting in millions of dollars in losses to the Federal government and
                             private insurance companies. Our investigations have also documented
                             that vast sums of money in union-sponsored employee benefit plans
                             remain vulnerable to corrupt plan officials, service providers, and
                             organized crime elements. We also continue to see a multiplicity of
                             schemes used to defraud the UI program, including fraudulent employer
                             schemes, internal embezzlement schemes, and the fraudulent collection
                             of UI benefits by illegal aliens and other ineligible claimants. Finally, a
                             number of systemic weaknesses pose problems for the UI system, such
                             as the loss of contributions due to the inability of states to search for
                             hidden wages by employers who misclassify workers as independent
                             contractors and increased vulnerabilities created by the telephone initial
                             claims system.




Semiannual Report to the Congress                                                                     7
April 1, 2000–September 30, 2000
       Significant
    Management Issues


    Foreign Labor Certification

                  The OIG continues to identify fraud in the labor certification program,
                  particularly in the H-1B temporary work visa program. These cases
                  involve fraudulent petitions that are filed with DOL on behalf of fictitious
                  companies and corporations; individuals who file petitions using the
                  names of legitimate companies and corporations without their knowledge
                  or permission; and increasing numbers of immigration attorneys and labor
                  brokers who collect fees and file fraudulent applications on behalf of
                  aliens. Based on prior investigative and audit work that found
                  programmatic weaknesses and vulnerabilities in the program, the OIG
                  remains concerned about the potential for increased fraud in this area.


    Safety and Health of Job Corps Participants

                  The OIG is concerned that weaknesses we identified in prior audits of the
                  Department’s internal safety and health program still have not been
                  corrected. A followup to a 1997 OIG audit report found that Job Corps had
                  made limited progress in implementing a model safety and health
                  program and in reducing accidents and injuries. The injury/illness rate for
                  new students was the same in FY 1999 as it was in FY 1994. We
                  concluded that Job Corps’ safety and health program must be improved to
                  meet its goals of reducing center injuries and illnesses and becoming a
                  model program with exemplary safety and health plans and operations.


    Departmental Resource Management

                  While DOL has taken measures to meet legislative and other mandates
                  established over the past decade to improve accountability in the Federal
                  government, the OIG is concerned about the lack of progress in several
                  areas that are key to the Department’s ability to manage its resources for
                  maximum results. DOL now prepares financial statements that withstand
                  audit, and its consolidated financial statements have received an
                  unqualified (clean) audit opinion since FY 1997. However, much remains
                  to be done within the Department to (1) fully implement managerial cost
                  accounting at the agency level; (2) ensure that performance data reported
                  by DOL’s recipients and subrecipients are reliable; (3) augment, through
                  OIG audits and program agency monitoring, the oversight achieved
                  through single audits of DOL recipients and subrecipients; and (4) provide
                  secure, high-quality information systems.




8                                                             Semiannual Report to the Congress
                                                               April 1, 2000–September 30, 2000
                                                                              Significant
                                                                           Management Issues


                                    •   Implementing Managerial Cost Accounting:
                                        Implementation of a managerial cost accounting process that
                                        routinely matches cost information with program results is a
                                        crucial step toward managing for results. DOL’s consolidated
                                        financial statements include a Statement of Net Cost that provides
                                        cost and revenue information by agency for five crosscutting
                                        programs in the Department and further allocates costs to the
                                        Department’s eleven outcome goals. Currently, costs are being
                                        allocated by responsibility segment to DOL outcome goals at
                                        year-end. Therefore, some DOL organizations must wait until
                                        after the close of the fiscal year to learn how well they did in
                                        achieving their goals. To become a useful tool in managing for
                                        results, specific cost and performance information needs to be
                                        provided at the program level on a regular and consistent basis
                                        throughout the year. It is also necessary to develop a methodology
                                        to update allocation procedures continually at the program level.
                                        The Department is working to develop a cost accounting system
                                        that will accumulate the specific costs for each program and link
                                        these costs to the program’s results. While implementation of
                                        managerial cost accounting is ultimately a departmental
                                        responsibility, we believe all DOL agencies need to participate in
                                        the process to achieve its full benefits. We are concerned that not
                                        all agencies are doing this. Of particular concern is the lack of
                                        participation from the two largest agencies, the Employment and
                                        Training Administration and the Employment Standards
                                        Administration.
                                    •   Assuring the Reliability of Performance Data:
                                        Managing for results requires accurate and reliable performance
                                        data at the program level. OIG audits have shown that, because
                                        approximately 90 percent of DOL’s budget flows to recipients and
                                        subrecipients and DOL relies upon data provided by them to
                                        determine whether DOL’s strategic goals have been achieved, it is
                                        critical for the Department to find ways to validate their
                                        performance data. Lack of assurance over such data
                                        compromises the reliability of DOL’s reporting under the
                                        Government Performance and Results Act (GPRA) and the
                                        quality of the decisions based on such information.
                                    •   Augmenting Single Audits:
                                        Just as the Department uses performance information reported by
                                        recipients and subrecipients to fulfill its own GPRA reporting
                                        responsibilities, it also relies on recipient- and subrecipient-




Semiannual Report to the Congress                                                                        9
April 1, 2000–September 30, 2000
        Significant
     Management Issues


                         reported financial information to prepare its consolidated financial
                         statements. However, lack of resources and other factors limit the
                         extent to which program agencies monitor such entities. As a
                         result, audits conducted by state auditors and CPAs under the
                         Single Audit Act (SAA) have become the primary mechanism for
                         obtaining assurance that recipients and subrecipients maintain
                         effective internal controls over Federal funds and report reliable
                         financial information on the use of those funds. However, we have
                         identified gaps between SAA audits and the requirements
                         necessary for us to render an opinion on the information received
                         from recipients and subrecipients contained in DOL’s
                         consolidated financial statements. The OIG, therefore, is
                         developing an audit approach that would build on single audit
                         results in order to render an opinion. Within its resource
                         constraints, the Department also needs to increase its monitoring
                         and evaluation activities of recipients and subrecipients to obtain
                         the information needed to manage for results.
                     •   Providing High-Quality Information Systems:
                         Managing for results also requires a high-quality information
                         technology (IT) environment to obtain the programmatic and
                         financial information needed. Currently, DOL operates 65 mission-
                         critical IT systems used to carry out a myriad of functions including
                         generating vital statistics of the U.S. economy such as
                         unemployment rates and the consumer price index; providing
                         income security to millions of workers through a variety of benefit
                         programs; administering nationwide employment and training
                         programs and services; and providing vital information to the public
                         on a variety of employment issues including the security of pension
                         plans, occupational injuries and illnesses, and employment rights.
                         Past OIG audits have reported deficiencies concerning internal
                         controls and security over systems that produce financial and
                         performance data. The Department needs to continue to address
                         deficiencies noted in these areas. In addition, the Department
                         needs to assure that its major systems are secure from threats
                         and loss of assets. The rapidly expanding use of Internet
                         applications exposes DOL systems to an increased risk of
                         computer crimes and other interruptions. DOL needs to assure
                         that services and information provided through the Internet are
                         continuously available and reliable and that individuals’ privacy
                         rights and businesses’ proprieties are protected.




10                                                            Semiannual Report to the Congress
                                                               April 1, 2000–September 30, 2000
                                                                            Significant
                                                                         Management Issues


    Increase in Traditional Labor Racketeering Noted

                             This reporting period has shown an increase in the number of ongoing
                             criminal investigations of the more traditional labor racketeering
                             violations, including extortion, bribery, and kickbacks. In the recent past,
                             the OIG has focused its efforts on the shift from traditional labor
                             racketeering occurring internally within unions and between unions and
                             employers to corruption in union employee benefit plans. While the OIG
                             continues to devote resources to investigating union benefit plan fraud,
                             there has been an increase in the number of allegations involving the
                             types of racketeering in which we had seen a significant decrease in
                             activity during the 1990s. In addition, the number of criminal investigations
                             into the influence of organized crime in the nation’s labor unions and in
                             labor-management relations is also rising. The OIG’s Office of
                             Investigations has seen a six percent increase in the number of organized
                             crime cases in its inventory of open criminal investigations since FY 1998.
                             Consequently, the OIG remains concerned about the continuing influence
                             of traditional organized crime in an area with a long history of corruption.




Semiannual Report to the Congress                                                                      11
April 1, 2000–September 30, 2000
                                   Selected Statistics of the OIG
                                             for the Period
                                  April 1, 2000–September 30, 2000



           Audit Reports Issued ................................................................................ 68
           Evaluation Reports Issued .......................................................................... 7
           Total Questioned Costs ............................................................ $15.7 million
           Dollars Resolved ...................................................................... $21.7 million
                 Allowed ................................................................................. $4.8 million
                 Disallowed .......................................................................... $16.9 million
           Recommendations That Funds Be Put to Better Use ............... $18.1 million

           Cases Opened ........................................................................................ 225
           Cases Closed ......................................................................................... 278
           Cases Referred for Prosecution ............................................................. 143
           Cases Referred for Administrative/Civil Action ......................................... 23
           Indictments ............................................................................................. 117
           Convictions ............................................................................................. 110
           Debarments .............................................................................................. 15
           Investigative Recoveries, Cost Efficiencies, Restitutions, Fines/

                 Penalties, Forfeitures, and Civil Monetary Action ............... $66.4 million



         Note:    The Office of Investigations conducts criminal investigations of individuals that can lead to
                  prosecutions (“convictions”) by criminal complaints, warrants, informations, indictments, or
                  pretrial diversion agreements. Successful prosecutions may carry sentences such as fines,
                  restitutions, forfeitures, or other monetary penalties. The Office of Investigations’ financial
                  accomplishments, which include administrative and civil actions, are further detailed and
                  defined in the appendix of this report.




Semiannual Report to the Congress                                                                                          12
April 1, 2000–September 30, 2000
     Enhancing
    Opportunities
        for
     America’s
     Workforce




A Prepared
 Workforce
The Department of Labor is committed to creating an environment where those new
to the labor force or those wishing to improve their potential are provided the assistance
and tools needed to achieve success in today’s job market. The key priorities for this
strategic goal are to provide opportunities for individuals to obtain the skills necessary
to succeed in the global economy, close the employment gap for out-of-school youth,
and increase long-term jobs for people as they move from welfare to work.



In support of the Department’s goal, the OIG works to optimize the use of funds
appropriated for training and employment programs by enhancing program
performance and accountability. This includes providing oversight to ensure overall
efficiency and effectiveness of DOL’s Welfare-to-Work system in moving welfare
recipients away from public assistance and into training, jobs, and self-sufficiency.
  Employment and Training: OIG Assessments                              A Prepared Workforce
          of Performance and Accountability




Job Training Partnership Act
                             The Job Training Partnership Act (JTPA) was enacted to establish
                             programs to prepare youth and adults facing serious barriers to
                             employment for participation in the labor force by providing job training
                             and other services. Even though on July 1, 2000, JTPA was superseded
                             by the Workforce Investment Act (WIA), the first major reform of the nation’s
                             job training system in the last 15 years, the OIG still has the responsibility
                             for auditing programs that were funded by JTPA.


    Dislocated Worker Program

                             DOL provides retraining and support services to dislocated workers
                             through programs administered under JTPA Title III. The total appropriation
                             for JTPA Title III in fiscal year (FY) 2000 was nearly $1.6 billion. These
                             services are provided to eligible dislocated workers, including those who
                             have been terminated or laid off, who have received a notice of termination
                             or layoff, who are long-term unemployed or self-employed, or who are
                             displaced homemakers. Although the JTPA expired on June 30, 2000,
                             the Dislocated Worker program will continue under the Workforce
                             Investment Act.



    Questions Raised as to Whether
    the Dislocated Worker Program Is
    Serving Its Intended Population

                             The OIG conducted an audit to determine whether the current policies and
                             practices of the Dislocated Worker (DW) program have resulted in the
                             serving of the targeted population. We found programs that were not
                             predominantly serving persons who were victims of plant closings or mass
                             layoffs. We also found that in 35 percent of the cases, program
                             participants were ineligible, documentation was insufficient to establish
                             their eligibility, or available evidence caused us to question whether they
                             were persons that Congress intended the program to serve. The audit
                             disclosed that the standard allocation formula, which is based on various




Semiannual Report to the Congress                                                                       15
April 1, 2000–September 30, 2000
 A Prepared Workforce             Employment and Training: OIG Assessments
                                  of Performance and Accountability




                 unemployment measures rather than on the number of dislocated
                 workers in an area, may not distribute dislocated worker funds to where
                 they are most needed. Where funds were allocated to localities with
                 relatively few dislocated workers, we found that some entities relaxed the
                 eligibility criteria in order to spend the available funds. Further, the audit
                 revealed that program data reported by states to the Employment and
                 Training Administration (ETA) were often incomplete or in error. The
                 errors affected key performance measures, including participants’ wages,
                 training activities, and successes in obtaining jobs, that are used to
                 evaluate DW program activities.

                 We recommended that ETA:
                     •   ensure that adequate guidance is provided to states so that the
                         files of participants who are certified for intensive services under
                         WIA contain adequate information to qualify them as dislocated
                         workers;
                     •   determine whether a more equitable method of allocating DW
                         funds can be devised that would result in funds being distributed
                         to areas where the most dislocated workers reside; and
                     •   complete a periodic, comprehensive quality review and oversight
                         of data entered into participant information systems to ensure that
                         placements are valid and that data are entered in accordance with
                         program guidance and are otherwise accurate and complete.

                 While ETA generally agreed with many of our recommendations, it did not
                 agree with our conclusions regarding who are eligible dislocated workers
                 or the data on which they were based. According to ETA, the report does
                 not adequately consider the authority vested in state and local
                 governments or the need for flexibility in addressing local labor-market
                 conditions. ETA believes that allowing state and local governments the
                 flexibility to use their discretion in establishing eligibility criteria is the key
                 to an effective program.

                 ETA did agree to work with state and local governments to ensure that
                 files adequately document participants’ eligibility, and ETA plans to
                 increase DW program technical assistance and monitoring activities. ETA
                 did not, however, offer specific steps it will take to work with state and local
                 governments. Regarding the accuracy of data, ETA indicates it will
                 increase its efforts to ensure that WIA program data are accurate and
                 believes use of Unemployment Insurance wage data will help eliminate
                 some of the errors identified in our audit. (OA Report No. 04-00-002-03-
                 340, issued June 29, 2000)




16                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                           A Prepared Workforce
          of Performance and Accountability




    The New York State Department of
    Labor Overstated PY 1998 JTPA
    Title III Expenditures by $6 Million

                             The OIG performed an audit of the New York State Department of Labor
                             (NYSDOL) JTPA Title III program expenditures covering April 1, 1999,
                             through June 30, 1999. For the three quarters ending March 31, 1999,
                             NYSDOL reported expenses of $7,526,048. Expenditures in the fourth
                             quarter of program year (PY) 1998 significantly rose by $15,776,284 and
                             expenditures were $23,302,332 for the year ending June 30, 1999. The
                             audit objectives were to determine the reason for the large increase in
                             program expenditures during the last quarter of PY 1998 and whether
                             these costs were allowable.

                             We found that NYSDOL transferred expenses from various cost centers
                             to the JTPA Title III program to avoid recapture of PY 1998 allotments. As
                             a result, expenditures reported on the Title III Worker Adjustment Formula
                             Financial Report for the year ending June 30, 1999, were overstated by
                             $6,102,478 (personnel services were overstated by $5,023,129 and
                             expenditures for the Labor Exchange [LEX] system were overstated by
                             $1,079,349). We recommended that ETA ensure that NYSDOL reduce
                             June 30, 1999, reported JTPA Title III expenditures by $6,102,478, begin
                             recapture and reallotment procedures (if required), and allocate costs of
                             personnel services and the LEX system based upon relative benefits
                             received.

                             In response, NYSDOL disagreed with our audit report. NYSDOL stated
                             that it had provided documentation to support both the personnel service
                             and LEX system adjusting entries. We believe that while a portion of the
                             personnel service and LEX system costs may be allocable to the JTPA
                             Title III program, it is NYSDOL’s responsibility to document adequately
                             that costs were allocated to a particular cost category to the extent that
                             benefits were received. The transfer of costs from one grant to another
                             should be made consistently among all programs and should not be done
                             for one grant to overcome fund deficiencies or to avoid restrictions
                             imposed by law or the terms of an award. (OA Report No. 02-00-214-03-
                             340, issued September 28, 2000)




Semiannual Report to the Congress                                                                   17
April 1, 2000–September 30, 2000
 A Prepared Workforce               Employment and Training: OIG Assessments
                                    of Performance and Accountability


Welfare-to-Work
                    The Welfare-to-Work (WtW) program provides grants to states and local
                    communities to move hard-to-employ welfare recipients into unsubsidized
                    jobs and economic self-sufficiency. States receive 75 percent of the WtW
                    funds through formula distribution. The remaining 25 percent are provided
                    to communities through a competitive grant process designed to encourage
                    communities to develop innovative, results-oriented ways to help long-
                    term welfare recipients gain a secure foothold in the labor market.

                    Since the WtW program’s implementation, the OIG has provided extensive
                    assistance to the Department through our grant surveys and technical
                    assistance. Our efforts have focused on identifying problems early in the
                    process and recommending solutions to help the Department ensure the
                    success of the program. In response to prior work, ETA has taken positive
                    actions, such as providing grantees with additional services and technical
                    assistance, as well as increasing its monitoring of grants. Following are
                    recent examples of our work in this area.


     The Welfare-to-Work Grant
     Awards Process Could Have Been
     More Effective

                    The OIG conducted an evaluation in response to a congressional request
                    and as a follow-up to our previous evaluation of the awards process of
                    WtW grants in round one. We found that ETA could have been more timely
                    and could have provided more useful assistance to prospective and actual
                    grantees.

                    Our examination of the WtW competitive grant processing time disclosed
                    that the number of days between the close of the solicitation for grant
                    applications (SGA) and the award of the WtW grants increased between
                    rounds one, two and three. We believe this increase in ETA processing
                    time ultimately delayed the delivery of services to Temporary Assistance
                    for Needy Families (TANF) recipients.

                    As shown by the following graphs, we found that in round one it took 57
                    days for ETA to process WtW grant applications and announce grant
                    awards; in round two, it took 92 days; and in round three, it took 102 days.




18                                                              Semiannual Report to the Congress
                                                                 April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                                A Prepared Workforce
          of Performance and Accountability




                             This increase in processing time occurred despite the fact that the number
                             of applications processed by ETA decreased between rounds one and
                             three.

                               Number of Days ETA Took to
                             Process WtW Grant Applications                 Number of Applications

                     120                                                              682
                                                                  700
                                                        102                621
                     100
                                            92                    600                             559

                      80                                          500

                                                                  400
                      60      57
                                                                  300
                      40
                                                                  200
                      20
                                                                  100

                      0                                             0
                            Round1         Round2      Round3            Round 1     Round 2     Round 3


                             ETA attributed this increase in processing time to additional services
                             provided to applicants, an increase in the number of applications received
                             for rounds two and three, new requirements that were added to rounds
                             two and three, multiple and/or overlapping solicitations, and other
                             competing priorities that depleted staff resources. We agree that ETA took
                             positive steps to provide technical assistance to prospective grantees in
                             the preparation of the grant application. However, in our opinion, this
                             should not have caused delay in the processing of completed
                             applications.

                             As part of our evaluation process, we interviewed grantees to obtain
                             information regarding the effectiveness of the WtW competitive grant
                             awards process. Overall, grantees expressed satisfaction with the
                             services provided by ETA. However, several grantees told us that ETA
                             could have provided more useful assistance during the competitive grant
                             awards process. ETA could have provided additional assistance by:
                                    •   continuing to coordinate and develop working relationships with
                                        state and local TANF agencies;
                                    •   including all WtW legislative requirements in the grant criteria and
                                        ensuring that the criteria were clearly defined;




Semiannual Report to the Congress                                                                          19
April 1, 2000–September 30, 2000
 A Prepared Workforce                 Employment and Training: OIG Assessments
                                      of Performance and Accountability




                          •   considering offering bidders’ conferences at additional locations
                              and advertising the specific conferences in the solicitation for
                              grant application; and
                          •   adequately defining the role of the grant officer’s technical
                              representatives to grantees and instructing them to provide
                              grantees with timely responses to their questions and concerns.

                      ETA disagreed with some of our recommendations and stated that
                      despite the identified concerns, the grant management process was
                      conducted in an effective manner. (OACE Report No. 2E-03-386-0002,
                      issued September 29, 2000)


     Problems Identified in
     Devereaux Corporation’s
     $3 Million Welfare-to-Work
     Grant

                      The OIG performed a postaward survey of the Devereaux Corporation’s
                      $3 million WtW Competitive Grant program. We examined its financial
                      management and program systems and assessed Devereaux’s capability
                      to administer its grant in accordance with applicable regulations.

                      We found that Devereaux has neither the experience nor the performance
                      record that formed the basis for it receiving the competitive award.
                      Therefore, the award to Devereaux may have deprived a more qualified
                      applicant from receiving a WtW Competitive Grant. We also found a number
                      of areas in which Devereaux was not complying with the WtW regulations.
                      For example, we determined that:
                          •   grant fund drawdowns exceeded actual disbursements by over
                              $247,000;
                          •   the approved grant budget included excessive costs ($300,000 for
                              training and contractual services that may have been available as
                              public services) and questionable costs;
                          •   staff salaries appeared unreasonable; and
                          •   Devereaux incurred questionable transportation and travel costs.

                      The OIG believes that Devereaux does not have the capability to comply
                      with the WtW regulations and administer the grant because Devereaux is
                      not the organization that it presented itself to be in its grant application. We




20                                                                   Semiannual Report to the Congress
                                                                      April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                              A Prepared Workforce
          of Performance and Accountability




                             recommended that ETA take steps to terminate Devereaux’s WtW grant.
                             In addition, we recommended that ETA recover the unexpended grant
                             funds, including any interest earned on the excess cash balance, and
                             disallow and recover the incurred questionable costs.

                             At the completion of the audit, ETA shared the OIG’s concerns and
                             expressed its intent to review all relevant information and take appropriate
                             action, including possible termination. ETA removed Devereaux’s access
                             to the Advance Payment Management System and put it on a cost
                             reimbursement basis. On August 11, 2000, ETA issued a letter to
                             Devereaux stating its intent to terminate the grant, citing the results of the
                             OIG’s postaward survey report and its own review, and requiring
                             Devereaux to return Federal funds totaling $257,619 to the Department.
                             Devereaux has appealed ETA’s decision. (OA Report No. 03-00-006-03-
                             386, issued May 22, 2000)

    The Johns Hopkins University
    Institute for Policy Studies Is
    Capable of Administering Its
    Welfare-to-Work Competitive
    Grant Program

                             The OIG performed a postaward survey of the Johns Hopkins University
                             Institute for Policy Studies’ (JHU-IPS’s) WtW Competitive Grant program.
                             The purposes of our survey were to examine JHU-IPS’s financial
                             management and program systems and make an assessment of JHU-
                             IPS’s capability to administer the recently awarded $4.9 million WtW
                             Competitive Grant.

                             Overall, we concluded that JHU-IPS has the capability, including the
                             necessary financial management systems, to administer its WtW
                             Competitive Grant. While quantitative performance measures have not
                             yet been developed, we believe the JHU-IPS WtW model, called the
                             career transcript system (CTS), is innovative in concept with well-
                             organized implementation and monitoring plans. The CTS is unique in
                             developing certified employee skills that can be incorporated in the client’s
                             future employment resume. The CTS also utilizes both employee and job
                             skills assessments as well as on-site monitoring of employer and
                             employee requirements and needs. In our opinion, these approaches
                             should enhance the client’s probability of success in making the transition
                             from welfare to work.




Semiannual Report to the Congress                                                                       21
April 1, 2000–September 30, 2000
 A Prepared Workforce                 Employment and Training: OIG Assessments
                                      of Performance and Accountability




                      However, our survey also found that changes must be made in two areas
                      related to reporting financial data in order to comply with WtW regulations.
                      Specifically, JHU-IPS must report WtW costs using the accrual basis of
                      accounting and must comply with WtW’s cost allocation requirements.

                      JHU-IPS officials agreed with the results of our survey. (OA Report No.
                      03-00-007-03-386, issued July 31, 2000)


Adult Training Program
                      The adult training program under JTPA was formula-funded and state-
                      operated, and it provided training, related education and employment
                      services to economically disadvantaged adults. It was designed to increase
                      participants’ occupational and educational skills, resulting in improved
                      long-term employability, increased employment and earnings, and reduced
                      welfare dependency.



     Florida Service Delivery Area
     Cash Management Practices
     Caused $540,000 in
     Unnecessary Interest Costs

                      We examined the cash management practices of four Florida Service
                      Delivery Areas (SDAs) that received JTPA grant funds between July 1, 1995,
                      and December 31, 1999. The SDAs we examined had established and
                      deposited grant funds into escrow accounts sufficient to pay the JTPA
                      program participants’ anticipated training costs. During our audit period,
                      the monthly balances kept in the escrow accounts averaged about
                      $2.6 million, and over $3.4 million remained in the escrow accounts as of
                      December 31, 1999. The funds remained in the accounts until they were
                      needed to pay vendors. However, the deposits were reported as program
                      expenditures, and cash balances were invested. Because the Federal
                      government must borrow funds and pay interest to finance programs, we
                      estimate that the cash balances kept in the escrow accounts
                      unnecessarily cost the Federal government $540,000 in interest. If the
                      practice continues, the Federal government could incur additional annual
                      interest costs of about $185,000.




22                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                             A Prepared Workforce
          of Performance and Accountability




                             Maintaining escrow accounts is a violation of the Cash Management
                             Improvement Act of 1990, JTPA program regulations, and Florida’s JTPA
                             administrative policies, all of which require that cash advances be limited
                             to the minimum amount necessary for immediate needs. The use of
                             escrow accounts has continued despite long-standing concerns raised by
                             state program monitors and notification to the State by ETA that the SDAs
                             were in violation of JTPA requirements.

                             In addition to the inappropriateness of maintaining escrow accounts, we
                             found lapses in the SDAs’ stewardship of the escrow accounts. For
                             example:
                                    •   the SDAs incurred unnecessary costs in administering the escrow
                                        accounts;
                                    •   the SDAs’ true administrative costs were masked through offsets
                                        of fees against interest earned; and
                                    •   investments made by escrow agents were not insured and
                                        exposed the funds to risks of loss.

                             In one instance, an SDA was unable to provide information about the
                             amount of program funds that remained in the accounts. The OIG also
                             determined that the SDAs must better manage cash in their operating
                             accounts to ensure that cash levels maintained in such accounts are
                             minimized. We found that some SDAs had cash balances in their monthly
                             operating accounts during 1999 that exceeded $1 million. Although some
                             SDAs had invested the balances, they had not credited interest income
                             generated by the investments to appropriate Federal programs.

                             Poor cash control by Florida’s SDAs was the subject of a 1991 OIG audit
                             report. Many of the conditions discussed in that report are still prevalent.
                             In addition, the recent passage of the Workforce Investment Act (WIA) has
                             created new urgency to correct the SDAs’ cash management practices.
                             WIA requires that most participant training be provided through “individual
                             training accounts.” We noted that at least one SDA continues to use
                             escrow accounts to pay WIA participant training costs. Unless the SDAs
                             discontinue the use of escrow accounts, unnecessary interest costs to the
                             Federal government will continue and may substantially increase.

                             We recommended that ETA require the Florida SDAs to comply with cash
                             management requirements, direct the SDAs to terminate existing escrow
                             agreements, discontinue using escrow accounts to pay for participants’
                             training, reconcile balances in the escrow accounts, reduce expenditures
                             on Federal financial reports by $3.4 million, and ensure that escrow
                             balances and interest earned are credited to the appropriate Federal



Semiannual Report to the Congress                                                                     23
April 1, 2000–September 30, 2000
 A Prepared Workforce                Employment and Training: OIG Assessments
                                     of Performance and Accountability




                     programs. We also recommended that the State and ETA closely monitor
                     all Florida SDAs’ cash management practices to ensure that cash in
                     operating accounts is minimized and that interest earnings are properly
                     treated as program income.

                     In its response to the report, the State of Florida generally agreed with our
                     recommendations. Florida indicated that all SDAs will be notified that
                     escrow accounts cannot be used to fund participants’ training and stated
                     that SDAs’ cash management activities will be monitored at least annually
                     to ensure that cash balances are not excessive. We believe the proposed
                     corrective actions along with Federal and State monitoring will go a long
                     way toward resolving the problems identified in the report. (OA Report No.
                     04-00-004-03-340, issued September 20, 2000)


     The Puerto Rico Department of
     Labor and Human Resources
     Still Has No Corrective Action
     Plan for Many Single Audit
     Recommendations

                     This report completed the OIG’s efforts to assist ETA in resolving and
                     closing 208 findings contained in seven Puerto Rico Department of Labor
                     and Human Resources (DLHR) single audit reports covering the years
                     ending June 30, 1986, through June 30, 1994. The first stage of the audit
                     effort focused on the 45 most critical recurring financial weaknesses
                     identified by audits conducted under the Single Audit Act, and the results
                     were reported in an OIG audit report issued on December 8, 1999 (OA
                     Report No. 02-00-203-03-325). The current report addresses the 163
                     remaining findings requiring resolution and closure. Of these, six involved
                     questioned costs of $287,065 that should be resolved. These findings
                     contain either reportable conditions, material weaknesses, or questioned
                     costs in excess of $10,000.

                     We recommended that ETA recover the questioned costs of $287,065. We
                     also recommended that ETA ensure that in the future DLHR submits and
                     implements corrective action plans in accordance with OMB Circular No. A-
                     133. (OA Report No. 02-00-218-03-325, issued September 18, 2000)




24                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                            A Prepared Workforce
          of Performance and Accountability




    Over $190,000 of the American
    Association of Community
    Colleges’ Costs Were
    Questioned

                             We audited costs claimed for reimbursement by the American Association
                             of Community Colleges (AACC) under its DOL grants for the period from
                             May 2, 1996, to December 31, 1999. ETA awarded AACC three grants to
                             enhance the capacity of the nation’s community college system in
                             responding to the workforce training needs of dislocated and incumbent
                             workers.

                             During our audit period, AACC claimed costs of over $1.5 million under
                             these three grants. We questioned $198,678 in excessive overhead and
                             general and administrative costs, a subcontractor’s indirect costs that were
                             charged to the DOL grant in violation of grant provisions, and charges for
                             which AACC was unable to provide supporting documentation.

                             The AACC agreed with our findings. (OA Report No.18-00-008-03-340,
                             issued August 4, 2000)




Semiannual Report to the Congress                                                                     25
April 1, 2000–September 30, 2000
 A Prepared Workforce                Employment and Training: OIG Assessments
                                     of Performance and Accountability




Migrant and Seasonal Farmworker Program
                      The Migrant and Seasonal Farmworker (MSFW) Program is designed to
                      serve members of economically disadvantaged families whose principal
                      livelihood is derived from migratory and other forms of seasonal farm
                      work. Through training and other development services, the program aims
                      to prepare eligible seasonal farmworkers and their family members for
                      stable, year-round employment. The goal of the program is to increase
                      the self-sufficiency of these farmworkers by increasing their earnings and
                      employability.



     $6 Million in Grant Costs
     Submitted by the Center for
     Employment Training
     Questioned

                      The OIG audited the Center for Employment Training’s (CET’s)
                      administration of three PY 1998 ETA grants (MSFW, WtW, and the
                      Replication Project). We expanded the scope to earlier program years in
                      those areas in which we noted problems had occurred in 1998. Overall,
                      we concluded that while CET was meeting the program objectives of the
                      grants audited, its internal controls and financial reporting procedures
                      were not adequate to ensure that grant costs reported to ETA were
                      accurate and allowable under governing regulations, and we questioned
                      $6,058,825 in costs. For example, CET overstated MSFW and WtW
                      administration costs and did not credit the MSFW program with Pell Grant
                      proceeds received from the Department of Education. Moreover, DOL
                      grant costs totaling $3,728,512 were misclassified on the Replication
                      Project’s cost report.

                      To correct these deficiencies, we recommended that ETA require CET to
                      improve internal controls and financial reporting procedures for DOL
                      programs and projects. While CET agreed that errors had been made in
                      reporting administration costs and in charging some costs to the grants,
                      CET did not believe that the errors affected actual grant billings. CET
                      agreed to improve procedures for documenting participant eligibility and
                      for submitting indirect cost proposals. (OA Report No. 09-00-006-03-365,
                      issued September 26, 2000)




26                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                               A Prepared Workforce
          of Performance and Accountability




    The OIG Questioned $526,728
    Because of Inadequacies in the
    Central Valley Opportunity
    Center’s Financial Systems

                             The OIG audited the Central Valley Opportunity Center, Inc.’s (CVOC’s)
                             administration of its MSFW Program for PYs 1995 and 1996, the costs it
                             reported on financial status reports (FSRs), and its indirect cost rate
                             proposals. CVOC received $1,250,233 for PY 1995 and $1,144,818 for PY
                             1996. We expanded the scope of our audit through September 30, 1998, in
                             those areas in which we noted problems.

                             Overall, we concluded that CVOC properly met the objectives of the
                             MSFW Program grant. However, we questioned program costs totaling
                             $526,728. We found that the financial systems CVOC used to report costs
                             on the FSRs and the indirect cost proposals needed significant
                             improvements to reflect allowable costs accurately in accordance with
                             grant provisions, Federal regulations and OMB Circular No. A-122.

                             We recommended that ETA direct CVOC to:
                                    •   improve internal controls by monitoring administrative cost
                                        limitations;
                                    •   comply with grant provisions and OMB Circular No. A-122
                                        regarding timely submission of final indirect cost rate proposals;
                                    •   establish specific internal controls to identify and exclude all
                                        unallowable direct and indirect costs; and
                                    •   establish written procedures to ensure that employability
                                        enhancements are fully supported in its participant files and
                                        participant data systems.

                             We also recommended that ETA disallow inappropriate direct and indirect
                             costs identified in the audit.

                             CVOC agreed that administrative cost limitations had been exceeded,
                             that unrelated costs had been charged to the MSFW program, and that
                             there had been instances in which lodging rates were exceeded and per
                             diem rates were not calculated correctly. CVOC agreed to make the
                             necessary adjustments for these instances. In addition, CVOC provided
                             additional documentation to support program charges.




Semiannual Report to the Congress                                                                      27
April 1, 2000–September 30, 2000
 A Prepared Workforce               Employment and Training: OIG Assessments
                                    of Performance and Accountability




                     Based on CVOC’s response, which included additional documentation of
                     its expenditures, we revised our initial questioned cost amounts.
                     However, our basic conclusions and recommendations remained
                     unchanged. (OA Report No. 09-00-003-03-365, issued June 2, 2000)


Youth Opportunity Grants
                     DOL awarded JTPA Title IV Youth Opportunity demonstration grants to
                     several pilot cities (Chicago, Houston, and Los Angeles). The purpose of
                     the program is to develop a comprehensive approach aimed at improving
                     the labor market prospects of out-of-school youth, ages 16 through 24,
                     with priority given to high school dropouts in high-poverty areas. The
                     initiatives are intended to focus on getting out-of-school youth into long-
                     term employment at earnings levels that would prevent future dependency.



     Follow-up Audit Found Grantee
     Services Still Need to Improve
     and ETA Should Continue
     Program Evaluations

                     On March 22, 2000, the OIG issued “Audit Findings from First 18 Months
                     of the Three Kulick Youth Opportunity Pilot Sites Suggest Additional
                     Innovation Is Needed for Youth Training Undertaken with JTPA
                     Demonstration Grant Funds.” (OA Report No. 06-00-002-03-340) This
                     report represented a snapshot of these Youth Opportunity pilot sites in the
                     early stages of the program. The purpose in having these various pilot
                     sites was to learn lessons in order to improve the program progressively.
                     ETA has indicated that lessons learned from these three pilot sites have
                     been used to tighten the structure of the subsequent pilots and the larger
                     operational grants.

                     We performed a follow-up audit to provide DOL management with
                     additional independent information regarding whether youths’ earnings
                     increased or decreased in the year after our initial audit. While the
                     earnings outcomes appear to be improving, grantees’ services still need
                     to be improved to lead these youths to self-sufficiency.




28                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                               A Prepared Workforce
          of Performance and Accountability




                             As a measure of program accomplishment, we evaluated:
                                    •   continuity of employment as measured by (1) sustained
                                        employment from quarter to quarter, (2) the number of quarters in
                                        which participants had earnings in the four-quarter evaluation
                                        period, and (3) the number of different employers participants had
                                        in the four-quarter evaluation period; and
                                    •   participants’ earnings during the last quarter of our evaluation
                                        period.

                             We found that approximately 70 percent of the initial participants in our
                             audit sample (105 participants) had earnings in the follow-up period.
                             Overall, annual earnings of the participants sampled increased from
                             $4,217 in our initial audit to $5,482 in the follow-up. For the participant
                             universe, average annual earnings were $5,982. Tracking the earnings of
                             the participants sampled disclosed that approximately one-third of them
                             showed no significant increase or decrease in their earnings, one-third
                             showed a decrease; and one-third showed an increase.

                             In our opinion, ETA should continue to evaluate the performance of these
                             grantees and the WIA-funded Youth Opportunity operational grantees.
                             This is necessary to help increase the number of youths who obtain and
                             maintain employment and increase their annual earnings. (OA Report No.
                             06-00-003-03-340, issued September 20, 2000)




Semiannual Report to the Congress                                                                      29
April 1, 2000–September 30, 2000
 A Prepared Workforce                  Employment and Training: OIG Assessments
                                       of Performance and Accountability




Job Corps
                       Job Corps is a nationwide network of 119 residential facilities that provides
                       a comprehensive and intensive array of training, job placement, and
                       support services to at-risk young adults. Its mission is to attract eligible
                       young adults, teach them the skills they need to become employable and
                       independent, and place them in meaningful jobs or further education.
                       Participation in the program is voluntary and is open to economically
                       disadvantaged young people ages 16 through 24 who are unemployed
                       and out of school.



     Safety and Health Issues
     Identified in Prior Audit Reports
     Are Still Not Corrected

                       In March 1997, the OIG reported on the Department’s internal safety and
                       health program. Among our recommendations was clarification of the
                       roles and responsibilities of the Office of the Assistant Secretary for
                       Administration and Management (OASAM) and of Job Corps in ensuring
                       that Job Corps centers comply with the Occupational Safety and Health
                       (OSH) Act.

                       To implement our recommendations, Job Corps initiated a Memorandum
                       of Understanding (MOU) with OASAM and the Occupational Safety and
                       Health Administration (OSHA) to establish a model safety and health
                       program for its centers and to resolve some of the weaknesses identified
                       in our 1997 audit report. Job Corps also established performance
                       standards aimed at reducing the number of accidents and injuries at its
                       centers.

                       In September 2000, the OIG issued a follow-up report to determine whether
                       the issues identified in our prior audit had been corrected. To accomplish
                       our objectives, we visited eight Job Corps centers and seven regional
                       offices that have responsibility for oversight over those centers. We found
                       that Job Corps has made limited progress in implementing a model safety
                       and health program and reducing accidents and injuries, and that Job
                       Corps’ responsibilities described in the MOU have largely been unfulfilled.
                       The injury/illness rate for new students was the same in FY 1999 as it was




30                                                                  Semiannual Report to the Congress
                                                                     April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                                 A Prepared Workforce
          of Performance and Accountability




                             in FY 1994. We found that the center safety officers (CSOs) had taken few
                             of the nine safety and health courses required by the Policy and
                             Requirements Handbook (PRH). In addition, the Job Corps project
                             managers (JCPMs), while not required by the PRH to take safety and
                             health courses, had not taken any of these courses. Also, center
                             inspections were conducted informally and were not always documented.
                             There was no adequate system to ensure that violations were abated
                             properly and in a timely manner and the statistical data accumulated to
                             assist in gauging Job Corps safety and health status were based on
                             incomplete and inconsistent practices.

                             We concluded that Job Corps’ current safety and health program must be
                             improved to meet its goal of reducing center injuries and illnesses and
                             becoming a model program with exemplary safety and health plans and
                             operations. We recommended that ETA and OASAM (DOL’s designated
                             agency safety and health coordinator) ensure that Job Corps takes action
                             to improve the safety and health conditions of its centers. Specifically,
                             DOL needs to ensure that:
                                    •   CSOs fulfill the responsibilities and inspection requirements
                                        described in the PRH, and hazard abatement procedures are
                                        formalized;
                                    •   center inspections are supplemented by greater supervision of
                                        student activities to prevent physical violence and slip/trip and fall
                                        injuries;
                                    •   CSOs take all required safety and health training courses;
                                    •   JCPMs’ performance standards are revised to include safety and
                                        health as critical elements of performance, and Job Corps
                                        contractors evaluate their CSOs and center directors on
                                        improvements in center safety and health conditions;
                                    •   abatement procedures for evaluations are followed and all
                                        violations abated within 30 days;
                                    •   standard definitions for reportable injuries and illnesses and lost
                                        time cases are established; and
                                    •   the Safety and Health Information and Management System
                                        reports are reviewed by OASAM for accuracy and completeness.

                             In response, both Job Corps and OASAM generally agreed with most of
                             our findings. The agencies indicated that they recognize the need to
                             implement changes to the overall safety and health program and are
                             taking steps to address many of our recommendations. (OA Report No.
                             05-00-007-03-370, issued September 22, 2000)


Semiannual Report to the Congress                                                                          31
April 1, 2000–September 30, 2000
 A Prepared Workforce                 Employment and Training: OIG Assessments
                                      of Performance and Accountability




Veterans’ Employment Programs
                      The Veterans’ Employment programs administered by the Veterans’
                      Employment and Training Service (VETS) are designed to meet the
                      employment and training needs of service-connected disabled veterans,
                      veterans of the Vietnam era, and veterans who have recently been
                      separated from military service.



     Disabled Veterans’ Outreach
     Specialist Provided Services to
     Nonveterans

                      Based on a congressional request, the OIG audited a Disabled Veterans’
                      Outreach Program (DVOP) administered by the Maryland Department of
                      Labor, Licensing, and Regulation (DLLR). It was alleged that a DVOP
                      specialist was directed by the job service office manager to perform
                      services for nonveterans in violation of the law that restricts DVOP
                      services to eligible veterans. It was also alleged that the DVOP specialist
                      was identified as a whistle blower and that he had been subjected to
                      reprisal by the manager as a result of reporting the violations to the State
                      of Maryland and VETS. In an October 1998 evaluation report issued by
                      VETS, VETS stated that it had been brought to the evaluator’s attention
                      that a DVOP specialist was serving nonveterans.

                      Our audit confirmed that the DVOP specialist had provided services to
                      nonveterans in violation of the law. While the DVOP specialist
                      acknowledged that he knew such actions were a violation of the law, we
                      concluded that there was no evidence that the office manager or job
                      service supervisor had directed the DVOP specialist to provide service to
                      nonveterans, as was contended. However, there was evidence to show
                      that they were aware this was occurring.

                      We also found that:
                          •   DLLR’s response to the violations was inadequate;
                          •   the complaint alleging acts of reprisal for reporting violations had
                              not been formally addressed;




32                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
  Employment and Training: OIG Assessments                              A Prepared Workforce
          of Performance and Accountability




                                    •   DLLR’s calculation of the amount to be reimbursed to the DVOP
                                        grant for the costs of providing services to nonveterans was
                                        unintentionally understated by $24,000;
                                    •   VETS needs to be more aggressive in ensuring that violations are
                                        adequately resolved; and
                                    •   VETS needs to change its procedures for local employment
                                        service office evaluations to improve its effectiveness in
                                        identifying violations.

                             We recommended that VETS instruct DLLR to implement a proposed
                             corrective action plan to ensure that violations do not reoccur. In addition,
                             we recommended that VETS recover $24,000, in addition to the $15,500
                             originally proposed by the State for refund, for a total recovery of $39,500.
                             We also recommended that VETS develop policies defining the Federal
                             VETS regional administrator’s and state directors’ responsibilities in
                             negotiating remedies to state compliance issues. We also recommended
                             that VETS modify its local office evaluation procedures to increase
                             assurances that incidents of serving nonveterans are identified.

                             VETS disagreed with our recommendation to require DLLR to define the
                             appropriate disciplinary action to be taken against employees involved in
                             the violations because the disciplinary action in this matter is a state
                             function, and VETS has procedures to ensure that violations are
                             adequately resolved. We agreed that disciplinary action against state
                             employees involved in this type of violation is a state function and revised
                             our draft report accordingly.

                             VETS, in its response to the draft report, agreed to require certifications
                             from DVOP specialists that they are providing services to veterans only.
                             Concerning our recommendation to modify evaluation procedures, VETS
                             stated that it is in the process of updating its evaluation manual and that
                             there are already procedures for the establishment of time frames for
                             corrective action plans and the identification of violations of the prohibition
                             against DVOPs’ serving nonveterans at local employment service offices.
                             We believe that, as part of its oversight responsibilities, it is critical for
                             VETS to ensure that Federal DVOP funds are spent according to law and
                             that states are dealing effectively with violations. In our opinion, specific
                             policies are needed to ensure that VETS and state directors adequately
                             resolve these violations. (OA Report No. 03-00-009-02-201, issued
                             September 28, 2000)




Semiannual Report to the Congress                                                                        33
April 1, 2000–September 30, 2000
 A Prepared Workforce
                                     Audit Resolution




     A Revised Management
     Decision Was Issued for the
     Puerto Rico Migrant and
     Seasonal Farmworker Program

                      The OIG conducted a performance and financial audit of the Puerto Rico
                      Department of Labor and Human Resources (DLHR) Migrant and Seasonal
                      Farmworker Program for the period from July 1, 1991, to March 31, 1995,
                      and questioned $1,764,658 of program expenditures. Subsequently, ETA
                      issued a management decision disallowing all of the questioned costs
                      (reported in the March 31, 1997, Semiannual Report). ETA later withdrew
                      this management decision and issued a revised management decision that
                      disallows $604,701.

                      The revised management decision was based on additional
                      documentation submitted by DLHR to ETA. This included an audit report
                      by an accounting firm that reported that DLHR had incurred $460,125 in
                      stand-in costs, which were allowed by ETA. Accordingly, $144,576 of the
                      disallowed costs was established as a debt to the Federal government
                      and is subject to collection. (OA Report No. 18-96-005-03-365, issued
                      February 27, 1996)


     Audit of the East Texas Council of
     Governments’ JTPA Program

                      In a 1992 audit of the East Texas Council of Governments (ETCOG), the
                      OIG questioned $5.8 million in profits, interest and program income, and
                      expenditures. Nearly $4.5 million of the questioned amount consisted of
                      profits earned by two subcontractors that operated the JTPA program for
                      ETCOG. Prior to the release of our report, the subcontractors filed a
                      lawsuit against the Service Delivery Area (SDA) and the State of Texas,
                      among others.

                      On May 11, 2000, ETA finalized a settlement agreement between the
                      Department and the State of Texas, the East Texas Council of
                      Governments SDA, and the SDA’s two service providers. The
                      agreement provides for the State, the SDA, and the service providers to
                      repay $2,030,000 to the Department. To date, the Department has
                      recovered $1,830,000. (OA Report No. 06-92-010-03-340, issued
                      September 30, 1992)




34                                                              Semiannual Report to the Congress
                                                                 April 1, 2000–September 30, 2000
                                                                       A Prepared Workforce
                                       Audit Resolution




    The Washington Alliance
    Welfare-to-Work Grant Was
    Terminated

                             On August 11, 2000, ETA informed the Washington Alliance that its grant
                             would be terminated effective August 15, 2000. The proposal for
                             termination was based on the OIG’s postaward survey report and ETA’s
                             review. We had performed the postaward survey to assess the
                             Washington Alliance’s ability to administer its $5 million Welfare-to-Work
                             Competitive Grant in accordance with applicable regulations. The grant
                             application described the Alliance as a collaborative effort of nine
                             organizations with two general partners and seven subcontractors.
                             However, we concluded that the Alliance materially failed to comply with
                             the conditions of the grant and had neither the administrative nor the
                             program capacity to operate the WtW grant.

                             The Alliance has appealed ETA’s decision. (OA Report No. 03-00-004-
                             03-386, issued March 27, 2000)


    Audit of the JTPA-Funded
    Florida Minority Teachers’
    Education Program

                             The OIG conducted a compliance audit of JTPA funds spent on the Florida
                             Fund for Minority Teachers, a State of Florida initiative, and found that
                             nearly $3 million was improperly spent. Instead of being used to operate
                             a JTPA program, the funds were used to provide minority college students
                             with “scholarships” in exchange for their commitment to remain in Florida
                             and teach after graduation. The students who received the scholarships
                             were not dislocated workers, whom the JTPA funds were intended to
                             serve. Florida provided the funds to students without determining their
                             eligibility for JTPA Title III. In addition, the scholarships were provided
                             only to certain ethnic and racial groups, in violation of JTPA requirements.

                             On August 4, 2000, ETA issued a final determination disallowing almost
                             $3 million questioned by the OIG. This amount is subject to debt
                             collection. (OA Report No. 04-00-001-03-340, issued January 24, 2000)




Semiannual Report to the Congress                                                                     35
April 1, 2000–September 30, 2000
 A Prepared Workforce
                                      Employment and Training: Fraud Investigations




     Washington Man Ordered to
     Repay $1.8 Million for Theft of
     Government Funds

                       Wallace Jorgensen, the former lead accountant and bookkeeper for the
                       National Asian Pacific Center on Aging (NAPCA) of Seattle, WA, was
                       sentenced on June 5, 2000, to two and a half years’ imprisonment, three
                       years’ probation, and was ordered to pay over $1.8 million in restitution,
                       following his February 2000 guilty plea to charges of theft of Federal
                       funds. On May 15, 2000, Jorgensen’s daughter, Gina, was sentenced to
                       one month of home confinement with electronic monitoring, 100 hours of
                       community service, five years’ probation, and was ordered to participate
                       in a mental health and financial counseling program for her role in the
                       theft.

                       NAPCA receives approximately 55 percent of its funding from DOL
                       through grants under the Senior Community Service Employment
                       Program administered by DOL’s Employment and Training Administration.
                       An investigation revealed that from July 1994 to March 1999, Jorgensen
                       misappropriated funds by issuing checks drawn on NAPCA’s travel and
                       beneficiary payroll accounts to himself and members of his family,
                       including his daughter, who received approximately $350,000. The
                       absence of internal controls facilitated the embezzlement, as Jorgensen
                       had signatory authority for the checks and was also responsible for
                       reconciling the accounts from which the funds were paid. This
                       investigation also established that Jorgensen owes $609,000 in Federal
                       personal income taxes on the embezzled funds. The sentencing of
                       Jorgensen concludes the criminal aspects of this investigation, which was
                       conducted jointly with the IRS Criminal Investigation Division, the
                       Environmental Protection Agency (EPA) OIG, and the FBI. The EPA and
                       DOL will proceed with administrative action. U.S. v. Wallace Jorgensen,
                       U.S. v. Gina Jorgensen (W.D. Washington)


     Company Official Sentenced for
     Embezzling Funds in Michigan

                       On June 5, 2000, Michael Finan, the secretary-treasurer of Port Austin
                       Level and Tool Manufacturing Company (PALTMC) of Sandusky, MI, was
                       sentenced to one years’ imprisonment, five years’ probation, and was
                       placed in a work release program while incarcerated to make restitution
                       payments that total $374,000. The investigation disclosed that from 1994
                       to 1996, Finan embezzled over $27,000 in retirees’ health insurance



36                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
                                                                      A Prepared Workforce
Employment and Training: Fraud Investigations




                             payments and $2,300 of JTPA funds paid by the Thumb Area
                             Employment Training Consortium and received over $194,500 in
                             payments for merchandise belonging to PALTMC, which Finan sold at a
                             discount to Action Tool Company of Florida. Finan committed the fraud by
                             instructing clerical staff he supervised to cash checks and return the
                             money to him. These cash receipts were never entered into PALTMC’s
                             books or records, but were used for Finan’s personal expenses. This was
                             a joint investigation with the Pension and Welfare Benefits Administration.
                             State of Michigan v. Finan (E.D. Michigan)




Semiannual Report to the Congress                                                                    37
April 1, 2000–September 30, 2000
 A Prepared Workforce
                                       Employment and Training: Fraud Investigations




Foreign Labor Certification Program
                       The Department of Labor’s foreign labor certification (FLC) programs are
                       generally designed to ensure that the admission of aliens to work in the
                       United States on a permanent or temporary basis will not adversely affect
                       the job opportunities, wages, and working conditions of American workers
                       or legal resident aliens. The H-1B Visa Specialty Workers Program, an
                       FLC program, requires employers who intend to employ specialty occupation
                       workers temporarily to file labor condition applications with the Department
                       stating that appropriate wage rates will be paid and workplace guidelines
                       followed. Proper worker documentation must accompany these applications.
                       OIG audits and investigations have routinely shown that the individuals
                       allowed into the United States under this program typically lack the
                       specialized skills necessary for meeting the requirements for H-1B visas.


                       The OIG continues to identify fraud in the FLC programs, with the majority
                       of cases involving the H-1B temporary work visa program. These cases
                       involve fraudulent petitions that are filed with DOL on behalf of fictitious
                       companies and corporations, individuals who file petitions using the names
                       of legitimate companies and corporations without their knowledge or
                       permission, and an increasing number of immigration attorneys and labor
                       brokers who collect fees and file fraudulent applications on behalf of aliens.
                       During the last six-month period, OIG investigations led to the indictment
                       and conviction of 12 individuals engaged in this type of fraud. In
                       comparison, the OIG has averaged 14 indictments and 11 convictions
                       per year for labor certification fraud over the prior five-year period.


     California Health Care Firm
     Officials Pled Guilty to Alien
     Smuggling

                       On September 21, 2000, Matahom “Pearl” Scully of San Francisco, CA,
                       the president of MSSA International as well as an immigration consultant,
                       pled guilty to visa fraud and conspiracy. In addition, on August 4, 2000,
                       Golden State Health Care (GSHC), a California firm specializing in




38                                                                   Semiannual Report to the Congress
                                                                      April 1, 2000–September 30, 2000
                                                                        A Prepared Workforce
Employment and Training: Fraud Investigations




                             rehabilitation and convalescent care, and GSHC officer Daniel Reyes
                             pled guilty to charges of alien smuggling. From 1994 through 1997, Scully
                             drafted hundreds of fraudulent petitions for Filipino aliens seeking
                             admission to the United States through the H1-B visa program and
                             pocketed fees of up to $5,000 from each alien sponsored by GSHC. The
                             petitions signed by Reyes falsely showed that GSHC was seeking
                             workers in specialty occupations such as budget analysis, program
                             management, and engineering, when in fact the company’s vacancies
                             were limited to low-skilled, low-paid jobs such as certified nursing
                             assistants, janitors, and maintenance. In addition, in February 2000,
                             Scully’s attorney, Mae Lantion of Los Angeles, was indicted on charges of
                             alien smuggling and visa fraud. The investigation found that the
                             defendants transported the aliens to job interviews and helped the aliens
                             find jobs they were not authorized to hold. In order to conceal the fact that
                             the aliens were working for non-H-1B-approved employers, the
                             defendants directed employers to pay the aliens’ salaries to MSSA, which
                             in turn paid the aliens, after deducting a portion of their salaries. This was
                             a joint investigation with the Immigration and Naturalization Service (INS)
                             and Department of State. U.S. v. Reyes, Scully, Lantion (N.D. California)


    Immigration Attorney
    Sentenced for Visa Fraud in
    Texas

                             Justin Ong, an immigration attorney in Houston, TX, was sentenced on
                             June 26, 2000, to four months’ imprisonment, four months’ home
                             confinement, three years’ supervised release, and fined $7,500, following
                             his November 1999 guilty plea to charges of visa fraud and filing a
                             fraudulent income tax return. He also agreed to surrender his license to
                             practice law, to pay back taxes of over $90,000, and to cease any
                             employment related to immigration law.

                             Ong primarily practiced immigration law, and he represented a number of
                             Chinese aliens who were seeking immigration visas and ultimately
                             permanent residence in the United States. In the course of his practice, he
                             gave two aliens false immigration documents to facilitate their admission
                             as students at Houston Community College. He also created shell
                             companies and represented on immigration documents that the aliens
                             were employed. As part of Ong’s scheme, he filed with DOL fraudulent
                             alien labor certifications required for the issuance of visas.




Semiannual Report to the Congress                                                                       39
April 1, 2000–September 30, 2000
 A Prepared Workforce
                                     Employment and Training: Fraud Investigations




                     This two-year investigation was conducted with the Asian Organized
                     Crime Task Force of the Houston U.S. Attorney’s Office, which included
                     the Department of State, the Bureau of Diplomatic Security, the FBI, and
                     the INS. U.S. v. Ong (S.D. Texas)


     California Immigration
     Company Owner Sentenced
     in Visa Fraud Scheme

                     On October 2, 2000, Juliet Cortez, the owner of Triumph Immigration
                     Service, was sentenced to two years’ probation and 300 hours of
                     community service for her role in a labor certification scheme. In addition,
                     on July 31, 2000, disbarred attorney John Heine was sentenced to two
                     months’ incarceration, two months’ home detention, and three years’
                     probation for representing aliens on over 230 petitions. Heine claimed to
                     be an attorney in good standing, when in actuality he had been suspended
                     in 1993 and disbarred in 1995. On July 17, 2000, Antonina Peralta, the
                     owner of Inter-World Immigration (IWI), pled guilty to false statement
                     charges.

                     An ongoing investigation of IWI has revealed that, since the early 1990s,
                     multiple co-conspirators were involved in the preparation of fraudulent
                     employment-based petitions that were submitted to DOL, the INS, and the
                     California Employment Development Department (EDD). Peralta
                     contracted with Cortez and Americus Ramos, a consultant to numerous
                     board and care facilities who pled guilty in August 2000. Ramos and
                     Cortez recruited petitioning employers, created fictitious companies, and
                     stole the identities of legitimate companies to be used on at least 100
                     fraudulent nonimmigrant (H-1B) and immigrant (permanent labor
                     certification) petitions. This is a joint investigation with the INS and EDD.
                     U.S. v. Cortez, Peralta, Heine, et al. (C.D. California)


     Florida Immigration Attorney
     Pled Guilty to Visa Fraud

                     On September 7, 2000, immigration attorney Avi Carmel of Miami, FL,
                     pled guilty to conspiracy to commit fraud in connection with the
                     preparation and filing of employment-based visa petitions. He has agreed
                     to surrender his license to practice law as a condition of the plea
                     agreement. Carmel’s immigration law practice specialized in obtaining
                     work visas and skilled worker visas for alien clients. From February 1995




40                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
                                                                       A Prepared Workforce
Employment and Training: Fraud Investigations




                             to January 1999, Carmel directed attorneys and paralegals who worked
                             for him to prepare false applications to be submitted to DOL and the INS
                             to obtain legal status in the United States for aliens he represented. The
                             OIG investigation revealed that Carmel misrepresented the work
                             experience and background of the alien petitioner, and falsified the
                             ownership and corporate structure of the sponsoring businesses through
                             fabricated stock certificates. This was a joint investigation with the INS.
                             U.S. v. Carmel (S.D. Florida)

    Doctor Sentenced for Visa
    Fraud in Texas

                             On August 18, 2000, Dr. Demetria Montalvo of Texas was sentenced to
                             six months in a halfway house, five years’ probation, and was immediately
                             processed by the U.S. Border Patrol for deportation to the Philippines,
                             following her May 2000 guilty plea to charges of aiding and abetting and
                             visa fraud. The investigation found that from November 1998 to March
                             2000, Dr. Montalvo worked with Dan Rush, the general manager of
                             Diamond Care, Inc., to obtain a work visa for nurse Annabelle Sevillano of
                             Manila, Philippines. The false affidavit stated that Sevillano was
                             contracted to work at Southern Manor, a Diamond Care nursing home in
                             Lubbock, TX, for a two-year period with an offered wage of $23,400, when
                             in fact, no nursing position was available. In addition, Montalvo had
                             promised to pay Rush $500 once Sevillano’s visa was granted and she
                             had entered the United States. This case was initiated from schemes
                             uncovered during the investigation of Billy Jewell, Diamond Care, Inc.,
                             and related facilities that were previously prosecuted. This is a joint case
                             with the Department of State and the INS Border Patrol. U.S. v. Montalvo
                             (N.D. Texas)




Semiannual Report to the Congress                                                                     41
April 1, 2000–September 30, 2000
 Promoting the
   Economic
   Security of
  Workers and
    Families




 A Secure
Workforce
The Department of Labor is committed to protecting workers’ hours, wages, and other
conditions when they are on the job, providing unemployment and compensation benefits
when workers are unable to work, and expanding, enhancing, and protecting workers’
pensions, healthcare, and other benefits. The key priorities for this strategic goal are to
increase compliance with minimum-wage and overtime requirements, enable working
Americans to be economically secure when they retire, provide more pensions for women
and employees of small businesses, provide better access to healthcare, and facilitate
community readjustment in those areas suffering from economic change by shortening
periods of unemployment and increasing full-time jobs and wage replacement.



In support of the Department’s goal, the OIG works to safeguard workers’ and retirees’
benefit programs by enhancing program performance and accountability. This includes
conducting sufficient activities to assess and make recommendations to enhance
significantly the Department’s ability to administer and safeguard the billions of dollars
in employment, unemployment, and disability compensation benefit programs
effectively and to protect employee pension, healthcare, and welfare benefit plans.
                                                                        A Secure Workforce
            Worker Benefits: Fraud Investigations



Unemployment Insurance
                             Enacted over 60 years ago as a Federal-state partnership, the
                             Unemployment Insurance (UI) program is the Department’s largest income-
                             maintenance program. This multi-billion-dollar program assists individuals
                             who have lost their jobs through no fault of their own and is administered
                             by State Employment Security Agencies (SESAs) in 50 states, the District
                             of Columbia, Puerto Rico, and the U.S. Virgin Islands under the oversight
                             of ETA.

                             Ensuring the integrity of the UI program is the joint responsibility of the
                             Federal and state entities charged with administering and overseeing the
                             program. Only through a comprehensive, integrated approach of oversight
                             and enforcement can the necessary safeguards be institutionalized to
                             assure that UI benefits will be available to unemployed individuals when
                             needed. Although SESAs have investigative branches, they have, in the
                             past, focused mainly on fraudulent claimant cases within their own state
                             borders. This is because of issues of limited enforcement capability, as
                             well as a lack of multi-state jurisdiction, which precludes some states
                             from effectively detecting and investigating more complex fraud schemes
                             or schemes that cross state lines.

                             As noted in previous reports, OIG investigations into fictitious employer
                             schemes have been increasing over the past five years. The OIG is
                             increasingly concerned with the ability of individuals to file a fraudulent
                             claim over the telephone or Internet and to counterfeit UI benefit checks
                             or alter payroll checks with a state’s UI banking code. An example of the
                             use of the Internet to obtain fraudulent UI benefits that occurred in the
                             State of Pennsylvania is highlighted in this section.

                             OIG investigations have also demonstrated that numerous schemes have
                             been devised by individuals that have resulted in the failure of employers
                             to pay their portion of the UI tax on employee wages. These contractors
                             and employers, who trade in cheap and sometimes illegal immigrant labor,
                             have diverted money from the UI trust fund by underreporting or failing to
                             report real wages of their employees.




Semiannual Report to the Congress                                                                    45
April 1, 2000–September 30, 2000
     A Secure Workforce
                                    Worker Benefits: Fraud Investigations



                     Moreover, the OIG has identified Federal contractors who have submitted
                     fraudulent Employer Quarterly Wage Reports to state UI entities, usually
                     by underreporting the numbers of employees on their payrolls, or in some
                     cases by underreporting wages paid to their employees. In both instances,
                     neither the liable state nor the Federal government can properly determine
                     an appropriate unemployment tax on the employer who provides false
                     information.

                     In addition to the employer schemes, false UI claims by individuals continue
                     to be an area of concern. We have increased our efforts to provide states
                     with assistance in this area, and we continue to place attention on UI
                     fraud involving multiple states or public benefit programs.


     Eleventh Defendant Sentenced
     for UI Fraud Scheme in
     Massachusetts

                     On September 25, 2000, James Baker was sentenced for defrauding the
                     Massachusetts Division of Employment and Training (MDET). Baker and
                     his co-conspirators used two fictitious companies, Talk Boston, Inc., and
                     X-Call Corporation, to file 40 fraudulent UI claims between December
                     1994 and January 1999. To date, 11 of 15 defendants have been
                     sentenced to a total of five years’ incarceration, 31 years’ probation, and
                     have been ordered to pay nearly $542,000 in restitution. This joint
                     investigation was conducted with the U.S. Postal Inspection Service, the
                     Social Security Administration OIG, and MDET. U.S. v. Baker, et al. (D.
                     Massachusetts)


     Guilty Plea from Nevada Man
     for Multi-State UI Scam

                     On August 24, 2000, Kenneth Allen of Las Vegas, NV, was sentenced to
                     one and a half years’ incarceration, three years’ supervised release, and
                     was ordered to pay $230,500 in restitution. Allen pled guilty in May 2000
                     to 20 counts of mail fraud arising from fraudulent UI benefits he collected
                     in California, Massachusetts, Texas, and Nevada. The investigation
                     determined that between September 1996 and November 1999, Allen
                     established 13 fictitious companies, submitted fraudulent interstate UI




46                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                        A Secure Workforce
            Worker Benefits: Fraud Investigations



                             claims based on false reported wages for 36 fictitious claimants using
                             names and social security numbers of deceased persons, and then
                             collected UI benefit checks based on the claims via the U.S. mail.

                             This was a joint investigation with the California Employment
                             Development Department, the U.S. Postal Inspection Service, the
                             Nevada Employment Security Division, and the Massachusetts Division
                             of Employment and Training. U.S. v. Allen (M.D. Georgia)


    Two Defendants Pled Guilty in
    Fictitious Record Company
    Scam in Pennsylvania

                             On September 18, 2000, Terrell Pollard and Mark Davies of Philadelphia,
                             PA, entered guilty pleas to charges of bank fraud and mail fraud in
                             connection with a $300,000 UI fraud scheme dating back to 1993. The
                             investigation revealed that the defendants submitted phony W-2 wage
                             and tax statements and bogus pay stubs from a fictitious company to
                             obtain benefits fraudulently, as well as deposited a stolen and falsely
                             endorsed U.S. Treasury check and a counterfeit UI check.

                             The alleged leader of the scheme, Isaiah Ginyard, was indicted with
                             Pollard and Davies (Ginyard’s brother-in-law) on April 20, 2000. The
                             investigation found that Ginyard orchestrated the plan to defraud the
                             Pennsylvania Department of Labor and Industry by registering a fictitious
                             record company with false owners. The investigation showed that Pot of
                             Gold Records never paid any money into the State’s Unemployment
                             Compensation fund on behalf of its alleged employees. Ginyard was also
                             charged for attempting to deposit two counterfeit checks and for passing
                             himself off as a landlord to obtain Section 8 rental assistance payments
                             from the Philadelphia Housing Authority (PHA) fraudulently. The
                             investigation was worked jointly with the U.S. Department of Treasury,
                             OIG for Tax Administration, the FBI, and the PHA-OIG. U.S. v. Ginyard, et
                             al. (E.D. Pennsylvania)


    Florida Man Charged in Alleged
    Multi-State Fictitious Employer
    Scheme

                             Allan Fowlds of Fort Myers, FL, was indicted on June 28, 2000, for mail
                             fraud violations and for using a false social security number in connection
                             with an alleged seven-year UI scheme involving multiple fictitious




Semiannual Report to the Congress                                                                    47
April 1, 2000–September 30, 2000
     A Secure Workforce
                                     Worker Benefits: Fraud Investigations



                     employers in various states. From December 1990 to May 1997, Fowlds
                     allegedly received workers’ compensation benefits in Ohio after claiming
                     an on-the-job injury at his fictitious company, Admiral Sales, Inc. This
                     resulted in his fraudulent receipt of $113,000 in benefits. In addition, for
                     four years, Fowlds allegedly filed a series of fraudulent employer tax
                     reports with the Florida Department of Labor and Employment Security.
                     These reports represented employment with a fictitious company and
                     allowed him to receive UI benefits from the State of Florida. This
                     investigation is being conducted jointly with the Social Security
                     Administration OIG. U.S. v. Fowlds (M.D. Florida)


     Washington Woman Agreed to
     $71,000 in Restitution for UI
     Fraud

                     On April 27, 2000, Cynthia Steward of Seattle, WA, pled guilty to charges
                     of mail fraud and social security number fraud in connection with a
                     fictitious employer scheme and agreed to make restitution totaling
                     $71,000 to the Washington Employment Security Department and the
                     Washington Department of Social and Health Services. The investigation
                     found that from July 1996 to November 1999, Steward, in conspiracy with
                     her brother Ulysses Steward and friend Barney Terry, filed eight claims
                     that resulted in a total of 180 payments against three fictitious businesses
                     she had created, Sterling Federal Mortgage, Capital Investment and
                     Loans, and Questar Mortgage. With a fourth legitimate employer, First
                     National Mortgage, Steward filed fictitious wage information with the State
                     of Washington, which also allowed her to receive UI benefits fraudulently.
                     In addition, the OIG identified an ongoing scheme in which she obtained
                     $700 a month in Federally funded childcare assistance, also based on
                     employment at one of the fictitious businesses. This investigation was
                     conducted in conjunction with the State of Washington Office of Special
                     Investigations. U.S. v. Steward (W.D. Washington)


     Defendants Used Internet in UI
     Fraud Scheme in Pennsylvania

                     Craig Levi of Williamsport, PA, pled guilty on May 12, 2000, to charges of
                     wire fraud for his role in a scheme to create and operate a business on the
                     Internet to defraud individuals and the Pennsylvania State UI program of
                     approximately $188,000. Levi’s co-defendant, Frank Nickens, was charged




48                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                         A Secure Workforce
            Worker Benefits: Fraud Investigations



                             on April 12, 2000, with 67 counts of wire fraud. The investigation revealed
                             that from January to March 2000, Levi and Nickens used the Internet to file
                             false UI claims as well as to offer for sale high-tech electronic items that
                             they did not possess. This was a joint investigation with the FBI. U.S. v.
                             Nickens, Levi (M.D. Pennsylvania)

    Missouri Defendants Pled
    Guilty to Theft of Private
    Electronic Information

                             Three defendants from Kansas City, MO, have admitted to their role in the
                             sale of confidential information maintained by the Missouri Division of
                             Employment Security (MDES). On July 10, 2000, Joseph Sublett, a
                             former disabled veterans’ representative for MDES, pled guilty to charges
                             of conspiracy to steal property from a government agency. Co-defendants
                             Beverly Race and Teresa Faller pled guilty in June 2000 for their role in the
                             scheme of creating a business called Legal Support Services to conceal
                             cash payments to Sublett. The investigation revealed that from March
                             1996 to February 1997, Sublett accessed over 1,000 social security
                             numbers per month from the State’s wage reporting system. He unlawfully
                             provided the information to Race and Faller in exchange for cash
                             payments of nearly $65,000. U.S. v. Sublett, Faller, Race (W.D. Missouri)

    Counterfeit UI Check Scheme
    Ringleader Sentenced

                             On May 25, 2000, Jonathan Coleman, the leader of a counterfeiting ring in
                             New Orleans, LA, was sentenced for his part in a scheme to steal $2 million
                             from the Louisiana Department of Labor (LDOL) using counterfeit payroll
                             and UI checks. The case was initiated when LDOL’s Internal Security Unit
                             notified the OIG that individuals were attempting to cash counterfeit checks
                             bearing LDOL’s UI bank routing number. To date, Coleman and two
                             associates have been sentenced to a total of four years’ incarceration, six
                             years’ probation, and have been ordered to pay $956,000 in restitution.
                             This investigation involved the cooperative efforts of the U.S. Secret
                             Service and the Louisiana Department of Justice. U.S. v. Coleman, et al.
                             (E.D. Louisiana)




Semiannual Report to the Congress                                                                      49
April 1, 2000–September 30, 2000
     A Secure Workforce
                                      Worker Benefits: Fraud Investigations



     New York Man Ordered to Pay
     Nearly $68,000 in Restitution for
     UI Scheme

                       On April 11, 2000, Ira Malkin of Brooklyn, NY, was sentenced to four
                       years’ probation and was ordered to make restitution of nearly $68,000 for
                       using false names and social security numbers to file fraudulent UI claims
                       in New York and New Jersey. The joint investigation discovered that
                       Malkin collected nearly $12,000 in benefits from April 1991 to July 1992,
                       claiming he had been employed by Casabiel Steel in Jersey City, NJ.
                       Between November 1992 and March 1999, Malkin received benefits for
                       five additional UI claims in New York and New Jersey using the identities
                       of others. This investigation was conducted with the Social Security
                       Administration. U.S. v. Malkin (E.D. New York)




50                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
               Worker Benefits: OIG Assessments                            A Secure Workforce
               of Performance and Accountability


Audits Relating to the Unemployment Insurance Program
                             In addition to the investigative work that the OIG does related to
                             Unemployment Insurance, we have also performed audits on the UI
                             program as highlighted below.


    Allegation of Misuse of
    Unemployment Insurance
    Funds in the State of Maryland

                             The OIG conducted an audit resulting from a hotline complaint alleging
                             misuse of Federal funds at the State of Maryland’s Division of Employment
                             and Training (DET) Office of Unemployment Insurance in Baltimore, MD.
                             Our objectives were to conduct a limited-scope audit to determine whether
                             administrative costs including the payment of rent had been handled
                             appropriately for a Baltimore office building and whether the dismissal of
                             two employees who had been released and rehired had been handled
                             properly.

                             Our audit determined that the Baltimore office building was purchased with
                             Federal funds. However, the State of Maryland did not use this property as
                             originally authorized, but instead rented a portion of it to non-DET personnel
                             and did not reimburse approximately $967,426 to DOL for maintenance and
                             operating expenses for the portion of the space occupied by non-DET
                             personnel. We also determined that two UI employees were discharged for
                             various reasons and subsequently rehired. The OIG has no reason to
                             question the handling of one employee. However, the other employee was
                             discharged and rehired, and $50,525 in salary payments was improperly
                             billed to the UI program.

                             We recommended that ETA ensure that the Maryland DET:
                                    •   obtain the required approval and/or instructions from ETA as to the
                                        use of the Baltimore property;
                                    •   reimburse DOL $967,426 for the portion of the maintenance and
                                        operating expenses relating to the non-DET personnel occupying
                                        space at the property from State FYs 1997 through 2000 and any
                                        future costs allocable to non-DET occupants; and
                                    •   reimburse UI $50,525 for wages incorrectly billed on behalf of one
                                        employee.

                             The State of Maryland agreed with most of our recommendations but
                             disagreed with our recommendation on reimbursing the Department
                             $967,426. (OA Report No. 03-00-010-03-315, issued September 25, 2000)

Semiannual Report to the Congress                                                                       51
April 1, 2000–September 30, 2000
     A Secure Workforce            Worker Benefits: OIG Assessments
                                   of Performance and Accountability



Office of Workers’ Compensation Programs
                    The Office of Workers’ Compensation Programs (OWCP) administers
                    three major disability compensation programs that provide wage
                    replacement benefits, medical treatment, vocational rehabilitation, and
                    other benefits to certain workers or their dependents who experience
                    work-related injury or occupational disease. These programs, the Federal
                    Employees’ Compensation Program, the Black Lung Benefits Program,
                    and the Longshore and Harbor Workers’ Compensation Program, help to
                    mitigate the financial burden resulting from workplace injury.


     Automated Crossmatches
     Between FECA Rolls and SSA
     Wage Information Would Result
     in Program Savings

                    During FYs 1996 and 1997, OWCP paid $1.3 billion annually in
                    compensation benefits. During this time, there were about 50,000
                    claimants annually on the FECA long-term disability roll, of which 27,000
                    were determined by OWCP to be totally disabled without any regular
                    wage-earning capacity. By law, when a claimant is judged to possess
                    wage-earning capacity, the amount of compensation payments should be
                    adjusted accordingly.

                    The OIG looked at OWCP internal controls and conducted a crossmatch
                    between FECA rolls and Social Security Administration (SSA) and state
                    wage records to determine:
                       •   whether FECA claimants earned wages while receiving long-term
                           total disability compensation;
                       •   whether automated crossmatches with Federal or state wage
                           records would provide an independent source of information that
                           could assist OWCP in identifying potential claimant fraud or
                           overpayments and in monitoring claimants’ continuing eligibility;
                           and
                       •   whether internal controls adequately ensured that claimant wages
                           were detected and benefit amounts were adjusted accordingly.




52                                                             Semiannual Report to the Congress
                                                                April 1, 2000–September 30, 2000
               Worker Benefits: OIG Assessments                            A Secure Workforce
               of Performance and Accountability



                             Using the SSA crossmatch, we found that:
                                    •   905 of the 27,050 claimants in our sample had total earnings of
                                        $2.9 million;
                                    •   almost 5 percent of the social security numbers in our sample
                                        taken from OWCP’s benefit payment system were incorrect; and
                                    •   we could only obtain aggregate information for our sample, and
                                        therefore could not determine the identity of the 905 claimants and
                                        review their claim files to determine whether the earnings were
                                        reported and whether there was potential fraud or overpayment.

                             We also performed a crossmatch of FECA rolls with state wage records. For
                             this survey, our sample included 27,050 and 25,973 FECA claimants for
                             calendar years (CYs) 1996 and 1997, respectively. We used state wage
                             data from six states (Maryland, New Jersey, Oklahoma, Pennsylvania,
                             Texas, and Virginia), which represent about 24 percent of the totally
                             disabled claimants. The audit uncovered a total of 33 potential fraud cases,
                             which were subsequently referred to the DOL OIG Office of Investigations.

                             The 33 cases represent a potential cost avoidance totaling $6.1 million over
                             10 years. Even if the 33 claimants were not convicted of fraud, OWCP could
                             establish overpayment of an additional $956,000 in compensation paid
                             over the 15-month period in which the claimants falsified their earnings
                             statements (an average of $29,000 per claimant).

                             Access to SSA wage data could provide a cost-effective tool to ferret out
                             the small number of dishonest claimants. Moreover, conducting
                             automated crossmatches on an annual basis would be less expensive
                             administratively and would provide better assurance of claimants’
                             continued eligibility. We estimate that if an automated SSA crossmatch
                             were conducted annually (as opposed to the current system of once every
                             three years), OWCP’s savings in SSA charges, clerical costs, and
                             postage would be $347,000 in the first year and at least $359,000 in
                             subsequent years. An annual crossmatch would also enable OWCP to
                             identify claimants who fraudulently conceal earnings more effecitvely and
                             remove them from the disability rolls in a timely manner.

                             We recommended that the Employment Standards Administration (ESA):
                                    •   continue to pursue legislation to allow OWCP to conduct a
                                        computer crossmatch between the social security numbers of
                                        FECA claimants on the periodic roll and earnings reported to SSA;




Semiannual Report to the Congress                                                                       53
April 1, 2000–September 30, 2000
     A Secure Workforce            Worker Benefits: OIG Assessments
                                   of Performance and Accountability



                       •   take appropriate action(s) such as termination or reduction of
                           benefits, if warranted, on all cases with earnings, including the 33
                           cases being investigated by the OIG, once the investigative
                           results are returned to the district offices;
                       •   adhere to internal control policies and procedures regarding the
                           mailing, tracking, and reviewing of various forms and the SSA
                           itemized earnings reports;
                       •   comply with the FECA Procedures Manual to ensure that
                           appropriate action is taken on cases with evidence of earnings
                           and that the action taken is documented in the case file; and
                       •   reemphasize appropriate agency procedures for handling cases
                           that contain sporadic earnings.

                    OWCP agreed with all of our recommendations. (OA Report No. 03-00-
                    008-04-431, issued September 28, 2000)




54                                                             Semiannual Report to the Congress
                                                                April 1, 2000–September 30, 2000
               Worker Benefits: OIG Assessments                           A Secure Workforce
               of Performance and Accountability



Division of Coal Mine Workers’ Compensation
                             The Division of Coal Mine Workers’ Compensation (DCMWC) administers
                             the Black Lung Benefit Program. The Department of Labor’s part of the
                             Federal Black Lung Benefit Program provides about $460 million annually
                             in monetary and medical benefits to former coal mine workers totally disabled
                             by pneumoconiosis (black lung), a respiratory condition. Monetary benefits
                             are also provided to the survivors of miners who have died because of
                             pneumoconiosis. For most Black Lung Benefits Program recipients, these
                             benefits constitute a substantial component of their support.


    SSA and DOL Have Not Yet
    Agreed to Transfer the Handling
    of Part B Black Lung Claims to
    DOL

                             The OIG completed a second audit of the Memorandum of Understanding
                             (MOU) between the Social Security Administration (SSA) and the
                             Employment Standatds Administration (ESA) regarding the handling of
                             Part B Black Lung claims. The audit was performed at the request of
                             Congress.

                             In FY 1999, the Inspectors General of SSA and DOL concluded that ESA
                             has continued to provide high-quality services in processing Part B Black
                             Lung claims. We could not definitively conclude that the program was
                             operated at a reduced cost because ESA and SSA accumulate cost
                             information differently and are performing different functions.

                             In this second audit, we recommended that ESA and SSA agree to meet
                             to designate staff to work out the transfer logistics and to establish a time-
                             table for the transfer of Part B to ESA. SSA did not concur with this
                             recommendation; it believes that a feasibility study should be performed.
                             ESA agreed that it can efficiently handle the transfer, and subsequent to
                             the issuance of our report, SSA and DOL met and agreed to a feasibility
                             study. If the results of the study favor the transfer to DOL, the agencies will
                             submit a legislative proposal to Congress. (OA Report No. 17-00-009-04-
                             433, issued April 28, 2000)




Semiannual Report to the Congress                                                                        55
April 1, 2000–September 30, 2000
     A Secure Workforce
                                     Healthcare: Fraud Investigations



                     In recent years, Congress and the U.S. Department of Justice have
                     increased attention on fraud in the healthcare industry. Consistent with
                     this, we have focused our attention on DOL healthcare programs that
                     provide disability benefits to injured workers, such as FECA, Black Lung,
                     and Longshore. These programs, which are administered by OWCP, are
                     vulnerable to the same schemes used against other healthcare programs
                     such as Medicare and Medicaid.


     Medical Provider Fraud

                     Medical provider and service provider fraud within OWCP programs is
                     being committed by individuals who submit claims for services or goods
                     not delivered. Most service provider fraud cases involve billing for services
                     not rendered, billing for treatment not related to the approved medical
                     condition or disability, double-billing, upcoding (billing under a more
                     expensive treatment service code than the one for the treatment actually
                     provided), or unbundling (breaking out one service into several lesser
                     services and including separate charge codes). The following cases
                     illustrate recent fraudulent activity in this area.


     $35 Million in Restitution
     Ordered in a Texas Excessive
     Billing Scheme

                     On August 25, 2000, Dr. Arthur Bieganowski was ordered to pay over
                     $23 million in restitution and to forfeit $11 million and his residence in
                     Whispering Sands, NM, for his role in a scheme to defraud OWCP and
                     other insurance programs by submitting false and excessive billings.
                     Additionally, he was sentenced to 14 years’ imprisonment for conspiracy
                     and five years’ imprisonment for mail fraud, to run concurrently, and two
                     years’ probation. On the same day, Richard Goldberg, CPA (Dr.
                     Bieganowski’s accountant), was sentenced to eight years in prison for
                     money laundering and five years’ imprisonment for mail fraud, to run
                     concurrently, and two years’ probation. He was also ordered to pay
                     $250,000 in restitution and forfeit $250,000. Dr. Bieganowski’s brother
                     Victor, an attorney, was sentenced on August 10, 2000, to two and a half
                     years’ imprisonment, two years’ probation, and was ordered to pay
                     $373,500 in restitution and a $10,000 fine for his role in the scheme.




56                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
                                                                         A Secure Workforce
                   Healthcare: Fraud Investigations



                             The investigation disclosed that Dr. Bieganowski and seven co-
                             conspirators defrauded the Texas Workers’ Compensation Insurance
                             Fund, OWCP, and private insurance companies handling personal injury
                             and workers’ compensation cases of more than $23 million. Since 1991,
                             OWCP has paid Dr. Bieganowski approximately $1.4 million. Dr.
                             Bieganowski owned and operated several medical-related businesses in
                             Texas, Mexico, and the Cayman Islands. This was a joint investigation
                             with the FBI, the IRS Criminal Investigations Division, the U.S. Postal
                             Inspection Service, the Defense Criminal Investigative Service, the Texas
                             Workers’ Compensation Commission, the Texas Workers’ Compensation
                             Insurance Fund, and the U.S. Marshals Service. U.S. v. Bieganowski, et
                             al. (W.D. Texas)


    Two Virginia Doctors Pled Guilty
    to Defrauding Black Lung Program
    Following Operation Octagon
    Investigation

                             Operation Octagon is a continuing Federal-state task force investigation
                             that is looking into healthcare fraud and drug diversion in southwest
                             Virginia. The task force is made up of members from DOL OIG, the
                             Virginia Division of Health Professions, Virginia’s Office of the Attorney
                             General Medicaid Fraud Control Unit, the Virginia State Police, the Drug
                             Enforcement Administration, the FBI, the IRS Criminal Investigation
                             Division, and the U.S. Attorney’s Office. To date, Operation Octagon has
                             resulted in the conviction of six defendants with sentences totaling three
                             years’ imprisonment, eight years’ probation, $1.5 million in restitution, and
                             $1.1 million in forfeitures.

                             On April 13, 2000, Dr. Vasu Arora of Grundy, VA, was sentenced to three
                             years’ imprisonment and was ordered to pay more than $100,000 in
                             restitution for engaging in healthcare fraud, mail fraud, money laundering,
                             and illegal distribution of prescription drugs. As part of his October 1999
                             plea agreement, Dr. Arora agreed never to practice medicine again and to
                             forfeit all assets named in his indictment, including his bank accounts,
                             vehicles, and former clinic. The investigation determined that Dr. Arora
                             habitually prescribed pain medicine for a two-week period, which required
                             a return visit for examination, treatment, and another two-week
                             prescription. He then billed the Federal Black Lung Trust Fund, Medicare,
                             and Virginia Medicaid for these unnecessary additional visits. U.S. v.
                             Arora (W.D. Virginia)

                             In another Operation Octagon case, Dr. Richard Norton, an emergency
                             room physician at Lee County Virginia Community Hospital (LCVCH),


Semiannual Report to the Congress                                                                      57
April 1, 2000–September 30, 2000
     A Secure Workforce
                                     Healthcare: Fraud Investigations



                     was convicted on August 28, 2000, of embezzlement from a Federally
                     funded organization and of mail fraud for his role in a kickback scheme
                     that ultimately bankrupted the hospital. Former LCVCH administrator
                     James Davis was also convicted, on July 7, 2000. The investigation
                     revealed that Davis leased hospital equipment from Norton’s company,
                     Physician’s Assess, which in turn paid Davis a kickback disguised as
                     consulting fees. LCVCH was largely funded by Medicare, Medicaid, and
                     the Federal Black Lung Trust Fund. U.S. v. Norton, Davis (W.D. Virginia)

     Oklahoma Physician Indicted for
     Alleged $850,000 Healthcare Fraud

                     Dr. John Campa of Bartlesville, OK, was indicted on August 22, 2000, on
                     72 counts of mail fraud, healthcare fraud, and false statements. The
                     investigation disclosed that Dr. Campa was allegedly engaged in billing
                     for supplies not used and in upcoding. At his Nashville, TN, practice, Dr.
                     Campa allegedly overbilled the cost per procedure by $1,300 for nerve
                     blocks and inflated the list of supplies used by nearly $1,000. Total fraud
                     in the case has been estimated to be in excess of $850,000, including
                     approximately $150,000 in DOL funds. This case was worked jointly with
                     the Tennessee Valley Authority OIG, the Defense Criminal Investigative
                     Service, and the Special Investigations Unit of Blue Cross/Blue Shield.
                     U.S. v. Campa (E.D. Tennessee)


     Former Vocational Counselor in
     Virginia Sentenced in False
     Billing Scheme

                     On April 27, 2000, Herbert Dockery, a former branch manager and a DOL-
                     certified vocational counselor, was sentenced to two years’ incarceration,
                     three years’ probation, received a 15-year debarment, and was ordered to
                     pay nearly $350,000 in restitution for mail fraud and wire fraud related to a
                     false billing scheme. In addition, on April 25, 2000, his employer, Crawford
                     and Company (C&C) of Atlanta, GA, agreed to pay $700,000 under the
                     False Claims Act for Dockery’s involvement in submitting false medical
                     claims to the government and to Newport News Shipyard (a Department of
                     Defense contractor). The investigation revealed that Dockery had arranged
                     a compensation agreement allowing C&C to pay him 40 percent of the net
                     profits produced by his office. This served as an incentive for him to bill for
                     inflated and fictitious medical services. The investigation was conducted
                     with the Department of Defence, Defense Criminal Investigative Service,
                     with audit assistance from the Defense Contract Auditing Agency. U.S. v.
                     Dockery, U.S. v. Crawford and Company (E.D. Virginia)


58                                                                 Semiannual Report to the Congress
                                                                    April 1, 2000–September 30, 2000
                                                                         A Secure Workforce
                   Healthcare: Fraud Investigations



OWCP Claimant Fraud
                             OWCP claimant fraud is the most common type of OWCP fraud cases
                             that the OIG has worked on in the recent past. It is important to note that
                             the removal of a single fraudulent claimant from Federal benefit rolls
                             creates on average a $300,000 to $500,000 savings for the government.

                             Typically, claimant and beneficiary fraud within OWCP programs is
                             committed by submitting false claims to obtain benefits or services. The
                             majority of claimant fraud cases involve false statements made by the
                             claimant that conceal earned income from gainful employment or self-
                             employment while receiving benefits. Beneficiary fraud frequently involves
                             instances in which the death of a claimant has not been reported and the
                             spouse or other dependents continue to receive benefits to which they
                             are not entitled. The following cases illustrate recent investigative work in
                             this area.


    Former Letter Carrier in
    Delaware Ordered to Repay
    $455,000 for 23-Year Fraud
    Scheme

                             Former letter carrier Eugene Castrovillo Jr. of Wilmington, DE, was
                             sentenced on May 18, 2000, to serve the maximum allowable prison term
                             of 21 months, given three years’ supervised release, and was ordered to
                             pay full restitution to the Federal government in the amount of $455,000
                             for defrauding the FECA program over a 23-year period. The investigation
                             revealed that while receiving FECA benefits, Castrovillo deliberately
                             concealed from OWCP the earnings that he made from supervising
                             archaeological digs and expeditions and appraising various antique items
                             and Civil War memorabilia for Archaeological Excavations, Inc. This
                             investigation was conducted jointly with the U.S. Postal Inspection
                             Service. U.S. v. Castrovillo (D. Delaware)




Semiannual Report to the Congress                                                                      59
April 1, 2000–September 30, 2000
     A Secure Workforce
                                      Healthcare: Fraud Investigations



     Fort Stewart, Georgia, Project
     Targeting FECA Fraud Yields
     Additional Sentence

                      As part of an ongoing FECA initiative by the OIG into widespread fraud, on
                      April 4, 2000, Dwight Cason of Glenville, GA, was sentenced to five years’
                      probation, 300 hours’ community service, restitution of $111,000, and
                      forfeiture of all future FECA payments for committing benefit fraud. The
                      investigation found that Cason was operating a family farm and failed to
                      report this income while receiving OWCP benefits for an on-the-job injury
                      in 1976. A $189,000 cost savings was issued as a result of this
                      investigation. The investigation was worked jointly with agents from the
                      U.S. Army Criminal Investigative Division. U.S. v. Cason (S.D. Georgia)


     Former Firefighter in Rhode
     Island Ordered to Pay $98,000
     in Restitution

                      Henry Tarbox, a former civilian firefighter at the naval station in Newport,
                      RI, was sentenced on April 25, 2000, to one year’ incarceration, three
                      years’ probation, and was ordered to make restitution in the amount of
                      $98,000 for making false statements to obtain FECA benefits. In 1992,
                      Tarbox began doing business as Excalibur Maintenance, Inc., but from
                      December 1994 to May 1998, he failed to report his income while he was
                      receiving FECA benefits. This was a joint investigation with the Naval
                      Criminal Investigative Service. U.S. v. Tarbox (D. Rhode Island)

     Former Postal Carrier in Arizona
     Sentenced for FECA Fraud

                      Donnie Nutt, a former U.S. Postal Service letter carrier from Phoenix, AZ,
                      was sentenced on June 19, 2000, to one year in prison, three years’
                      supervised release, and was ordered to pay restitution in the amount of
                      $87,500. Nutt was convicted by a jury trial in October 1999 on three counts
                      of making false statements to obtain compensation. The investigation
                      revealed that Nutt collected FECA benefits from March 1992 to July 1997
                      for a job-related injury to his neck and left arm while failing to report his
                      employment. He was the business advisor and principal investor of
                      Ceramics Etc., of which his girlfriend was the sole proprietor. This was a
                      joint investigation with the U.S. Postal Inspection Service. U.S. v. Nutt
                      (D. Arizona)




60                                                                 Semiannual Report to the Congress
                                                                    April 1, 2000–September 30, 2000
                                                                        A Secure Workforce
                   Healthcare: Fraud Investigations



    Florida Father and Daughter
    Pled Guilty to Committing Black
    Lung Benefit Fraud

                             On August 23, 2000, Charles Sanford of Florida entered a plea of guilty to
                             one count of theft of government property. His daughter, Linda, pled guilty
                             to a similar charge on August 22, 2000. The guilty pleas resulted from an
                             investigation that revealed that the Sanfords carried out a scheme to
                             collect $91,600 in Black Lung survivor benefits for Charles Sanford’s
                             mother, Mattie Sanford, after her death. His mother had collected Black
                             Lung survivor benefits following the death of her husband, a coal miner.
                             Mattie Sanford subsequently died in March 1979. The Social Security
                             Administration OIG participated in the investigation. U.S. v. Charles
                             Sanford, U.S. v. Linda Sanford (M.D. Florida)




Semiannual Report to the Congress                                                                    61
April 1, 2000–September 30, 2000
     A Secure Workforce             Worker Benefits: OIG Assessments
                                    of Performance and Accountability



Pension and Welfare Benefits Administration
     Evaluation of PWBA’s
     “Prohibited Transactions”
     Exemptions Process

                     We evaluated the Pension and Welfare Benefits Administration’s
                     (PWBA’s) timeliness and efficiency in the processing of applications for
                     individual, class, and expedited exemptions from the prohibited
                     transactions provisions of the Employee Retirement Income Security Act.
                     We concluded that timeliness varies on a case-by-case basis because of
                     factors such as the type of exemption being sought, the complexity of the
                     issue, and the applicant’s timeliness in providing any additional
                     information. Therefore, in our opinion, applying rigid deadlines to the
                     exemption process would be counter-productive. Although we did not find
                     evidence of inappropriate delays on the part of PWBA, we identified two
                     areas in which PWBA can be more efficient in the processing of exemption
                     applications to increase overall productivity. Our recommendations
                     included improving its recruitment and retention of pension law specialists
                     and developing a case tracking system as a management tool to
                     maximize timeliness and efficiency. The agency agreed with our findings
                     and recommendations. (OACE Report No. 2E-12-001-0003, issued
                     September 21, 2000)




62                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
 Fostering Quality
 Workplaces That
 Are Safe, Healthy,
      and Fair




   Quality
Workplaces
The key priorities for this strategic goal are to foster safe and healthy workplaces;
influence international bodies addressing core labor standards and international child
labor issues; increase the representation, advancement, and promotion of women,
people of color, veterans, and the disabled in jobs; promote increased compliance
with Family and Medical Leave Act requirements; and increase the number of workers
with access to quality childcare outside the family.



In support of the Department’s goal, the OIG works to optimize the use of funds
appropriated for worker protection and workplace safety programs by enhancing
program performance and accountability. This includes conducting sufficient activities
to assess and make recommendations to enhance significantly DOL’s effectiveness
and efficiency in ensuring workplace protections, safety, and health for more than
100 million workers in more than 6 million workplaces.
            Worker Protection: OIG Assessments                          Quality Workplaces
              of Performance and Accountability



Occupational Safety and Health Administration
                            The Occupational Safety and Health Administration (OSHA) is charged
                            with administering safety and health standards under the Occupational
                            Safety and Health (OSH) Act of 1970. The Act authorizes OSHA to set
                            mandatory occupational safety and health standards applicable to
                            businesses affecting interstate commerce. OSHA safety standards are
                            designed to reduce on-the-job injuries, and its health standards are
                            designed to limit workers’ risk of developing occupational disease.


    OSHA’s Use of Contractors in
    Ergonomics Rulemaking

                            In response to a congressional committee request, the OIG audited
                            OSHA’s use and payment of contractors in the ergonomics rulemaking
                            process. The committee expressed concern that the rule “is the broadest,
                            most complicated, and most expensive regulation ever pursued by the
                            agency.” In addition, the committee believed that if OSHA was using
                            outside contractors to review and summarize the ergonomics docket,
                            “potential issues of credibility could arise and compromise the integrity of
                            the rulemaking process.” We found that:
                                •   OSHA has long used contractors to review comments and
                                    testimony in other rulemakings;
                                •   there are quality controls and checks in place to ensure that the
                                    contractors are not working without OSHA oversight;
                                •   competitive procedures were generally used to select these
                                    contractors;
                                •   there were no instances in which individuals were working as
                                    OSHA employees while working for an outside contractor;
                                •   contractors, including expert witnesses, had task orders and
                                    purchase orders worth $1,720,010;
                                •   28 expert witnesses received a total of $197,552; and
                                •   expert witnesses were typically paid up to $10,000 each,
                                    depending upon the work performed.

                            OSHA generally agreed with the results of the audit. In accordance with
                            the congressional committee’s request, the OIG made no conclusions or
                            recommendations in connection with this work. (OA Report No.05-00-
                            008-10-001, issued September 20, 2000)


Semiannual Report to the Congress                                                                    65
April 1, 2000–September 30, 2000
     Quality Workplaces             Worker Protection: OIG Assessments
                                    of Performance and Accountability


     Audit of OSHA Policies and
     Procedures Applicable to the
     Home Workplace Letter

                     On November 15, 1999, OSHA issued a letter of interpretation (LI) in
                     response to an employer’s inquiry of August 21, 1997. The employer
                     asked for guidance on applying OSHA standards to employees working
                     at home. This LI was posted on OSHA’s Internet homepage and drew
                     reaction from the public as well as the Congress. As a result of these
                     concerns, the LI was withdrawn.

                     In response to a congressional request, the OIG provided an analysis of
                     the circumstances that led to OSHA’s issuance of its LI, commonly
                     referred to as the “Home Workplace Letter.” In its request, the
                     congressional committee expressed concern over the guidance and
                     clearance from DOL with regard to the events that led to the drafting and
                     issuance of the LI.

                     OSHA obtains information and guidance from its staff of specialists and
                     follows two methods when responding to requests from employers and
                     other outside interests. A directive is required when issuing new policy.
                     An LI may be used when clarifying existing policy from a regulation,
                     standard, or directive. OSHA stated that the Home Workplace Letter
                     was not designed to set new policy; therefore, it deemed an LI to be the
                     appropriate method of communicating its response.

                     Our audit of OSHA’s procedure for issuing LIs disclosed that stronger
                     processing controls are necessary to ensure that such letters do not
                     imply or communicate new policy to recipients or to the public. We
                     recommended that OSHA:
                        •   develop written procedures that specifically govern the
                            preparation and processing of LIs;
                        •   clarify language in OSHA directives that cloud the policy role of
                            LIs;
                        •   establish common rules to guide all staff in consistently
                            distinguishing responses that provide interpretations of the OSH
                            Act, interpretations on applying standards to specific work
                            environments, and interpretations representing a significant
                            expansion of existing policies;
                        •   eliminate inordinate clearance delays in consultation with the
                            Solicitor’s Office and ensure that all documents and comments




66                                                             Semiannual Report to the Congress
                                                                April 1, 2000–September 30, 2000
            Worker Protection: OIG Assessments                           Quality Workplaces
              of Performance and Accountability


                                    germane to the LI response are shared among all those
                                    responsible for clearing the document; and
                                •   ensure that key staff in the clearance process are sensitive to the
                                    policy implications of interpretations made in LIs and that
                                    executive-level management is consulted as appropriate.

                            In responding to our draft report, OSHA stated its intentions to improve
                            internal procedures with respect to policy pronouncements and
                            interpretations as a result of the experience with the Home Workplace
                            Letter and our audit recommendations. Further, OSHA stated that it
                            agreed with our findings in principle and will strive to incorporate them into
                            revised agency procedures that are currently being developed. OSHA’s
                            response adequately addresses and resolves our audit recommendations.
                            (OA Report No. 05-00-005-10-001, issued April 27, 2000)


Mine Safety and Health Administration
                            The Mine Safety and Health Administration (MSHA) helps to reduce
                            deaths, injuries, and illnesses in the nation’s mines. The agency develops
                            and enforces safety and health rules that apply to all U.S. mines, helps
                            mine operators who have special compliance problems, and makes
                            available technical, educational, and other types of assistance.


    Review of Fatal Accidents in
    Metal/Non-Metal Mining

                            The OIG conducted a review of fatal accidents in metal/non-metal (M/NM)
                            mining. This review was intended to assist MSHA in analyzing factors that
                            influence fatal accidents in the M/NM sector of the mining industry
                            because fatal accidents in M/NM reached a ten-year high in 1997. We
                            found that in a significant number of the fatalities that occurred, the miner’s
                            failure to use personal protective equipment (PPE) contributed to the fatal
                            accident. In a majority of the cases in which the miner had not used PPE,
                            the mine operator had supplied the appropriate equipment and had often
                            provided the required MSHA training regarding its use.

                            Based on our recommendations, MSHA agreed to:
                                •   utilize occupational safety psychologists to develop training and
                                    educational programs that specifically target risk-taking behavior
                                    and PPE use;




Semiannual Report to the Congress                                                                       67
April 1, 2000–September 30, 2000
     Quality Workplaces               Worker Protection: OIG Assessments
                                      of Performance and Accountability


                          •   pursue engineering controls (such as passive safety equipment
                              and enhanced restraint systems) to combat the problem of
                              miners not using PPE and to enhance PPE effectiveness;
                          •   review whether special and regular assessments for PPE
                              violations can be pursued more effectively; and
                          •   track and monitor the number of miners killed while not using
                              PPE in order to determine whether MSHA needs to pursue other
                              measures to increase PPE use by miners. (OACE Report No.
                              2E-06-001-0004, issued June 2, 2000)


Bureau of International Labor Affairs
     Evaluation of ILAB’s
     Implementation of Its
     International Child Labor
     Projects

                      The OIG conducted an evaluation of the Bureau of International Labor
                      Affairs’ (ILAB’s) implementation of its child labor projects. The evaluation
                      was designed to gather information on lessons learned from child labor
                      projects during FYs 1995 through 2000, and to provide recommendations
                      for any necessary improvements in ILAB’s current child labor activities.

                      The evaluation found that ILAB appears to be making significant
                      progress toward effective implementation of its child labor projects.
                      However, we identified several areas in which implementation of our
                      recommendations would further increase ILAB’s effectiveness in
                      carrying out its high-impact programs designed to eliminate child labor
                      worldwide.

                      We recommended that ILAB:
                          •   adopt a two-stage funding process (initially fund and conduct a
                              needs-and-requirements assessment of the target population,
                              then determine appropriate funding for implementation of the
                              child labor elimination project);
                          •   ensure that specific, well-defined, measurable, time-bound, and
                              outcomes-oriented goals, objectives, and indicators are
                              developed and included for each project proposal;




68                                                                Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
            Worker Protection: OIG Assessments                         Quality Workplaces
              of Performance and Accountability


                                •   ensure that project verification and inspection allegations are
                                    thoroughly investigated and followed up, appropriate corrective
                                    actions are taken, and steps taken in reference to the allegations
                                    are adequately documented;
                                •   obtain written agreements from project partners that clearly
                                    delineate each partner’s role in capacity building and project
                                    sustainability; and
                                •   expand and strengthen its “draft” General Guidelines for Review
                                    of Project Documents into an operations manual for staff use.

                            Although ILAB expressed concerns regarding the accuracy of
                            information in our report, it generally agreed with our recommendations
                            and implemented several of them prior to the issuance of our report.
                            (OACE Report No. 2E-01-070-0001, issued September 28, 2000)




Semiannual Report to the Congress                                                                  69
April 1, 2000–September 30, 2000
     Quality Workplaces
                                     Worker Protection: OIG Investigations


                     The OIG has supported the Secretary’s Quality Workplaces goal through
                     our investigation of worker protection law violations. Recent investigative
                     work in this area has demonstrated how workers are affected when
                     contractors fail to pay the prevailing wage as mandated by the Davis-
                     Bacon Act. The Act mandates that prevailing wages and benefits be
                     paid to laborers working for contractors and subcontractors engaged in
                     Federal construction. It applies to contracts of over $2,000 for
                     construction, alteration, or repair of Federally funded projects. In addition
                     to the harm caused by this practice to individuals, legitimate companies
                     that pay the prevailing wage can be hindered in the competitive bid
                     process by contractors who underbid jobs with the intention of not paying
                     the proper wage rate. The following cases illustrate recent investigative
                     work in this area.


     Coast Guard Contractor in New
     York Ordered to Repay
     $150,000 in Back Wages

                     On May 23, 2000, Ribar Contracting Company and three defendants
                     were sentenced for submitting false certified payrolls to the U.S. Coast
                     Guard (USCG) for repair work on a dock at Battery Park, NY. Ribar
                     Contracting and Company officials Moshe Avni (the vice president for
                     operations), Benny Riven (the owner/project director), and Anton
                     Stackhow (the owner of Rip Marine Systems, doing business as T&A
                     Specialty Contracting) of New York City, were sentenced to a total of
                     eight years’ probation, were fined $254,000, and were ordered to restore
                     nearly $155,000 to DOL. The restitution represents back wages owed to
                     employees of Ribar Contracting who were not paid the prevailing wage
                     rate.

                     After being awarded a $1.2 million contract in 1995, Ribar hired Rip
                     Marine, later known as T&A, as a subcontractor to perform work on the
                     project. The subcontract required the company to pay prevailing wage
                     rates under the Davis-Bacon Act. The investigation found that the
                     defendants pressured T&A employees to retract complaints they had
                     registered with the USCG that they had not been paid the prevailing wage.
                     Stackhow was also charged with threatening to kill a worker if he refused
                     to retract a letter requesting an investigation of T&A that was sent to a
                     Coast Guard officer. U.S. v. Ribar Contracting, Inc., U.S. v. Avni, et al.
                     (S.D. New York)




70                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                     Quality Workplaces
            Worker Protection: OIG Investigations


    Washington Contractor and
    Two Officers Sentenced for
    Wage Violations at Navy
    Submarine Base

                            On July 21, 2000, David Pifer, the former president of Contemporary
                            Framing Contractors, Inc. (CFC), of Anaheim, CA, was sentenced to
                            three years’ probation and was ordered to pay a $7,500 fine. CFC and its
                            owner and vice president, James Harrison of Placentia, CA, were
                            sentenced on June 21, 2000, for underpaying CFC employees. CFC
                            was ordered to pay $70,000 as restitution of unpaid wages, and a fine of
                            $105,000 and was placed on probation for a period of five years.
                            Harrison received one years’ probation and was ordered to pay a
                            $10,000 fine, the maximum for a violation of the Fair Labor Standards
                            Act. In 1995, Hunt Building Corporation received a $59 million U.S. Navy
                            contract and awarded a $3.3 million subcontract to CFC for framing and
                            rough carpentry work on 690 housing units at the Bangor Submarine
                            Base. The investigation revealed that from 1995 to 1997, CFC did not
                            pay all employees the applicable wage rates as required by the Davis-
                            Bacon Act and falsified the certified payrolls to conceal its conduct.

                            In a related matter, on September 20, 2000, Daniel Broadbent, the
                            owner of Modular Component Systems, Inc. (MCS), of Utah, was
                            indicted on charges of making false statements. The investigation
                            revealed that Broadbent allegedly aided CFC in the submission of false
                            certified payrolls by paying some CFC employees with checks drawn on
                            MCS’s account. This investigation was conducted jointly with the Naval
                            Criminal Investigative Service. U.S. v. Pifer, U.S. v. Harrison, U.S. v.
                            Contemporary Framing Contractors, Inc., U.S. v. Broadbent (W.D.
                            Washington)


    California Company President
    Sentenced in Wage Fraud
    Conspiracy

                            On August 18, 2000, Krikor Diramerian, the president of T.D.
                            Engineering and Construction, Inc. (TDEC), of California, was
                            sentenced to five months’ incarceration, five months’ home detention,
                            two years’ probation, and was ordered to pay nearly $114,000 in
                            restitution, following a March 2000 guilty plea to conspiracy charges.
                            The joint investigation revealed that Diramerian conspired with Edmond
                            Thomas (the vice president of TDEC) to induce 26 employees to kick




Semiannual Report to the Congress                                                                71
April 1, 2000–September 30, 2000
     Quality Workplaces
                                    Worker Protection: OIG Investigations


                    back a portion of their salaries on a weekly basis. Each employee
                    received $200 in exchange for signing a statement that they had been
                    paid the prevailing wage. These employees worked on three Federal
                    Emergency Management Agency (FEMA) and Federal Highway
                    Administration projects that involved a total of over $1.5 million to restore
                    earthquake-damaged walls in Simi Valley. As previously reported,
                    Thomas was sentenced in September 1999 to two months’
                    imprisonment, three years’ probation, and was ordered to pay over
                    $90,000 in restitution for his role in collecting the kickbacks on a weekly
                    basis. This investigation was conducted jointly with the FEMA OIG and
                    the DOL Wage and Hour Division. U.S. v. Diramerian (C.D. California)

     Ex-Owner of Asbestos Removal
     Company in New York
     Sentenced to Jail

                    Kreso Bezmalinovic, the former owner of PC&J Contracting Company,
                    Inc., of New York City, was sentenced on May 8, 2000, to three and a half
                    years’ imprisonment and two years of supervised release for his part in
                    a scheme to obtain Federal contracts for millions of dollars fraudulently.
                    From January 1988 to September 1992, PC&J fraudulently procured
                    contracts for more than $8 million from the U.S. Army and the U.S. Postal
                    Service in the name of National Abatement Contracting Corp. (NACC),
                    an asbestos-abatement and insulating company that Bezmalinovic
                    surreptitiously controlled. His scheme made it appear that NACC bid for
                    the contracts when, in fact, he used PC&J’s credit, equipment, and
                    employees to fulfill the contracts. Bezmalinovic used NACC because he
                    and PC&J had been issued a three-year suspension from procuring
                    Federal government contracts for his December 1988 conviction for
                    giving a gratuity to an inspector from the Environmental Protection
                    Agency. As previously reported in June 1997, a jury found Bezmalinovic
                    guilty of conspiracy, major fraud against the government, and
                    obstruction of justice. The investigation was conducted jointly with the
                    IRS. U.S. v. Bezmalinovic (S.D. New York)




72                                                              Semiannual Report to the Congress
                                                                 April 1, 2000–September 30, 2000
        Maintaining a
        Departmental
          Strategic
        Management
            Focus




    Departmental
Management Focus
The Government Performance and Results Act (GPRA) demands a more focused,
unified management approach to accomplish the goals established in the Department’s
Strategic Plan. Therefore, the Department has established an overarching strategic
management focus to link strategic planning, resource allocation, and operational
activities with program strategies effectively and to improve services provided to its
customers.



In support of the Department’s goal, the OIG assists DOL in maintaining an effective
management process. This includes conducting sufficient activities and providing
appropriate technical assistance to DOL management to ensure the effectiveness
and efficiency in the management of DOL, the integrity of financial management
systems, and the effective management of information technology.
                                                                          Departmental
 Departmental Management: OIG Assessments
           of Performance and Accountability                            Management Focus


                             During this reporting period, we continued to focus on helping the
                             Department maintain an effective management process. This section
                             highlights the audits, evaluations, and investigations conducted to this
                             end.


    Minnesota Department of
    Economic Security Research and
    Statistics Office

                             The OIG received a hotline complaint alleging misuse of Bureau of Labor
                             Statistics (BLS) and ETA funds by the Minnesota Department of
                             Economic Security (MDES) Research and Statistics Office (RSO). The
                             complainant alleged that BLS and ETA labor market information (LMI)
                             funds were being charged for nonprogram activities. As a result, we
                             performed a limited audit of LMI programs funded by BLS and ETA for the
                             period from July 1, 1996, through September 30, 1999.

                             Our audit addressed five specific complaints but found no substantiation
                             of the claims. The audit did reveal, however, that the labor hours for RSO
                             employees working on multiple activities or programs charged to the
                             various activities or programs were based on estimates. The practice of
                             using estimated labor hours to charge Federal grants is not in compliance
                             with the Federal cost principles of OMB Circular No. A-87.

                             We recommended that BLS, in cooperation with ETA, require the RSO to
                             strengthen its financial management system by ensuring that personnel
                             costs are reported based either on actual activities performed or on an
                             equivalent personnel activity reporting system in compliance with OMB
                             Circular No. A-87.

                             In general, MDES concurred with our finding and recommendation. It has
                             indicated its intention to modify its accounting system and cost allocation
                             methodology in order to provide a pool of general RSO support costs. The
                             pool of costs will be allocated among BLS and ETA programs based on
                             the identifiable direct personnel costs associated with these projects. (OA
                             Report No. 05-00-004-50-598, issued August 10, 2000)




Semiannual Report to the Congress                                                                    75
April 1, 2000–September 30, 2000
       Departmental
                                     Departmental Management: OIG Assessments
     Management Focus                of Performance and Accountability


     DOL Needs to Broaden the
     Existing Standards for Employees
     Seeking Approval for Outside
     Employment

                     The OIG conducted an evaluation to determine whether the Department
                     needs to broaden the existing standards of ethical conduct for employees
                     seeking approval for work outside of their agencies. Our evaluation found:
                         •   there are inconsistencies in DOL regarding when and how
                             employees seek approval for work outside the agency;
                         •   there is no central repository for information pertaining to outside
                             work;
                         •   while employees who are required to file financial disclosure
                             reports provide information pertaining to outside financial
                             interests as part of their filing, this information is reviewed only
                             within each agency;
                         •   there are positions that fall outside the requirement to file financial
                             disclosure reports that are sensitive enough to warrant approval
                             before outside work occurs;
                         •   there is a greater risk of the appearance of a conflict of interest
                             without a mechanism in place to verify whether a conflict exists;
                             and
                         •   the list of DOL ethics agency contacts should be updated.


                     The Solicitor’s Office has agreed to survey DOL agencies and officials to
                     determine whether the requirement for approval of outside work should be
                     broadened to cover employees who are financial filers and other specified
                     groups of employees. The Solicitor’s Office will also update its list of agency
                     ethics contacts and ensure its distribution to appropriate agency officials.
                     (OACE Report No. 2E-08-001-0001, issued September 29, 2000)


     DOL Needs to Provide Additional
     Guidance and Monitoring of Its
     Procurement, Debarment, and
     Suspension Program

                     The OIG conducted an evaluation to determine whether DOL is adhering
                     to required debarment and suspension policies and procedures in its
                     awarding of Federal contracts and grants. The evaluation found that DOL



76                                                                 Semiannual Report to the Congress
                                                                    April 1, 2000–September 30, 2000
                                                                            Departmental
 Departmental Management: OIG Assessments
           of Performance and Accountability                              Management Focus


                             needs to provide additional guidance and monitoring of its procurement,
                             debarment, and suspension program and that the Office of the Assistant
                             Secretary for Administration and Management (OASAM) needs to
                             increase its emphasis of the debarment and suspension program
                             throughout the Department. We found that there is a lack of information
                             sharing between agencies that can ultimately have a negative impact on
                             DOL. For example, we identified a contractor debarred by DOL. The name
                             of the contractor, however, was never sent to the General Services
                             Administration (GSA) to be added to its government-wide debarment list.
                             As a result, this contractor continued to receive multiple Federal contracts
                             from other agencies. We recommended that OASAM ensure that all
                             contracting and grant officers are fully aware of their responsibilities and
                             obligations under Federal regulations and procedures, which includes
                             reviewing the GSA list for debarred contractors prior to awarding a
                             contract or grant and developing procedures to track and share
                             information from DOL agencies on all proposed and final debarment and
                             suspension actions. OASAM agreed with our recommendations. (OACE
                             Report No. 2E-07-740-0001, issued September 28, 2000)


    DOL Is Paying $5 Million Annually
    for Building Space That Is
    Underutilized

                             The OIG conducted an evaluation to determine whether DOL conforms
                             with regulations on space utilization in DOL headquarters and other DOL-
                             occupied buildings in the Washington, D.C., area. We found that DOL is
                             not enforcing targeted space utilization rates. As a result, we estimate that
                             DOL is paying $3.5 million in rent annually for space that is underutilized
                             in its headquarters building. Our review of leased space in other buildings
                             revealed that underutilization of space is costing DOL approximately
                             $1.5 million annually. We recommended that OASAM:
                                    •   reemphasize DOL’s space management program to all DOL
                                        agencies;
                                    •   inform agency heads of the need to obtain accurate staffing
                                        information and conduct quarterly analyses on space utilization
                                        for each agency and sub-agency; and
                                    •   reevaluate the proposals for realignment of agencies within DOL-
                                        occupied buildings.

                             OASAM agreed with our recommendations and is currently proceeding to
                             implement corrective action. (OACE Report No. 2E-07-731-0001, issued
                             September 27, 2000)



Semiannual Report to the Congress                                                                      77
April 1, 2000–September 30, 2000
       Departmental
                                     Departmental Management: OIG Assessments
     Management Focus                of Performance and Accountability


     Technical Assistance Provided to
     DOL in Its Implementation of
     GPRA

                     The OIG has continued to assist the Department in implementing the
                     Government Performance and Results Act (GPRA) as part of our
                     continuing effort to assist the Department in “managing for results.” During
                     this period, we met with the Department to discuss the development,
                     refinement, and reporting of performance in the consolidated financial
                     statement and performance reports. In addition, we started detailed
                     performance audits of the dislocated worker/NAFTA/TAA and FECA
                     programs. The audits focus on the adequacy of the measures to report
                     outcome results and the systems used to compile the measures. We plan
                     to continue to assist the Department in achieving an outcome-based
                     performance plan with detailed reviews of each program’s measures and
                     systems.


     Several Impediments Identified
     During Pilot to Develop a Cost-
     Based Program Results Statement

                     To meet GPRA reporting and budgetary submission requirements, costs
                     must be linked to program activities and agency- or program-specific
                     performance measures and strategic goals. By linking costs to results, the
                     Department and Congress can assess the value of past expenditures and
                     chart the future direction of Federal programs based on reported results
                     and their costs. This new level of informed oversight will finally provide
                     accountability and will allow a more reasoned guidance of Federal efforts.

                     During FY 1999, the OIG and the Mine Safety and Health Administration
                     (MSHA) began a joint effort to develop a “Cost-Based Program Results
                     Statement” that would attach the actual costs to each program’s results.
                     In addition, the Department’s Office of the Chief Financial Officer is
                     working on pilot projects with the Veterans’ Employment and Training
                     Service (VETS) and the Occupational Safety and Health Administration
                     (OSHA) to develop a cost methodology that can be applied to program
                     results. These pilot projects represent the first steps the OIG and the
                     Department are making toward implementing managerial cost accounting
                     at the agency and program levels. Our work on these pilot projects has
                     identified several impediments to rapid progress.




78                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                             Departmental
 Departmental Management: OIG Assessments
           of Performance and Accountability                               Management Focus


                             In order to meet the requirements outlined in GPRA and the Statement of
                             Federal Financial Accounting Standards No. 4, the Department must now
                             develop the capacity to identify the specific costs for each of its programs.
                             In addition, OMB Bulletin No. 97-01, “Form and Content of Agency
                             Financial Statements,” requires preparation of a “statement of net cost,”
                             that includes the full costs of responsibility segments.

                             Paramount among the impediments to implementing cost accounting
                             identified thus far during the MSHA pilot project is the lack of information
                             systems that capture and report full costs at the program activity level. In
                             addition, other obstacles have been encountered in attempting to
                             determine:
                                    •   how allocations supporting cost accounting will be updated on a
                                        regular basis;
                                    •   how to allocate activity costs that impact two or more performance
                                        measures;
                                    •   how to account for costs of activities not covered by current
                                        performance measures;
                                    •   the level at which costs should be allocated to satisfy multiple
                                        users;
                                    •   how to measure and report on external influences that limit
                                        management’s decision-making capabilities; and
                                    •   each DOL component’s understanding of the mandate and
                                        usefulness of managerial cost accounting.

                             Currently, in accordance with OMB Bulletin No. 97-01, costs are being
                             allocated by responsibility segment to DOL outcome goals at year-end
                             based on percentages determined by the agencies. Cost information
                             must be provided at the program level on a regular and consistent basis
                             throughout the year to enable cost accounting to support program
                             management decisions. This will require a methodology to assess and
                             update allocation procedures continually at the program level. (OA Report
                             No. 12-00-010-06-001, issued September 28, 2000)




Semiannual Report to the Congress                                                                      79
April 1, 2000–September 30, 2000
       Departmental
                                      Information Technology: OIG Assessments
     Management Focus                 of Performance and Accountability


                      A high-quality information technology (IT) environment is critical to
                      obtaining the programmatic and financial information needed to manage
                      for results. As the Department continues to expand IT in areas such as
                      procurement, payroll, benefit payments, labor market information,
                      enforcement, and training, auditing the life cycles of system development
                      efforts to ensure that they meet their intended objectives at reasonable
                      costs becomes increasingly important. In addition, the importance of
                      protecting these systems, applications, and information assets (including
                      privacy rights) grows significantly. The OIG will be involved in auditing the
                      IT system development life cycles, general and application controls, and
                      consultative projects to improve departmental IT assets. Following are
                      highlights of our work in the IT area.


     Bureau of Labor Statistics
     Data Security Follow-up

                      On July 20, 1999, the OIG issued an audit report to the Bureau of Labor
                      Statistics (BLS) entitled “BLS Information Technology, Survey Processing,
                      and Administrative Controls Must Be Improved.” The audit was initiated as
                      a result of a BLS prerelease of employment data in November 1998. The
                      purpose of the audit was to determine whether adequate and effective
                      internal controls were in place to prevent the premature or unauthorized
                      disclosure or use of sensitive economic data.

                      We performed a follow-up audit to determine whether BLS had
                      implemented the recommendations in the previous audit report. Our audit
                      covered BLS National Office operations and focused on the time period
                      from June 5, 2000, through August 21, 2000. We reviewed written policies
                      and procedures and identified controls related to the findings from the
                      prior audit report. We also made observations and performed tests to
                      determine whether BLS policies, procedures, and internal controls were
                      adhered to, in place, and effective. In addition, we performed access
                      control tests to determine whether password strength was adequate. We
                      discussed our observations and findings with BLS officials during the
                      course of the fieldwork.

                      BLS has worked cooperatively to implement our recommendations.
                      Overall, we found that BLS has sufficiently implemented all except two of
                      the 41 recommendations. The follow-up audit generated an additional
                      recommendation that has since been resolved but not closed. These




80                                                                 Semiannual Report to the Congress
                                                                    April 1, 2000–September 30, 2000
                                                                            Departmental
     Information Technology: OIG Assessments
             of Performance and Accountability                            Management Focus


                             three recommendations remain open because control deficiencies still
                             exist that need to be corrected in order to provide the appropriate level of
                             security over sensitive BLS data. (OA Report No. 03-00-012-11-001,
                             issued September 22, 2000)


    OFCCP Region IX Information
    System Security Needs
    Improvement

                             The OIG conducted a computer security controls review of the Office of
                             Federal Contract Compliance Programs (OFCCP), Region IX. Our review
                             was limited to general controls, including security plan development, risk
                             assessment, and contingency planning. We recommended that ESA
                             assign security responsibility to a management official and require users
                             to obtain security training. In addition, we recommended that the agency
                             complete the security program development as soon as possible. The
                             agency generally agreed with our findings and stated that corrective
                             actions either had been or would be taken. (OA Report No. 09-00-005-04-
                             001, issued September 22, 2000)

    Unemployment Insurance Weekly
    Claims Press Release Process
    Contains Internal Control
    Weaknesses

                             The Unemployment Insurance (UI) Weekly Claims Press Release
                             contains the national total of initial claims for UI and is one of the leading
                             economic indicators that may affect the financial and monetary markets.
                             Thus, the data in the Press Release are sensitive and are embargoed
                             from Pthe time the Press Release is first compiled on Tuesday afternoon
                             until the official release time on Thursday morning. The OIG performed a
                             limited scope audit to assess the internal controls used to ensure the
                             accuracy and completeness of the data, the internal controls over issuing
                             the Press Release, and the safeguards in place to protect the embargoed
                             information against unauthorized use or early release to the public.

                             We found that:
                                    •   the embargoed data and the Press Release itself are processed
                                        and produced in an unsecured office environment;




Semiannual Report to the Congress                                                                       81
April 1, 2000–September 30, 2000
       Departmental
                                  Information Technology: OIG Assessments
     Management Focus             of Performance and Accountability


                      •   there are security vulnerabilities in the procedures used to deliver
                          advance copies of the Press Release package to four high-level
                          DOL officials the day before the Press Release is officially issued;
                      •   a library management system is not used to track multiple
                          versions of software production programs used to compile the
                          data;
                      •   there is no security clearance policy for individuals with access to
                          embargoed data, and situations can occur in which one person
                          controls the entire Press Release process;
                      •   there are no formal procedures for responding to security
                          incidents;
                      •   the ETA network server used to store the Press Release and
                          supporting documents has several weaknesses that compromise
                          the security level needed for embargoed documents; and
                      •   periodic security evaluations using a security software package
                          are not performed.

                  We recommended that ETA:
                      •   create a restricted access office area for processing the
                          embargoed data and producing the Press Release;
                      •   strengthen the procedures used to deliver the advance copies of
                          the Press Release package;
                      •   develop and implement a security clearance policy for individuals
                          with access to embargoed data; and
                      •   use a stand-alone computer located in a secure area to store the
                          embargoed Press Release and supporting documents before the
                          official release time.

                  Overall, ETA responded that it did not consider the findings in the report
                  to be significant control weaknesses and that it has already taken action
                  on some of the report recommendations. In addition, ETA will implement
                  a policy to require a background investigation for any new employee who
                  has access to the embargoed data.

                  We disagree with ETA’s conclusion that the findings in the report are not
                  significant control weaknesses. The Press Release contains embargoed
                  data, and it is critical that the data be protected until the prescribed release
                  time. In managing the security of sensitive information, the associated




82                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                           Departmental
     Information Technology: OIG Assessments
             of Performance and Accountability                           Management Focus


                             risks should be identified and reduced. ETA further stated that the space
                             in which the embargoed data and the Press Release are processed and
                             produced is scheduled to be reconfigured in 2002 and that the current
                             space plans will be reviewed to see whether alterations can be made to
                             isolate the area. Concerning security clearances, ETA stated that the
                             Federal staff currently working on the UI Weekly Claims Press Release
                             process have been doing so for a long time. Therefore, ETA does not
                             believe that a security clearance investigation is warranted for them.
                             However, ETA will implement a policy to require a background
                             investigation for any new employee who has access to the embargoed
                             data. Unauthorized use and disclosure of the embargoed data or the
                             Press Release could affect the financial markets and damage DOL’s
                             reputation for managing sensitive information. We believe it is necessary
                             that ETA take appropriate measures to protect the embargoed data and
                             Press Release and minimize the risk of unauthorized use and disclosure.
                             By failing to recognize the significance of the report findings and the need
                             for timely corrective action, ETA is accepting more risk than is necessary.
                             (OA Report No. 03-00-011-03-315, issued September 28, 2000)




Semiannual Report to the Congress                                                                     83
April 1, 2000–September 30, 2000
       Departmental
                                    Departmental Management:
     Management Focus               Investigative Activities


                    The OIG is charged with the responsibility for conducting investigations
                    into possible criminal activities within DOL’s programs as well as by
                    employees of the Department.

                    The OIG works to fulfill the expectation that Government programs will
                    be administered fairly and ethically. OIG investigations help identify
                    instances in which a DOL program is defrauded by those entrusted with
                    its administration. Criminal acts can involve the fraudulent issuance of
                    benefit checks or medical payments, or the embezzlement of funds for
                    personal benefit. The increased use of electronic filing for benefits and for
                    payments for services rendered in connection with programs funded or
                    administered by the Department has also increased the opportunity for
                    internal, as well as external, fraud to take place. The following cases
                    illustrate examples of recent fraudulent activity in this area.


     Former Workers’ Compensation
     Employee in Washington Ordered
     to Repay Nearly $862,000

                    On June 30, 2000, Bonifacio Garcia, a former Workers’ Compensation
                    assistant in Seattle, WA, was sentenced to two and a half years’
                    imprisonment, three years’ supervised release, and was ordered to pay
                    nearly $862,000 in restitution after pleading guilty to the theft of OWCP
                    funds, wire fraud, and Federal tax fraud. During a DOL OIG audit, an
                    unusually large number of supplemental electronic funds transfer (EFT)
                    payments to certain claimants, and subsequent cancellations of those
                    payments, were discovered. The funds were not deposited into the
                    claimants’ usual bank accounts but to three bank accounts owned by
                    Garcia. As a result of this case, the OWCP procedures regarding EFT
                    payment access and U.S. Treasury reconciliation of funds have been
                    changed. The joint investigation involved the efforts of the FBI and the
                    IRS. U.S. v. Garcia (W.D. Washington)




84                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                          Departmental
                          Departmental Management:
                              Investigative Activities                  Management Focus


    DOL Employee Pled Guilty in
    Colorado

                             On June 16, 2000, Linda Elbeck of Parker, CO, a former OWCP claims
                             examiner and former Wage and Hour Division investigator, entered a
                             guilty plea to charges of theft of government property and obstruction of
                             justice for diverting approximately $161,000 in FECA payments of a
                             deceased claimant to her own bank account. After a claimant’s death in
                             July 1995, Elbeck changed the EFT payment address from the claimant’s
                             bank account to her own account. As a result of this investigation, OWCP
                             is rewriting the procedures for inputting payment address changes into its
                             computers. This case was worked jointly with the FBI. U.S. v. Elbeck (D.
                             Colorado)


    Utah Job Corps Receptionist
    Charged with Theft of Student Pay
    Checks

                             On May 25, 2000, charges were filed against Job Corps receptionist
                             Helen Ochoa and co-defendant Denise Whitaker of Salt Lake City, UT, on
                             violations of forgery and theft. The investigation disclosed that from
                             August 1998 to December 1998, Ochoa allegedly enlisted the aid of
                             Whitaker and others to cash student checks valued at $8,000 that she had
                             stolen from the office. It was alleged that to assist in the fraud, Ochoa
                             provided false identification cards and verified the false identities when
                             contacted by local check-cashing businesses. This is a joint investigation
                             with the South Salt Lake City Police and Fire departments and the Bureau
                             of Alcohol, Tobacco, and Firearms. U.S. v. Ochoa, et al. (D. Utah)




Semiannual Report to the Congress                                                                   85
April 1, 2000–September 30, 2000
    Ensuring That a
   Union or Benefit
   Plan Is Operated
   for the Benefit of
     Its Members




       Labor
Racketeering
The OIG at the Department of Labor has a unique “external” program function to conduct criminal
investigations to combat the influence of labor racketeering and organized crime in the nation’s
labor unions. Labor racketeering is the infiltration, domination, and use of a union or employee
benefit plan for personal benefit by illegal, violent, or fraudulent means. Although labor racketeering
can be conducted by anyone, the history of the labor movement shows that the most substantial
corruption of unions is conducted by organized crime families and syndicates.

Since its inception, the OIG’s Labor Racketeering Program has conducted criminal investigations
that have uncovered millions of dollars of workers’ dues and benefit monies siphoned off by
organized crime through embezzlement or more sophisticated devices, such as loans or excessive
fees paid to corrupt union and benefit plan service providers. However, union members are not
the only group that is impacted by organized crime. Because organized crime’s exercise of market
power is usually concealed from public view, millions of consumers unknowingly pay what amounts
to a tax or surcharge on a wide range of goods and services. By controlling a key union local,
organized crime can control the pricing in an entire industry. The public also suffers when organized
crime orchestrates illicit strikes and work slowdowns or resorts to violence to maintain its operation
of labor rackets. In the end, labor racketeering undermines the collective bargaining system and
compromises the interests of working men and women.

While the government has made great advances in reducing the influence of traditional organized
crime in the labor racketeering arena, the OIG remains concerned over the strength of traditional
La Cosa Nostra crime groups in the labor union area as well as in union-related employee benefit
plans. In addition, the OIG is increasing its scrutiny of newly emerging nontraditional organized
crime groups and their potential influence on the nation’s labor unions.
                                                                         Labor Racketeering
                                Investigative Activities



                             During FY 2000, the OIG carried a total of 358 open labor racketeering
                             investigations and has seen a six percent increase in the number of
                             organized crime investigations since FY 1998. Several of the significant
                             racketeering cases that are highlighted below support this trend, and
                             many of our current investigations that are still open demonstrate the
                             continued influence of organized crime members and their associates in
                             the labor arena. Of particular interest in the Internal Union Investigations
                             section is a series of cases involving the influence of the Winter Hill Irish
                             Organized Crime group in the transportation industry in Boston, MA.


Internal Union Investigations
                             Our typical internal union cases involve instances of corruption that range
                             from union officers’ abuse of their positions of authority for their own
                             benefit to embezzlement of money from union accounts. Investigations
                             in this area also focus on situations in which organized crime groups
                             control or influence a labor organization, frequently in order to exercise
                             influence in an industry for corrupt purposes or to operate traditional vice
                             schemes.


    Irish Organized Crime Leader
    Pled Guilty to Racketeering
    Charges in Boston

                             On July 20, 2000, Kevin Weeks of West Quincy, MA, an Irish Organized
                             Crime lieutenant, pled guilty to racketeering charges. Weeks’ guilty plea
                             resulted from a joint investigation into a wide variety of schemes that
                             included helping crime bosses James “Whitey” Bulger and Stephen
                             Flemmi commit five murders, extort money from businesspeople, shake
                             down drug dealers and bookmakers, and launder money. Weeks also
                             admitted to helping kidnap underworld figure Arthur “Bucky” Barrett in
                             1983 and to abducting John McIntyre, a purported drug and weapons
                             smuggler, in 1984. Although Weeks did not admit to participating in
                             Barrett’s and McIntyre’s murders, he pled guilty to helping move their
                             bodies after the murders.

                             The investigation uncovered a criminal enterprise that lasted from 1975 to
                             1999 involving Irish Organized Crime members who used murder,
                             kidnapping, extortion, drug dealing, bookmaking, and control of area



Semiannual Report to the Congress                                                                      89
April 1, 2000–September 30, 2000
     Labor Racketeering
                                     Investigative Activities


                     unions in and around Boston to carry out these crimes. Forfeiture of
                     several pieces of real estate and over $1 million in illegal revenues is being
                     sought as proceeds from the enterprise’s unlawful activities. The criminal
                     organization was led at various times by Bulger and Flemmi, with Weeks
                     functioning as their principal deputy, representing them while they were
                     incarcerated or fleeing from justice. The investigation is being pursued
                     with the FBI, the DEA, the IRS, and the Special Services Unit of the
                     Massachusetts State Police. U.S. v. Weeks (D. Massachusetts)

     Boston Attorney Sentenced in
     Murder-for-Hire Scheme

                     In a parallel labor racketeering investigation, Fred Ford, a former U.S.
                     probation officer and a Massachusetts defense attorney, was sentenced
                     on May 31, 2000, to eight years’ imprisonment, three years’ probation,
                     and was fined $15,000 for charges stemming from a murder-for-hire
                     scheme. Ford paid an undercover DOL OIG agent $11,000 to kill James
                     McCormack and another former client, believing that he would be
                     implicated in the kidnapping of drug dealer James Carter if his former
                     clients were not killed. U.S. v. Ford (D. Massachusetts)


     Three Irish Organized Crime
     Associates Indicted

                     On August 24, 2000, three Charlestown, MA men were indicted for the
                     April 1998 kidnapping and beating of James Carter, an Irish Organized
                     Crime associate who supplied narcotics to members of the International
                     Brotherhood of Teamsters (IBT). The following individuals were indicted
                     for taking part in the kidnapping: James McCormack, Jeff Buckley, and
                     Richard Hagerty. McCormack, a convicted bank robber, was also indicted
                     for conspiracy to steal six kilograms of cocaine with IBT member Philip
                     Myers, a convicted bank robber and murderer. The investigation
                     discovered that the defendants allegedly snatched Carter from his home
                     at gunpoint, at which point he was beaten, blindfolded, and held for $1
                     million ransom.

                     The investigation of this kidnapping is part of an ongoing investigation of
                     the Winter Hill gang’s involvement in labor racketeering in the Boston
                     transportation industry. This is a joint investigation with the DEA, the
                     Massachusetts State Police, and the Everett Police Department. U.S. v.
                     McCormack (D. Massachusetts)




90                                                                 Semiannual Report to the Congress
                                                                    April 1, 2000–September 30, 2000
                                                                        Labor Racketeering
                                Investigative Activities


    Four Men Pled Guilty to
    Cocaine Distribution Scheme
    Directed at Members of
    Teamsters Local 25

                             On July 12, 2000, Christopher Thornton, David Cameron, David Smith,
                             and Scott Owens pled guilty in Boston to possession with intent to
                             distribute cocaine and conspiracy to distribute cocaine. These individuals
                             maintained and operated a cocaine distribution ring within the
                             membership of the International Brotherhood of Teamsters Local 25 in the
                             Charlestown section of Boston, under the control of the Winter Hill Irish
                             Organized Crime group. The cocaine was to be distributed mainly on
                             movie sets and other locations by members of Local 25. The ring operated
                             from within the offices of Local 25 in Boston. The OIG assisted the Drug
                             Enforcement Administration in the investigation. U.S. v. Thornton, et al.
                             (D. Massachusetts)

    New Jersey Former Union
    Officer Pled Guilty to Theft of
    Local’s Funds

                             Eugene G’Sell, a former executive vice president of International
                             Longshoremen’s Association (ILA) Local 1588 in New Jersey, entered a
                             guilty plea on June 6, 2000, to charges of theft of union funds. G’Sell was
                             indicted in June 1999 with John Angelone (the president of Local 1588)
                             and Denise Bohn (the office manager). The investigation found that from
                             January 1994 to December 1998, the defendants conspired to embezzle,
                             steal, and unlawfully convert to their own use at least $800,000 of Local
                             1588 funds, generated improper disbursements from Local 1588 by
                             allowing service providers to inflate their costs significantly, provided
                             kickbacks, and improperly charged nearly $24,000 in goods and services
                             for personal use. This is a joint investigation with the New Jersey State
                             Police. U.S. v. G’Sell, et al. (D. New Jersey)

    Former Union Financial
    Secretary in California Charged
    with Embezzling Funds

                             Teresa Sanchez, a former financial secretary of the International
                             Longshoremen and Warehousemen Union (ILWU) Local 20A in Los
                             Angeles, CA was indicted on July 11, 2000, on charges of embezzling




Semiannual Report to the Congress                                                                    91
April 1, 2000–September 30, 2000
     Labor Racketeering
                                      Investigative Activities


                      over $210,000 of union funds and making false union reports. The
                      investigation revealed that since 1993, Sanchez had allegedly
                      presented a list of expenses each month to the executive board listing
                      checks paid to companies and individuals when in fact she had written
                      the checks to herself. In December 1999, Sanchez resigned from her
                      position as financial secretary upon discovery of the embezzlement.
                      This is a joint investigation with DOL’s Office of Labor Management
                      Standards. U.S. v. Sanchez (C.D. California)

     Former Executive Director of
     Union Subsidiary Indicted for
     Alleged Fraud

                      On July 27, 2000, Roderick Rodriquez, the former executive director of
                      Unity House, Inc. (UHI), of Honolulu, HI, and Roberta Cabral, a former UHI
                      consultant, were indicted on eight counts of wire fraud and aiding and
                      abetting wire fraud in a scheme to defraud UHI of $150,000. UHI is a
                      nonprofit organization that administers in excess of $50 million in assets
                      for the benefit of more than 20,000 active and retired members of the Hotel
                      Employees and Restaurant Employees Local Union 5 and the IBT Local
                      Union 996, both located in Honolulu.

                      It is alleged that Rodriquez and Cabral devised a scheme to defraud UHI
                      by having it fund a one-hour television movie entitled Heavenly Road,
                      which was to be used as the basis for a proposed television series called
                      Blue Hawaii. Cabral allegedly received a kickback of $150,000 from the
                      funding of the project without disclosing that information to the
                      organization. Rodriquez failed to appear for arraignment on the indictment
                      and on August 8, 2000, he was found dead, an apparent suicide, at his
                      apartment in Honolulu. This is a joint task force investigation with the FBI,
                      the IRS, the PWBA, and the OLMS. U.S. v. Rodriquez, Cabral (D. Hawaii)

                      In a parallel investigation, on October 4, 2000, current UHI director Linda
                      Carpenter pled guilty to 65 counts of obtaining money through fraudulent
                      means, following her August 2000 indictment. From October 1991 to
                      March 1995, Carpenter devised a scheme to obtain more than $125,000
                      in UHI monies and funds under the custody and control of First Hawaiian
                      Bank and Central Pacific Bank. In some cases, she took checks written on
                      these accounts made out to legitimate vendors, obtained the appropriate
                      signatures, and then changed the names of the payees, and in other
                      cases, she forged the required signatures. U.S. v. Carpenter (D. Hawaii)




92                                                                 Semiannual Report to the Congress
                                                                    April 1, 2000–September 30, 2000
                                                                            Labor Racketeering
                                Investigative Activities



Benefit Plan Investigations
                             In addition to investigating corruption involving general union funds, the
                             OIG is responsible for combating corruption involving the monies in union-
                             sponsored benefit plans. These pension and benefit plans control hundreds
                             of billions of dollars in assets. Our investigations have shown that these
                             vast sums of money remain vulnerable to corrupt union officials and
                             organized criminal elements.

                             An area of concern for the OIG is the proliferation of cases involving
                             corrupt individuals who provide services to union pension plans, including
                             lawyers, accountants, and investment advisors. Currently, the OIG is
                             pursuing over 28 cases involving service providers. The total assets for
                             the pension plans in these cases amount to over $1.5 billion. The OIG
                             remains concerned that with such large amounts of money and limited
                             oversight, union-affiliated benefit plans remain vulnerable to fraud and
                             corruption. The cases summarized in this section include examples of
                             both health plan and pension plan corruption.

                             The first case which involves Fidelity Group, illustrates the damage that
                             can be done by unscrupulous health providers who evade state insurance
                             regulation by claiming Employee Retirement Income Security Act (ERISA)
                             preemption as a multiple-employer welfare arrangement (MEWA), creating
                             a bogus labor union to do so. Such schemes involve multi-state marketing
                             operations that are difficult for state authorities to prosecute. In the Fidelity
                             case, thousands of people were left with over $8 million in unpaid claims.
                             A similar case in Chicago shows that such schemes, although diminished
                             in frequency from the early 1990s, still victimize unwary and desperate
                             people seeking affordable health insurance.

                             Also, a significant pension plan corruption case that involved soft dollars
                             and trade execution by brokers and dealers working as service providers
                             for a large Teamsters Union pension plan in Chicago is discussed. The
                             indictment charged that kickbacks to plan officials were laundered through
                             offshore bank accounts.




Semiannual Report to the Congress                                                                          93
April 1, 2000–September 30, 2000
     Labor Racketeering
                                      Investigative Activities


     New York Service Providers
     Pled Guilty to Role in $8 Million
     in Healthcare Fraud

                       On September 22, 2000, Eugene Duncan and Dwayne Samuels, the
                       former president and vice president of Fidelity Group, Inc., in Great Neck,
                       NY, pled guilty to violating the healthcare fraud provision of the Health
                       Insurance Portability and Accountability Act (HIPPA). They were charged
                       in April 2000 with embezzling nearly $8 million from the health and welfare
                       fund of the International Workers Guild (IWG), a bogus union created to
                       evade state insurance regulation by spuriously claiming preemption
                       under the MEWA provisions of ERISA. IWG was a paper union that
                       provided no bona fide collective bargaining or grievance handling
                       services to its “members.” Fidelity served as the third-party administrator
                       for the IWG health and welfare fund, providing administrative services in
                       the processing of healthcare claims submitted by the participating “union
                       members.”

                       Thousands of employers in approximately 20 states had entered into
                       sham collective bargaining agreements between the National Association
                       of Business Owners and Professionals (NABOP), a fictitious employer
                       representative, and IWG, a fictitious employee representative. Entering
                       into this agreement enabled these “members” to participate in the IWG
                       health and welfare fund and to receive health care benefits. Although it
                       appeared that the IWG health and welfare fund and NABOP were
                       operating independently, it was revealed that Duncan and Samuels
                       controlled and managed them by placing persons with close family ties
                       and business relationships in key positions.

                       Duncan and Samuels exercised complete discretionary control over the
                       management and disbursement of fund assets, and from June 1996 to
                       December 1998, they executed a scheme to defraud the fund by causing
                       excessive amounts of money to be deducted as administrative and
                       service fees. At times, these monthly service fees represented more than
                       30 percent of the total monthly contributions made by participants, twice
                       the amount permitted. Because of the excessive fees charged by the
                       defendants, the fund was depleted to the point at which there were
                       insufficient monies left to pay the healthcare claims submitted. The total
                       amount of unpaid claims is in excess of $8 million and involves at least
                       13,000 victims. The admitted loss to the fund due to the actions of Duncan
                       and Samuels is between $800,000 and $1.5 million. Sentencing has been
                       scheduled for November 17, 2000. This was a joint investigation with the
                       U.S. Postal Inspection Service. U.S. v. Duncan, Samuels (E.D. New York)




94                                                                 Semiannual Report to the Congress
                                                                    April 1, 2000–September 30, 2000
                                                                         Labor Racketeering
                                Investigative Activities


    Former Fund Administrator
    Charged with Embezzlement

                             John Wolfe, the former fund administrator and chairman of the board of
                             trustees of the International Professional Craft and Maintenance
                             Employees Association Trust (IPCMEAT) of Chicago, IL, was indicted on
                             July 13, 2000, for allegedly embezzling more than $100,000 from
                             IPCMEAT’s health and welfare fund, which suffered a financial collapse in
                             August 1996. IPCMEAT was a multiple-employer trust, a specific type of
                             health and welfare plan that included participation from multiple small to
                             midsize industry employers, was governed by a collective bargaining
                             agreement, and was operated by a board of trustees consisting of both
                             union and employer representatives. The collapse of IPCMEAT resulted
                             in approximately $5 million in unpaid health care bills for several thousand
                             participants throughout the country. Wolfe allegedly embezzled the funds
                             from 1993 to 1996, using them for personal expenses and medical and
                             dental services for himself and his wife. It is alleged that Wolfe also used
                             more than $15,000 in embezzled funds to pay for his unsuccessful 1995
                             campaign for business manager and financial secretary of the
                             International Brotherhood of Electrical Workers Local 134. This
                             investigation is being conducted with PWBA. U.S. v. Wolfe (N.D. Illinois)


    Chief Operating Officer and
    CPA Sentenced in Pension Plan
    Embezzlement and Bankruptcy
    Fraud

                             On September 14, 2000, Robert McCarthy, the former chief operating
                             officer of Lloyd’s Shopping Centers, Inc., of Middletown, NY, was
                             sentenced to six and a half years in prison for the theft of approximately
                             $2.1 million from the Lloyd’s employees’ pension plan and the Lloyd’s
                             employees’ 401(k) savings plans. McCarthy was also ordered to make
                             $1.6 million in restitution to the Pension Benefit Guaranty Corporation, the
                             Federal agency that insures defined benefit plans. On October 13, 1999,
                             a jury found McCarthy guilty of three counts of theft of retirement funds
                             and 18 counts of money laundering for the subsequent financial
                             transactions involving the proceeds of the thefts. In addition, McCarthy
                             was convicted for his role in the distribution and maintenance of false
                             earnings statements to the participants of the 401(k) plans.

                             In 1994, Lloyd’s was in bankruptcy and retained McCarthy, a CPA, for
                             financial consultation. From January 1995 through December 1995,




Semiannual Report to the Congress                                                                     95
April 1, 2000–September 30, 2000
     Labor Racketeering
                                     Investigative Activities


                     McCarthy embezzled a total of $2.1 million from Lloyd’s pension and
                     401(k) plans. He used the stolen retirement monies to pay down a
                     mortgage on Lloyd’s property in Newburgh, NY, to pay Lloyd’s other
                     corporate debts, and to purchase medical equipment in order to start a
                     new company, Med Ox Technologies. McCarthy’s theft of pension and
                     401(k) funds left both funds effectively bankrupt. At trial, Lloyd’s
                     employees testified that in response to their inquiries, McCarthy falsely
                     told them that their retirement savings had been moved into new funds
                     where they were making higher earnings. McCarthy was also convicted of
                     the theft of $402,000 from the bankruptcy estate of a New Jersey
                     corporation, Discount Harry, Inc. McCarthy transferred the funds,
                     intended for Discount Harry’s creditors, to his own personal account, and
                     then used the money to pay a tax lien that stood in the way of Lloyd’s
                     emergence from bankruptcy.

                     PWBA and the IRS Criminal Investigation Division also participated in this
                     investigation. U.S. v. McCarthy (S.D. New York)


     Doctor in West Virginia Agreed
     to Pay $1.3 Million for
     Fraudulent Billing

                     Dr. Robert Miller, a Princeton, WV, physician, agreed in a May 4, 2000,
                     settlement to pay the Federal government $1.3 million for fraudulent
                     billing that affected the United Mine Workers’ health benefit fund, multiple
                     Federal healthcare programs, and private insurers. A False Claims Act
                     complaint had been filed earlier against Dr. Miller and associated entities
                     for alleged fraudulent billing practices for reimbursement to Federal
                     healthcare programs. Miller agreed to be excluded from all Federal
                     healthcare programs and Federally sponsored healthcare plans,
                     including FECA, in which Miller assisted Federal mine inspectors in
                     obtaining scheduled awards for hearing loss.

                     The settlement is related to a criminal case in which, on March 2, 2000, a
                     sealed indictment was opened following the arrest of Dr. Miller for 22
                     counts of mail fraud in connection with a scheme to defraud government
                     healthcare programs, including Medicare, Medicaid, the Government
                     Employees’ Health Association, West Virginia Workers’ Compensation,
                     the United Mine Workers of America, Nationwide Insurance, and
                     Mountain State Blue Cross and Blue Shield. The investigation revealed
                     that Dr. Miller billed these programs for medical consultations when no
                     consultation was ordered. The indictment also alleged that the scheme
                     involved Dr. Miller’s billing of these programs for hearing tests he did not




96                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                          Labor Racketeering
                                Investigative Activities


                             perform and billing two or more times for hearing tests he did perform.
                             Finally, the indictment alleged that he billed for office visits when the only
                             services provided were routine hearing aid checks. U.S. v. Miller (S.D.
                             West Virginia)


    Illinois Teamsters Union
    Pension Trustee Pled Guilty to
    Receiving Kickbacks

                             On June 2, 2000, William Close, a trustee for the funds of IBT Locals 710
                             and 701 in Chicago, IL, pled guilty to charges of receiving kickbacks,
                             money laundering, and aiding and abetting. Close accepted $1 million in
                             payoffs through a money laundering operation that was conducted in the
                             Cayman Islands, Great Britain, and the Isle of Man from 1994 to 1997. In
                             return for the payoffs, Close and now-deceased associate Robert Baker
                             (a former Local 710 official) used their positions as trustees to select
                             investment advisors who would direct pension fund trades for the benefit
                             of East West Institutional Services (EWIS), a brokerage firm in Harper
                             Woods, MI.

                             Also indicted with Close in April 2000 were EWIS owners Christopher
                             Roach and Richard Tringale, on charges of receiving kickbacks and of
                             RICO conspiracy, including international money laundering, witness
                             tampering, interstate and foreign travel in aid of racketeering, and
                             extortion allegations concerning threats of physical violence. The
                             investigation alleged that Shawmut Investment Advisors, Inc., a Boston
                             based investment firm holding a $600 million account with Local 710’s
                             pension plan to invest funds and change the portfolio, gave Roach
                             kickbacks for assisting the company in securing the Teamster account.
                             The investigation is being pursued jointly with the FBI, PWBA, and the
                             U.S. Attorneys’ for the Northern District of Illinois and the District of
                             Massachusetts. U.S. v. Close, Roach, Tringale (N.D. Illinois)

    Ohio Business Agent Debarred
    for Committing Perjury in
    Grand Jury Investigation

                             On September 15, 2000, David Poland, a business agent and trustee for
                             IBT Local 20 in Toledo, OH, was sentenced to two years’ probation, was
                             fined $2,000, and was debarred from holding any position of trust in a
                             labor organization following his March 2000 guilty plea to perjury. The
                             investigation revealed that Poland had negotiated a collective bargaining




Semiannual Report to the Congress                                                                       97
April 1, 2000–September 30, 2000
     Labor Racketeering
                                     Investigative Activities


                     agreement with Toledo Pipe Transport (TPT), a hauling company owned
                     and operated by James S. Anderson and his three sons, and lied about
                     ownership of the company when questioned before a grand jury
                     investigating TPT. Poland had discussed with Anderson means by which
                     he could conceal his family’s ownership of TPT. This deception allowed
                     the Andersons to become members of IBT Local 20 and receive medical
                     benefits from the Central States Health and Welfare Plan, even though
                     this was in conflict with the provisions of the collective bargaining
                     agreement.

                     In addition to the labor violations mentioned above, a related investigation
                     revealed that the Anderson family engaged in the international
                     transportation and smuggling of narcotics and currency and in money
                     laundering for Colombian drug cartels. In April 2000, the family agreed to
                     forfeit property, currency, and assets totaling over $1.5 million to the
                     Federal government. This was a joint investigation with U.S. Customs and
                     the IRS. U.S. v. Anderson (N.D. Ohio)


     Connecticut Defendants
     Embezzled $1 Million from
     ERISA Fund

                     On September 14, 2000, MRCA Information Services, Inc., a market
                     research company in Stamford, CT, and MRCA officials David Learner
                     (the owner and president), and Michael Hay (the vice president of finance)
                     were charged with and pled guilty to theft of employee benefit funds. Per
                     their plea agreements, the defendants have agreed to pay back
                     approximately $1.5 million. Sentencing is set for December 2000. The
                     investigation revealed that from 1991 to 1998, the defendants, as trustees
                     of MRCA’s shared savings growth plan, failed to deposit $795,000 in
                     payroll deductions into the plan’s account and embezzled nearly
                     $250,000 in assets for their personal use. This was a joint investigation
                     with PWBA. U.S. v. Learner, Hay (D. Connecticut)


     Pension Trustee in New York
     Pled Guilty to Embezzlement of
     Plan Funds

                     Anthony Montesano III, the owner of three private New York sanitation
                     and carting companies, pled guilty on April 14, 2000, to embezzlement
                     from the companies’ pension plan, of which he was the sole trustee.
                     Sentencing is scheduled for later this year. This case resulted from a civil




98                                                               Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                        Labor Racketeering
                                Investigative Activities


                             racketeering complaint filed in 1989 (U.S., et al, v. Lucchese Organized
                             Crime Family, et al). The complaint alleged that Montesano’s companies,
                             Monbro Sanitation Services, Inc., and Associated Waste, Inc., were under
                             the influence or control of organized crime. These companies participated
                             in a common pension plan, known as the Affiliated Companies Pension
                             Plan, which was victimized by Montesano’s scheme. The investigation
                             found that in 1994 and 1995, Montesano wired over $500,000 from the
                             pension fund to corporate checking accounts to make loans to business
                             associates and pay for various personal expenses. The three companies
                             are currently in Chapter 11 bankruptcy proceedings. U.S. v. Montesano
                             (E.D. New York)

    Union Trustees Indicted for
    Embezzlement from Pension
    and Benefit Funds

                             Frank Ervolino and his wife, Anna May, of Buffalo, NY, were charged on
                             May 16, 2000, with embezzlement from an employee benefit fund,
                             embezzlement of union assets, and conspiracy to enrich themselves
                             unlawfully with nearly $250,000 at the expense of union members. From
                             May 1990 to December 1995, the Ervolinos each held multiple high-level
                             positions in the AFL-CIO Hospital and Nursing Home Council and its
                             pension fund and benefit plan; the Hotel Employees and Restaurant
                             Employees International Union Local 4 and its pension and insurance
                             funds; as well as Laundry Workers Union Local 168-39 and its pension
                             and health and welfare trust funds. The joint investigation found that the
                             Ervolinos allegedly embezzled $183,000 from the Council and over
                             $52,000 from its pension fund to purchase annuities, pay personal
                             insurance premiums, and pay salary to Anna May Ervolino. The
                             indictment also alleges that the Ervolinos induced the Council to provide
                             loans improperly to Local 168-39 for their personal benefit, prevented
                             members of the Council’s executive board from learning its true financial
                             condition by concealing relevant financial statements and reports, and
                             maintained a climate of intimidation to discourage opposition to their
                             numerous acts of embezzlement. This is a joint investigation with the FBI.
                             U.S. v. Ervolino (W.D. New York)




Semiannual Report to the Congress                                                                   99
April 1, 2000–September 30, 2000
  Labor Racketeering
                                       Investigative Activities


      Former New Jersey Union
      Advisor Lost CPA License for
      Role in Kickback Scheme

                       On June 9, 2000, Thomas Leddy, a former accountant to Retail,
                       Wholesale, Department Store Union Local 29 of Hackensack, NJ, was
                       sentenced to three years’ probation and 250 hours of community service,
                       for his plea of guilty to paying kickbacks in a complex scheme involving
                       former union officials and service providers. In addition, Leddy was fired
                       from his $200,000 per-year job as financial manager for the Service
                       Employees International Union Local 32E, was barred from all union and
                       fund activities for 13 years, and will lose his CPA license. The investigation
                       revealed that Leddy paid $125,000 to former Local 29 consultant John
                       Kraemer in order to be hired by Local 29 and its affiliated funds.

                       Leddy, Kraemer, Frances Fitzpatrick (a former Local 29 administrator and
                       Kraemer’s sister), and Judith Kraemer (a former Local 29 consultant and
                       Kraemer’s wife) pled guilty in December 1999 to charges of conspiracy to
                       embezzle funds from Local 29’s health and welfare fund. The
                       investigation showed that Leddy falsified reports to conceal the illegal
                       disbursements from Local 29 to the union and fund officials. This
                       investigation was conducted jointly with the U.S. Attorney’s Office and
                       PWBA. U.S. v. Leddy, et al. (E.D. New York)


      Father and Son Union Officials
      Convicted in Embezzlement
      Conspiracy in New Jersey

                       Victor Garcia Sr., the former president of the National Union of Hospital
                       and Health Care Employees District 1199J of the AFL-CIO’s American
                       Federation of State, County, and Municipal Employees, and his son,
                       Victor Garcia Jr., the former pension fund assistant executive director,
                       were found guilty on September 28, 2000, of embezzling $200,000 from
                       the union’s employee benefit plan. Victor Garcia Sr. was also found guilty
                       of conspiring to receive $200,000 in cash kickbacks from a general
                       contractor who, from 1994 to 1997, made $6 million in renovations to the
                       union’s pension fund building in Newark, NJ. In addition, the general
                       contractor paid for repairs to Victor Garcia Sr.’s car in order to retain the
                       union renovation contract. PWBA also participated in the investigation.
                       U.S. v. Garcia (D. New Jersey)




100                                                                  Semiannual Report to the Congress
                                                                      April 1, 2000–September 30, 2000
                                                                         Labor Racketeering
                                Investigative Activities



Labor-Management Relations Investigations
                             Labor-management relations cases differ from internal union cases in
                             that they involve improper relationships between management and union
                             officials rather than abuse of trust involving union assets. Typical labor-
                             management cases range from collusion between representatives of
                             management and corrupt union officials to the use of the threat of “labor
                             problems” to extort money or benefits from employers.


    Pennsylvania State
    Representative, Three Bridge
    Inspectors, and Bridge
    Contractor Sentenced on
    Corruption Charges

                             A series of guilty pleas have resulted from a two and a half year joint
                             investigation of the bridge-painting industry in western Pennsylvania. The
                             probe targeted bribes paid to union officials for labor peace and to State
                             and local officials conducting oversight and management of Federally
                             funded bridge-painting and rehabilitation projects. Key defendants
                             include Frank Gigliotti, a member of the State of Pennsylvania House of
                             Representatives and a member of the board of the Allegheny County
                             Sanitary Authority (ALCOSAN); bridge-painting contractor Ernest Smalis;
                             and bridge inspectors Charles Schweinberg, Robert Loughner, and Victor
                             Stivason. Total restitution in this case is more than $2.9 million.

                             On June 21, 2000, Gigliotti was sentenced to nearly four years’
                             incarceration, three years’ probation, and a $6,000 fine. The sentencing
                             judge imposed a higher sentence than called for by the sentencing
                             guidelines because of what the judge described as Gigliotti’s “perversion
                             of his office” through the extortion of money from painting contractors.
                             Gigliotti pled guilty to using his position for extortion, mail fraud, and
                             making and subscribing false income tax returns. The investigation
                             revealed that from 1996 to 1998, Gigliotti solicited bribes from contractors,
                             demanded a 10 percent cut of a contractor’s profits, and demanded tickets
                             and plane fare for him to vacation in Disney World in exchange for his
                             influence on the ALCOSAN board. Gigliotti received $15,000 from Ernest
                             Smalis, a disqualified painting contractor and defendant in this
                             investigation who cooperated with the government, in exchange for
                             Gigliotti’s influence in having the Pennsylvania Department of
                             Transportation (PennDOT) reinstate Smalis as a prequalified bridge




Semiannual Report to the Congress                                                                     101
April 1, 2000–September 30, 2000
  Labor Racketeering
                                 Investigative Activities


                 rehabilitation contractor. In spite of Gigliotti’s efforts, PennDOT officials
                 warned Gigliotti of Smalis’s history as a bad contractor and a threat to
                 public health and safety, and refused to reinstate him.

                 On August 25, 2000, Smalis, the owner and operator of E. Smalis Painting
                 Company in Shadyside, PA, was sentenced to three and a half years’
                 incarceration, three years’ probation, and was ordered to pay over $2.7
                 million in restitution on charges of mail fraud, tax evasion, and filing false
                 tax returns. He was ordered to pay nearly $3.5 million in back taxes plus
                 interest and penalties. Smalis pled guilty in December 1999 to charges
                 that stemmed from a scheme to defraud the Liberty Mutual Insurance
                 Company, the Pennsylvania State Workers’ Insurance Fund, and the
                 Ohio Bureau of Workers’ Compensation by underreporting the number of
                 workers on Federally funded bridge-painting projects and by not
                 submitting premiums owed to these entities for workers’ compensation
                 insurance coverage.

                 On September 6, 2000, Charles Schweinberg, an inspector for the City of
                 Pittsburgh, was sentenced to one and a half years in prison, two years’
                 probation, and $100,000 restitution following his May 2000 guilty plea to
                 conspiracy to commit theft, bribery, and mail fraud, and conspiracy to
                 extort property. Robert Loughner, a privately employed inspector acting
                 on behalf of PennDOT, was also sentenced in September 2000, to five
                 months’ community service, five months’ home detention, and was
                 ordered to pay $100,000 restitution following his guilty plea in January
                 2000 to conspiracy charges. The charges against Schweinberg and
                 Loughner involved their acceptance of $5,000 bribes from Smalis to
                 overlook contract specifications while they were inspectors on the
                 Schenley Park Bridge in Pittsburgh. Shortcuts taken by Smalis in painting
                 the bridge have been estimated to shorten the life span of the paint on the
                 bridge from 20 years to 12 years and will cost the City of Pittsburgh
                 hundreds of thousands of dollars to correct. Schweinberg was also
                 involved as a co-conspirator in the payoffs to Gigliotti.

                 On September 21, 2000, Victor Stivason, also a privately employed
                 inspector acting on behalf of PennDOT, was sentenced to five months’
                 incarceration, five months’ home detention, and three years’ probation.
                 On June 14, 2000, Stivason pled guilty to charges of bribery concerning a
                 program receiving Federal funds. The charges against Stivason involve
                 his acceptance of things of value from Smalis while Stivason was
                 assigned to inspect Smalis’s work on the Graff Bridge in Kittaning, PA, a
                 PennDOT rehabilitation project. In exchange, Stivason approved
                 fraudulent extra work claims, resulting in excessive payments of
                 approximately $36,000 to Smalis.




102                                                            Semiannual Report to the Congress
                                                                April 1, 2000–September 30, 2000
                                                                         Labor Racketeering
                                Investigative Activities


                             The investigation was conducted jointly with the FBI and the IRS Criminal
                             Investigation Division. U.S. v. Smalis, U.S. v. Gigliotti, U.S. v. Stivason,
                             U.S. v. Schweinberg, U.S. v. Loughner (W.D. Pennsylvania)


    Marine Company Pled Guilty to
    Making Illegal Payments to a
    Union Official in Florida

                             Hvide Marine, Inc., a Port Everglades, FL, marine company, was
                             sentenced on September 22, 2000, to a $60,000 fine, five years’
                             probation, and was ordered to undergo a government training program in
                             labor management. This sentence was the result of a June 2000 guilty
                             plea of making unlawful payments to Walter “Buster” Browne, a former
                             Port Everglades commissioner and the president of the National
                             Federation of Public and Private Employees (NFPPE), a former affiliate of
                             the Marine Engineers Beneficial Association District One (MEBA District
                             1) (AFL-CIO). The investigation found that from January 1995 to
                             December 1995, father and son Hans and Erik Hvide, former officials of
                             Hvide Marine, made prohibited payments to Browne while the company
                             was seeking favorable labor terms from MEBA District 1 through Browne
                             to help it obtain financing for double-hulled tankers. The company was not
                             successful in its negotiations with MEBA District 1 and eventually
                             negotiated a collective bargaining agreement with another union.

                             In a related development, on September 7, 2000, Debra Weiler, a former
                             business representative of NFPPE, was indicted on 20 counts of theft of
                             employee benefit funds, mail fraud, and making false statements in
                             ERISA-related documents. The investigation revealed that Weiler had
                             allegedly embezzled funds from the MEBA District 1 medical and benefits
                             plan.

                             In an additional spin-off of the Hvide Marine case, on May 12, 2000,
                             William Coleman, the president and owner of Coleary Transport, Inc., pled
                             guilty to charges of making prohibited payments to Browne in October
                             1995 and December 1995. His sentencing is scheduled for November
                             2000. The investigation found that during this time, Coleman tried to
                             develop a cargo-loading operation at Port Everglades to supplement his
                             trucking business. This is a joint investigation with the FBI. U.S. v. Hvide
                             Marine, U.S. v. Weiler, U.S. v. Coleman (S.D. Florida)




Semiannual Report to the Congress                                                                    103
April 1, 2000–September 30, 2000
  Labor Racketeering
                                      Investigative Activities


      Businessman Indicted for
      Illegal Payments to High-
      Ranking Union Official in
      Florida

                       On June 29, 2000, Joseph Casella, the senior vice president of
                       Harborside Refrigerated Services, Inc. (HRS), of Tampa, FL, was indicted
                       and charged with Taft-Hartley Act violations of making illegal payments to
                       a union official, Perry Harvey, a vice president of the International
                       Longshoremen’s Association (ILA) in New York and the president of ILA
                       Local 1402 in Tampa. The investigation revealed that Casella allegedly
                       made campaign contributions toward Harvey’s unsuccessful 1996 race
                       for county commissioner. At the same time, Casella was representing
                       HRS in contract negotiations with Harvey on a new collective bargaining
                       agreement with Local 1402. The subsequent agreement called for
                       substantial cuts in management payments into Local 1402’s pension,
                       welfare, vacation, and holiday funds, with a two-dollar-per-hour loss in
                       benefits to rank-and-file members. U.S. v. Casella (M.D. Florida)




104                                                               Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
   Strengthening
   Departmental
      Programs




Legislative
     Issues
      Legislative Issues



                      Section 4(a) of the Inspector General Act of 1978 requires the Inspectors
                      General to review existing or proposed legislation and regulations and to
                      make recommendations in the Semiannual Report concerning the impact
                      of the economy and efficiency of the administration of the Department’s
                      programs and on the prevention of fraud and abuse. The most important
                      legislative items of concern to the OIG are:
                        •   authorizing the Department to access unemployment insurance and
                            social security wage records for purposes of program evaluation;

                        •   ensuring the integrity of the Federal Employees’ Compensation Act;

                        •   ensuring that DOL’s information technology oversight is adequate;

                        •   amending the Occupational Safety and Health Act to provide specific
                            coverage for all state and local government employees; and

                        •   granting the Inspectors General statutory law enforcement authority.


      Authorize the Department to
      Access Unemployment
      Insurance and Social Security
      Wage Records for Purposes of
      Program Evaluation

                      The Department of Labor needs the authority to access wage records for
                      various purposes. These include measuring the long-term impact of
                      employment and training services on job retention and earnings and
                      identifying individuals who are receiving workers’ compensation disability
                      benefits from the Department but who are actually working. With respect
                      to measuring the long-term impact of DOL employment and training
                      programs, we have been concerned with the Department’s inability to
                      provide critical outcome information. Our experience has been that
                      outcome information is very difficult to obtain, especially if agencies
                      cannot access Unemployment Insurance (UI) and Social Security
                      Administration (SSA) wage records.

                      The OIG has the authority to issue subpoenas to obtain UI wage records.
                      However, the OIG is not always able to obtain UI wage records in a timely
                      manner, as states often invoke Federal UI policies and/or state
                      nondisclosure statutes to hinder our access. We are hopeful that some
                      clarification will be forthcoming that will help us gain unimpeded access
                      (i.e., without having to issue a subpoena). However, even if there were no




106                                                              Semiannual Report to the Congress
                                                                  April 1, 2000–September 30, 2000
                                                                              Legislative Issues



                             Federal impediments, states may still invoke their own nondisclosure
                             statutes, in which case we would be forced to issue subpoenas and
                             perhaps litigate to have them enforced. The OIG has worked with the
                             Department with respect to its policies and guidelines regarding the
                             confidentiality and disclosure of UI records.

    Ensure the Integrity of the
    Federal Employees’
    Compensation Act

                             There are three areas in the Federal Employees’ Compensation Act
                             (FECA) in which legislative changes would result in significant savings for
                             the Federal government. These issues include changing benefits for older
                             beneficiaries, returning a three-day waiting period to the beginning of the
                             claims process, and providing the OIG and the Office of Workers’
                             Compensation Programs (OWCP) the authority to access the SSA’s
                             wage records in order to identify claimants defrauding the program.
                                    •   Move people into a form of retirement (FECA annuity or Office of
                                        Personnel Management retirement) after a certain age if they are
                                        still injured:
                                        Currently, FECA beneficiaries are not required to “retire” at any age.
                                        Consequently, a large percentage of FECA beneficiaries have
                                        effectively retired on workers’ compensation and continue to
                                        receive tax-free compensation beyond the normal retirement age.
                                        The OIG is concerned that there is an unintended incentive for
                                        claimants to remain on the disability rolls because their tax-free
                                        benefits may be greater than their taxed benefits in a Federal
                                        retirement program. This type of legislative change would
                                        ultimately deter beneficiaries from “retiring” on FECA and would
                                        result in cost savings for the Federal government.
                                    •   Require a three-day waiting period before the continuation of pay
                                        (COP) period begins following injury:
                                        FECA currently has a provision that allows employees who
                                        sustain disabling job-related traumatic injuries to receive
                                        continuation of their regular pay for a period not to exceed 45
                                        calendar days after the injuries. This COP period was included in
                                        the statute to overcome any temporary income loss due to delays
                                        in adjudication of claims. Prior to a 1974 legislative change, FECA
                                        required employees to use accrued sick leave or leave without pay
                                        for a period of three days before the COP period began. This
                                        three-day period was established in order to limit the number of




Semiannual Report to the Congress                                                                         107
April 1, 2000–September 30, 2000
      Legislative Issues



                               frivolous claims coming into the Office of Workers’ Compensation
                               Programs. The 1974 change placed the three-day period at the
                               end of the COP period. Following this legislative change, OWCP
                               experienced a significant increase in new claims. We believe that
                               the FECA statute should be changed back to requiring a three-day
                               waiting period at the beginning of the compensation process.
                           •   Obtain access to SSA records to identify those individuals whose
                               benefits need to be reduced or who need to be removed from the
                               FECA rolls:
                               This is fully discussed under the proposal to authorize the
                               Department to access UI and SSA wage records for purposes of
                               program evaluation.


      Ensure That DOL’s Information
      Technology Oversight Is
      Adequate

                      The OIG is concerned about the need for a long-term oversight strategy in
                      the area of information technology (IT). The IT area is a high-cost, critically
                      important function of the Department. Many of the Department’s
                      programs are dependent on the data they collect and maintain. Among the
                      issues that should be reviewed are:
                           •   information security, integrity, and reliability;
                           •   major system acquisitions;
                           •   disaster recovery;
                           •   IT cost reduction and increased efficiency; and
                           •   Internet/intranet usage and management.
                      The OIG is also concerned about the security of DOL’s computer systems
                      and the data they contain. We recognize that a unified approach to
                      computer system security and integrity is vital and would be more effective
                      than a piecemeal approach.

                      We believe that the Inspectors General should play an important role in
                      helping to ensure computer security and integrity through annual
                      evaluations of agency information security programs and practices. To this
                      end, we support legislative provisions such as those contained in S. 1993 to:
                           •   provide a comprehensive framework for establishing and
                               ensuring the effectiveness of controls over information resources
                               that support Federal operations and assets;




108                                                                  Semiannual Report to the Congress
                                                                      April 1, 2000–September 30, 2000
                                                                            Legislative Issues



                                    •   recognize the highly networked nature of the Federal computing
                                        environment, including the need for Federal government
                                        interoperability, and, in the implementation of improved security
                                        management measures, assure that opportunities for interoperability
                                        are not adversely affected;
                                    •   provide effective government wide management and oversight of
                                        the related information security risks, including coordination of
                                        information security efforts throughout the civilian, national
                                        security, and law enforcement communities;
                                    •   provide for development and maintenance of the minimum
                                        controls required to protect Federal information and information
                                        systems; and
                                    •   provide a mechanism for improved oversight of Federal agency
                                        information security programs.




    Amend the Occupational Safety
    and Health Act to Provide
    Specific Coverage for All State
    and Local Government
    Employees

                             Responsibility for the nation’s occupational safety and health program is
                             divided between the Federal government, through the Occupational
                             Safety and Health Administration (OSHA), and those states that have
                             DOL-approved Occupational Safety and Health (OSH) plans. Those
                             state-run programs are administered and operated with Federal approval
                             and generally cover both private- and public-sector employees. In states
                             in which safety and health enforcement is Federally run, state and local
                             government employees are excluded from coverage. Consequently,
                             some state and local government employees do not have adequate safety
                             and health protections in the workplace.

                             Therefore, we recommend that OSHA seek to amend the OSH Act to
                             provide specific coverage for all public-sector workers, regardless of
                             whether safety and health rules are enforced by the Federal or state
                             government. This would help ensure that all workers are afforded a safe
                             and healthy workplace.




Semiannual Report to the Congress                                                                      109
April 1, 2000–September 30, 2000
      Legislative Issues



      Legislative Proposal to Grant
      Inspectors General Statutory
      Law Enforcement Authority

                       For many years, the OIG has operated with temporary law enforcement
                       authority, first with case-by-case deputation and later with an
                       organizational blanket deputation through a memorandum of
                       understanding (MOU) with the Department of Justice (DOJ). Throughout
                       those years, we have advocated permanent law enforcement authority
                       through legislation.

                       The Administration submitted a legislative proposal to Congress, which
                       was subsequently introduced in the Senate, to grant the statutory
                       Inspectors General law enforcement authority. The Department of Labor
                       OIG would support such legislation. It is our understanding that the bill
                       virtually mirrors the framework under which our agents are currently
                       deputized under the MOU with the DOJ and will not change the authorities
                       we use. Under the bill, we would continue to follow DOJ operational
                       guidelines; conform to DOJ’s training and qualification requirements; and
                       coordinate extensively through the cognizant U.S. Attorney’s Office.




110                                                               Semiannual Report to the Congress
                                                                   April 1, 2000–September 30, 2000
  Reports and
   Statistics




Appendix
                                                                                                         Appendix
                                      Reporting Requirements


Requirements Under the Inspector General Act of 1978
Section 4(a)(2) - Review of Legislation and Regulation .............................................................. 105
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies ................................................ All
Section 5(a)(2) - Recommendations with Respect to Significant Problems,
  Abuses, and Deficiencies ......................................................................................................... All
Section 5(a)(3) - Prior Significant Recommendations on Which
 Corrective Action Has Not Been Completed ..................................................................... 126-130
Section 5(a)(4) - Matters Referred to Prosecutive Authorities ...................................................... 12
Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
 Information Was Refused ..................................................................................................... None
Section 5(a)(6) - List of Audit Reports .................................................................................. 131-137
Section 5(a)(7) - Summary of Significant Reports ........................................................................ All
Section 5(a)(8) - Statistical Tables on Management Decisions
 on Questioned Costs ............................................................................................................... 117
Section 5(a)(9) - Statistical Tables on Management Decisions on
 Recommendations That Funds Be Put to Better Use .............................................................. 115
Section 5(a)(10) - Summary of Each Audit Report over Six Months Old for
 Which No Management Decision Has Been Made ........................................................... 126-130
Section 5(a)(11) - Description and Explanation for Any Significant
 Revised Management Decision ................................................................................................. 34
Section 5(a)(12) - Information on Any Significant Management Decisions with
  Which the Inspector General Disagrees .............................................................................. None

Senate Report No. 96-829
Resolution of Audits ............................................................................................................. 131-137
Money Owed to the Department ................................................................................................. 119

House Report No. 106-370
Summary of Monetary Audit Finding Resolution .................................................................. 120-125
Questioned Costs ................................................................................................................ 121-123
Funds Put to Better Use ....................................................................................................... 124-125




Note: This page cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as
amended, Senate Report No. 96-829 (Supplemental 1980 Appropriations and Rescissions Bill), and House Report
No. 106-370 (FY 2000 Labor, HHS, Education, and Related Agencies Appropriation Bill) to the specific pages where
they are addressed. The amount of “delinquent debts” owed to the Department can be found in the annual Consolidated
Financial Statement Audit.




Semiannual Report to the Congress                                                                                                    113
April 1, 2000–September 30, 2000
            Appendix
                                                Explanation of Audit Schedules


Questioned Costs

This schedule shows the extent to which DOL management has taken steps, during the six-month
reporting period, to resolve the costs questioned as having been improperly expended. Audit
resolution occurs when management either agrees with the auditor’s finding and disallows those
costs that were questioned or decides that the expenditure should be allowed. (This schedule is
required by Section 5(a)(8) of the Inspector General Act, as amended.)

Disallowed Costs

This schedule presents the activity for costs that have been disallowed during the six-month period.
This schedule is included in the OIG Semiannual Report to demonstrate the flow of information to
the Secretary’s Semiannual Management Report, which is issued by the Secretary as required by
Section 5(b)(2) of the Inspector General Act, as amended.

Recommendations That Funds Be Put to Better Use

These schedules depict the activity during the six-month reporting period for those funds that were
recommended by the auditor to be put to better use. These schedules are included in the OIG
Semiannual Report to demonstrate the flow of information to the Secretary’s Semiannual
Management Report, which is issued by the Secretary as required by Section 5(b)(3) of the
Inspector General Act, as amended.

Unresolved Audits over Six Months Old

This schedule presents a summary of all audit reports that continue to remain unresolved for more
than six months. For these reports, a management decision is still outstanding. (This schedule is
required by Section 5(a)(10) of the Inspector General Act, as amended.)

Reports Issued by the OIG

This schedule is a listing, subdivided according to subject matter, of all reports that were issued by
the OIG during the six-month reporting period, as required by Section 5(a)(6) of the Inspector
General Act, as amended. This listing also provides for each report, where applicable, the total dollar
value of questioned costs and the total dollar value of recommendations that funds be put to better
use.



Note: The schedule that lists the significant audit recommendations that have not been resolved for over one year
and on which corrective action has not been completed is reported in the Secretary’s Semiannual Management
Report.




114                                                                              Semiannual Report to the Congress
                                                                                  April 1, 2000–September 30, 2000
                               Funds Put to Better Use           Appendix
                                   (Agreed to by DOL)




                                                          Number      Dollar Value
                                                         of Reports   ($ millions)


A. For which no management decision had
   been made as of the commencement of
   the reporting period                                     5               6.5

B. Which were issued during the reporting
   period                                                   4            13.1

        Subtotals (A + B)                                   9            19.6

C. For which a management decision was made
   during the reporting period                              5

    •   Dollar value of recommendations
        that were agreed to by management                                10.8

    •   Dollar value of recommendations
        that were not agreed to by management                               0.9

D. For which no management decision had been
   made as of the end of the reporting period               4               7.9

E. For which no management decision has been
   made within six months of issuance                       2               1.7




Semiannual Report to the Congress                                                 115
April 1, 2000–September 30, 2000
           Appendix                       Funds Put to Better Use
                                          (Implemented by DOL)




                                                                Number             Funds
                                                             of Reports        Recommended
                                                                               for Better Use
                                                                                 ($ millions)

A.     For which final action had not been
       taken as of the commencement of the
       reporting period                                           4                 9.4

B.     For which management decisions
       were made during the reporting period                      5                10.8

C.     For which appeals were filed during the
       reporting period                                           2                 6.9

           Subtotals (A+B-C)                                      7                13.3

D.     For which final action was taken
       during the reporting period                                1

       •   Dollar value of recommendations
           that were actually completed                                             0.1

       •   Dollar value of recommendations
           that management has subsequently
           concluded should not or could
           not be implemented or completed                                          0.0

E.     For which no final action had been taken
       by the end of the period*                                  6                13.2


* Does not include 3 audits with recommendations that funds be put to better use in the      amount
of $7.1 million, which are currently under appeal.




116                                                                   Semiannual Report to the Congress
                                                                       April 1, 2000–September 30, 2000
               Resolution Activity Related to OIG          Appendix
        Issued Audit Reports (Questioned Costs)




                                                    Number of   Questioned
                                                     Reports       Costs
                                                                ($ millions)

A. For which no management decision had
   been made as of the commencement of the
   reporting period (as adjusted)                     67           59.4

B. Which were issued during the reporting
   period                                             24           15.7

            Subtotals (A + B)                         91           75.1

C. For which a management decision was
   made during the reporting period                   36

        •    Dollar value of disallowed costs                      16.9

        •    Dollar value of costs not disallowed                     4.8

D. For which no management decision had been
   made as of the end of the reporting period         55           53.4


E. For which no management decision has been
   made within six months of issuance                 34           37.8




Semiannual Report to the Congress                                           117
April 1, 2000–September 30, 2000
           Appendix                       Agency Final Actions Related to OIG
                                          Issued Audit Reports (Disallowed Costs)




                                                                    Number              Disallowed
                                                                   of Reports              Costs
                                                                                        ($ millions)


A. For which final action had not been taken as of
   the commencement of the reporting period (as adjusted)               75                 13.1

B. For which management or appealdecisions
   were made during the reporting period                                16                 16.9

C. For which appeals were filed during the reporting period             8                    5.2

        Subtotals (A+B-C)                                               83                 24.8


D. For which final action was taken during the
   reporting period*

       •   Dollar value of disallowed costs that were
           recovered                                                                         4.5

       •   Dollar value of disallowed costs that were
           written off by management                                                         4.3

E. For which no final action had been taken by the end
   of the reporting period                                              63                 16.0**


*Partial recovery/write-offs are reported in the period in which they occur. Therefore, many audit
reports will remain open awaiting final recoveries/write-offs to be recorded.

**Does not include $28.2 million of disallowed costs which are under appeal.




118                                                                   Semiannual Report to the Congress
                                                                       April 1, 2000–September 30, 2000
                      Delinquent Debts Owed to DOL                                       Appendix
                          (As of September 30, 2000)


Agency/                                       Accounts                        Accounts                  Accounts
Program                                     Receivable                      Receivable                Receivable
                                               Current                      Delinquent                       Total
                                            ($ millions)                    ($ millions)              ($ millions)

BLS                                                   0.0                            0.0                        0.1

ESA:

    Black Lung                                      31.7                             3.1                      34.8

    FECA                                            21.2                            17.4                      38.6

    Longshore                                         1.1                            0.6                        1.7

    Back Wage                                         2.8                            2.7                        5.5

    Civil Monetary Penalties                          1.4                            5.3                        6.7

ETA                                                   0.9                           12.6                      13.5

MSHA                                                  3.9                            8.4                      12.3

OSHA                                                10.3                            38.7                      49.0

PWBA                                                  2.0                           10.0                      12.0

Total                                               75.3                            98.9                     174.2




Note: These figures are provided by Departmental agencies. They are unaudited and may represent estimates. Amounts
due to the Unemployment Trust Fund (interagency receivables, state unemployment taxes, and benefit overpayments) are
not included. Amounts due from other Federal agencies for FECA workers’ compensation benefits paid are not included.
Data from MSHA reflects amounts owed as of August 31, 2000.




Semiannual Report to the Congress                                                                               119
April 1, 2000–September 30, 2000
                       Appendix- Summary of Monetary Audit Finding Resolution
      Fiscal Year         Number of                 Total               Management             Recoveries           Adjustments              Balance
          of             Reports with            Questioned/            Concurrence                                                           from
       Issuance           Questioned/           Unsupported                                                                                Management
                         Unsupported           Costs or FPBU                                                                               Concurrence
                        Costs or FPBU1        Recommendations
                       Recommendations               ($)                      ($)                   ($)                   ($)                  ($)

         1992                   135                   128,854,297            76,153,492            53,468,499             18,831,025            3,853,968

         1993                   107                     30,750,412           11,497,060             4,383,610              5,499,007            1,614,443

         1994                   84                      36,750,685           14,558,875             4,753,271              5,267,804            4,537,800

         1995                   74                      11,075,810            4,025,013             1,441,427              1,853,854              729,732

         1996                   80                      77,774,604           70,997,209            18,689,907             50,899,627            1,407,675

         1997                   81                      51,617,420           36,552,389            18,025,668              5,318,577           13,208,144

         1998                   25                      27,903,776           24,849,382            10,144,659                262,596           14,442,127

         1999                   38                      77,002,711         90,058,845 2            81,949,763                150,154            7,958,928

         2000                   54                      62,869,790           15,238,581                   13,625                     0         15,224,956




           1
                Funds Put to Better Use

           2
              Includes concurrence with $65,196,587 of audit questioned/unsupported costs or FPBU recommendations, plus $23,234,396 of
        additional costs disallowed by DOL Contracting Officers as a result of audit resolution.

120                                                                                                                             Semiannual Report to the Congress
                                                                                                                                 April 1, 2000-September 30, 2000
 Appendix- Monetary Audit Finding Resolution: Questioned or Unsupported Costs


      Fiscal Year    Number of     Questioned/     Year     Management      Recoveries     Adjustments         Balance
          of        Reports with   Unsupported              Concurrence                                         from
       Issuance     Questioned/       Costs                                                                  Concurrence
                    Unsupported
                       Costs           ($)                      ($)            ($)              ($)               ($)
         1992           129           86,650,803     1992      17,593,752      1,052,295        2,051,481       14,489,976
                                                     1993       5,356,209      4,507,998          824,770       14,513,417
                                                     1994       3,563,743      1,425,039        2,739,341       13,912,780
                                                     1995       1,716,599        359,057        5,651,533        9,618,789
                                                     1996               0        121,685        1,379,310        8,117,794
                                                     1997               0      1,353,640        1,302,337        5,461,817
                                                     1998               0          5,000          852,803        4,604,014
                                                     1999               0          4,682                0        4,599,332
                                                     2000       5,660,319      2,376,233        4,029,450        3,853,968
      YTD* Totals       129           86,650,803               33,890,622     11,205,629       18,831,025        3,853,968
         1993           102           30,486,668     1993       7,157,258        141,040          965,848        6,050,370
                                                     1994       3,862,476        522,238           93,549        9,297,059
                                                     1995          53,229        292,241        1,450,938        7,607,109
                                                     1996          33,904      1,310,561           41,051        6,289,401
                                                     1997         280,493        492,803           99,593        5,977,498
                                                     1998               0      1,128,721        2,063,315        2,785,462
                                                     1999               0        384,891                0        2,400,571
                                                     2000               0          1,415          784,713        1,614,443
      YTD Totals        102           30,486,668               11,387,360      4,273,910        5,499,007        1,614,443




121                                                                                        Semiannual Report to the Congress
                                                                                            April 1, 2000-September 30, 2000
 Appendix- Monetary Audit Finding Resolution: Questioned or Unsupported Costs
      Fiscal Year    Number of     Questioned/     Year     Management      Recoveries     Adjustments         Balance
          of        Reports with   Unsupported              Concurrence                                         from
       Issuance     Questioned/       Costs                                                                  Concurrence
                    Unsupported
                       Costs           ($)                      ($)            ($)              ($)               ($)
         1994           83            34,850,685     1994       2,234,529        281,554           38,534        1,914,441
                                                     1995       8,182,628        635,826        1,153,093        8,308,150
                                                     1996         507,762        518,590        1,241,750        7,055,572
                                                     1997         467,029         57,052        1,038,501        6,427,048
                                                     1998       1,266,927      1,211,207          732,756        5,750,012
                                                     1999               0        107,472          201,789        5,440,751
                                                     2000               0         41,570          861,381        4,537,800
      YTD Totals        83            34,850,685               12,658,875      2,853,271        5,267,804        4,537,800

         1995           74            11,075,810     1995       1,423,617         31,522            2,384        1,389,711
                                                     1996         663,335        216,896          331,436        1,504,714
                                                     1997       1,394,126        136,805            3,235        2,758,800
                                                     1998         433,559        626,905        1,381,297        1,184,157
                                                     1999          52,750         39,280           30,769        1,166,858
                                                     2000          57,626        390,019          104,733          729,732
      YTD Totals        74            11,075,810                4,025,013      1,441,427        1,853,854          729,732
         1996           77            11,490,160     1996         966,308        350,404              602          615,302
                                                     1997       1,403,519        799,321            6,771        1,212,729
                                                     1998       1,030,269        175,833           84,578        1,982,587
                                                     1999         346,508        470,309          230,855        1,627,931
                                                     2000       1,318,789        994,040          576,821        1,375,859
      YTD Totals        77            11,490,160                5,065,393      2,789,907          899,627        1,375,859




122                                                                                        Semiannual Report to the Congress
                                                                                            April 1, 2000-September 30, 2000
 Appendix- Monetary Audit Finding Resolution: Questioned or Unsupported Costs
      Fiscal Year         Number of            Questioned/              Year          Management                Recoveries             Adjustments              Balance
          of             Reports with          Unsupported                            Concurrence                                                                from
       Issuance          Questioned/              Costs                                                                                                       Concurrence
                         Unsupported
                            Costs                     ($)                                    ($)                      ($)                    ($)                       ($)
         1997                   72                  28,028,226             1997             3,890,134                1,544,155                  814,113                1,531,866
                                                                           1998             2,219,981                2,156,581                   90,098                1,505,168
                                                                           1999             2,998,677                1,130,676                  968,701                2,404,468
                                                                           2000             4,357,335                  649,467                   45,665                6,066,671
      YTD Totals                72                  28,028,226                             13,466,127                5,480,879               1,918,577                 6,066,671
         1998                   21                  23,611,939             1998             6,114,199                5,182,808                        0               931,391
                                                                           1999            14,348,256                1,120,018                   28,699            14,130,930
                                                                           2000               270,090                1,409,084                  233,897            12,758,039
      YTD Totals                21                  23,611,939                             20,732,545                7,711,910                  262,596            12,758,039
         1999                   30                  65,154,720             1999            2,454,668                 1,446,468                  131,992                  876,208
                                                                           2000           77,812,234 3              71,398,179                   18,162                7,272,101
      YTD Totals                30                  65,154,720                             80,266,902               72,844,647                  150,154                7,272,101
         2000                   48                  45,442,557             2000             4,583,703                       13,625                      0              4,570,078
      YTD Totals                48                  45,442,557                              4,583,703                       13,625                      0              4,570,078




                3
                   Includes concurrence with $53,068,626 of audit questioned costs, plus $23,234,396 of additional costs disallowed by DOL Contracting Officers as a
             result of audit resolution.

123                                                                                                                                   Semiannual Report to the Congress
                                                                                                                                       April 1, 2000-September 30, 2000
          Appendix- Monetary Audit Finding Resolution: Funds Put to Better Use
      Fiscal Year   Number of Reports       Funds        Year   Management         Recoveries   Adjustments     Balance
          of        with Funds Put to   Recommended             Concurrence                                      from
       Issuance        Better Use       for Better Use                                                        Concurrence
                    Recommendations           ($)                   ($)               ($)           ($)           ($)
         1992              6                42,203,494   1992      42,262,870         452,391             0      41,810,479
                                                         1993               0      41,810,479             0               0
      YTD Totals           6                42,203,494             42,262,870      42,262,870             0               0
         1993              5                   263,744   1993             29,700       29,700             0               0
                                                         1994             80,000            0             0          80,000
                                                         1995                  0       80,000             0               0
      YTD Totals           5                   263,744                109,700         109,700             0               0
         1994              1                 1,900,000   1994       1,900,000               0             0       1,900,000
                                                         1995               0       1,900,000             0               0
      YTD Totals           1                 1,900,000              1,900,000       1,900,000             0               0
         1995              0                         0   1995                 0             0             0               0
      YTD Totals           0                         0                        0             0             0               0




124                                                                                             Semiannual Report to the Congress
                                                                                                 April 1, 2000-September 30, 2000
          Appendix- Monetary Audit Finding Resolution: Funds Put to Better Use
      Fiscal Year   Number of Reports       Funds        Year   Management      Recoveries   Adjustments      Balance
          of        with Funds Put to   Recommended             Concurrence                                    from
       Issuance        Better Use       for Better Use                                                      Concurrence
                    Recommendations           ($)                   ($)            ($)           ($)            ($)
         1996              3                66,284,444   1996      15,900,000            0              0     15,900,000
                                                         1997               0    8,000,000              0      7,900,000
                                                         1998      50,031,816            0     50,000,000      7,931,816
                                                         1999               0    7,900,000              0         31,816
                                                         2000               0            0              0         31,816
      YTD Totals           3                66,284,444             65,931,816   15,900,000     50,000,000         31,816
         1997              9                23,589,194   1997         769,831      769,831              0              0
                                                         1998      18,779,304    3,206,513              0     15,572,791
                                                         1999       3,537,127    8,568,445      3,400,000      7,141,473
                                                         2000               0            0              0      7,141,473
      YTD Totals           9                23,589,194             23,086,262   12,544,789      3,400,000      7,141,473
         1998              4                 4,291,837   1998         582,608      582,608             0               0
                                                         1999       3,534,229    1,850,141             0       1,684,088
                                                         2000               0            0             0       1,684,088
      YTD Totals           4                 4,291,837              4,116,837    2,432,749             0       1,684,088
         1999              8                11,847,991   1999       5,043,293    4,356,466             0         686,827
                                                         2000       4,748,650    4,748,650             0         686,827
      YTD Totals           8                11,847,991              9,791,943    9,105,116             0         686,827
         2000              6                17,427,233   2000      10,654,878            0             0      10,654,878
      YTD Totals           6                17,427,233             10,654,878            0             0      10,654,878




125                                                                                          Semiannual Report to the Congress
                                                                                              April 1, 2000-September 30, 2000
Appendix- Unresolved Audits Over Six Months Old
  Agency/Program           Date                                Name of Audit      Report Number          Number of      Questioned
                          Issued                                                                      Recommendations     Costs

Nonmonetary Recommendations and Questioned Costs:

Resolution of Single Audits Being Evaluated by OIG:

ETA/OJC              04/02/96          Puerto Rico Volunteer Youth               02-96-208-03-370           21              219,435

ETA/OJC              04/02/96          Puerto Rico Volunteer Youth               02-96-209-03-370           13                 1,716

ETA/OJC              05/23/96          Puerto Rico Volunteer Youth               02-96-248-03-370           6                        0

ETA/OJC              05/23/96          Puerto Rico Volunteer Youth               02-96-249-03-370           6                        0

Being Resolved in Conjunction with DOL Consolidated Financial Statement Audit:

ESA/ADMIN            08/18/94          ESA Salaries & Expenses                   03-94-008-04-001           2                        0

ETA/OJC              08/19/96          Job Corps Combining Schedules             12-96-004-03-370           3                        0

OASAM/Admin          09/02/94           FY 93 DOL Consolidated Financials        12-94-012-07-001           2                        0

OASAM/Admin          06/15/95          FY94 DOL Consolidated Financials          12-95-004-07-001           2                        0

CFO/Admin            08/19/96          DOL FY95 Management Comments              12-96-016-13-001           2                        0

CFO/Admin            05/01/96          FY95 DOL Consolidated Financials          12-96-007-13-001           1                        0

CFO/Admin            02/28/97          FY96 DOL Consolidated Financials          12-97-005-13-001           3                        0

CFO/Admin            02/27/98          FY97 Consolidated Financials              12-98-002-13-001           11                       0

CFO/Admin            10/19/98          FY97 Management Advisory Comments         12-99-001-13-001           4                        0

CFO/Admin            02/26/99          FY98 Consolidated Financials              12-99-002-13-001           4                        0




126                                                                                                 Semiannual Report to the Congress
                                                                                                     April 1, 2000-September 30, 2000
Appendix- Unresolved Audits Over Six Months Old
  Agency/Program            Date                                    Name of Audit                Report Number          Number of      Questioned
                           Issued                                                                                    Recommendations     Costs

Working with U.S. Department of Education to Resolve:

ETA/STW               05/09/97          School to Work                                          05-97-002-03-385           17               16,821

ETA/STW               05/09/97          School to Work                                          05-97-003-03-385           21               34,847

Pending Indirect Cost Negotiations:

OASAM/OPGM            11/04/94          Homebuilders Institute                                  18-95-001-07-735           1               628,158

OASAM/OPGM            11/04/94          Homebuilders Institute                                  18-95-002-07-735           2               748,379

OASAM/OPGM            11/04/94          Homebuilders Craft Skills                               18-95-003-07-735           7               353,479

OASAM/OPGM            08/14/97          Consulting & Program Management                         18-97-025-07-735           4               604,510

ETA/OJC               02/19/99          Advantage Resource Group                                18-99-008-03-370           1                23,036

Under Litigation or Alternative Dispute Resolution:

ETA/OJC               09/10/96          National Plastering Industries                          18-96-024-03-370           2               145,344

Audit Under Appeal at State Level:

ETA/JTPA              02/26/96          City of Chicago JTPA                                    05-96-001-03-340           3               679,773

Management Decision Not Yet Issued by Agency:

OSEC/ILAB             03/24/00          Review of ILAB                                          17-00-008-01-070           4                        0

ETA/ADMIN             11/29/99          Xpand Corporation                                       18-00-001-03-001           2               106,757

ETA/UIS               09/26/97          Virgin Island UI                                        02-97-220-03-315           8               269,404

ETA/UIS               03/27/98          Iowa Workforce Development                              05-98-003-03-315           1                        0

ETA/UIS               09/21/99          Administrative Charges to the Unemployment Trust Fund   06-99-012-03-315           2                        0



127                                                                                                                Semiannual Report to the Congress
                                                                                                                    April 1, 2000-September 30, 2000
Appendix- Unresolved Audits Over Six Months Old
  Agency/Program        Date                              Name of Audit                Report Number          Number of      Questioned
                       Issued                                                                              Recommendations     Costs

ETA/UIS            10/19/99     Single Audit: State of Indiana - 1997                 18-00-501-03-315           10              161,548

ETA/UIS            10/19/99     Single Audit: State of Indiana - 1998                 18-00-502-03-315           7               311,872

ETA/UIS            01/10/00     Single Audit: State of Minnesota - 1998               18-00-517-03-315           3                        0

ETA/UIS            01/10/00     Single Audit: State of Nevada - 1997                  18-00-520-03-315           2                        0

ETA/UIS            02/28/00     Single Audit: State of Alaska - 1998                  18-00-525-03-315           3                        0

ETA/USES           10/26/99     Single Audit: State of Ohio - 1998                    18-00-516-03-320           6                        0

ETA/SESA           01/17/96     Proposed FY 96 Rental Rates                           06-96-001-03-325           5               344,822

ETA/SESA           03/21/97     DOL Equity in SESA Real Property - Colorado           06-97-010-03-325           1                79,346

ETA/SESA           08/13/97     DOL Equity in SESA Real Property - New York           06-97-051-03-325           1             3,952,692

ETA/SESA           08/21/97     DOL Equity in SESA Real Property - Oregon             06-97-053-03-325           1               739,444

ETA/SESA           08/22/97     DOL Equity in SESA Real Property - Idaho              06-97-054-03-325           1               542,465

ETA/SESA           09/30/97     DOL Equity in SESA Real Property - Roll-up Report     06-97-056-03-325           7                        0

ETA/SESA           12/08/99     Puerto Rico Department of Labor and Human Resources   02-00-203-03-325           9            15,814,678

ETA/JTPA           09/25/98     Cherokee Nation                                       06-98-009-03-340           9               529,272

ETA/JTPA           09/07/99     Atlanta PIC PY 1996 JTPA Contracts                    04-99-007-03-340           3               543,117

ETA/JTPA           09/22/99     New Mexico Service Delivery Area                      06-99-008-03-340           13              360,106

ETA/JTPA           10/20/99     Single Audit: State of West Virginia - 1998           18-00-505-03-340           1                        0

ETA/JTPA           10/21/99     Single Audit: State of Louisiana - 1998               18-00-507-03-340           2               109,566

ETA/JTPA           01/10/00     Single Audit: Commonwealth of Kentucky - 1998         18-00-519-03-340           1                60,546



128                                                                                                      Semiannual Report to the Congress
                                                                                                          April 1, 2000-September 30, 2000
Appendix- Unresolved Audits Over Six Months Old
   Agency/Program        Date                              Name of Audit                           Report Number          Number of      Questioned
                        Issued                                                                                         Recommendations     Costs

ETA/JTPA            01/10/00     Single Audit: State of Nevada - 1998                             18-00-521-03-340           1                        0

ETA/JTPA            01/11/00     Single Audit: State of North Carolina - 1997                     18-00-522-03-340           3                        0

ETA/JTPA            01/11/00     Single Audit: State of North Carolina - 1998                     18-00-523-03-340           3                        0

ETA/JTPA            03/06/00     Single Audit: State of Iowa - 1998                               18-00-529-03-340           4                        0

ETA/JTPA            03/06/00     Single Audit: State of Nebraska - 1998                           18-00-531-03-340           1                        0

ETA/DINAP           09/24/99     Phoenix Indian Center                                            09-99-008-03-355           4                        0

ETA/DOWP            09/24/99     NCSC/NSCERC                                                      18-99-011-03-360           10            2,778,260

ETA/DOWP            03/29/00     National Senior Citizens Education and Research Center           18-00-006-03-360           8             5,684,923

ETA/OJC             07/23/99     Keystone Job Corps Center                                        04-99-006-03-370           1                        0

ETA/OJC             09/22/99     Talking Leaves Job Corps Center                                  06-99-010-03-370           12            1,052,574

ETA/OJC             03/30/00     National Plastering Industry’s Joint Apprenticeship Trust Fund   18-00-005-03-370           4               536,359

ETA/STW             09/28/98     STW Opportunities Program in Iowa                                05-98-006-03-385           2                        0

ETA/STW             05/14/99     School-to-Work Sustainability Roll-up                            05-99-012-03-385           2                        0

ETA/STW             09/23/99     Hawaii Department of Education                                   18-99-501-03-385           1                50,000

ETA/WIA             02/08/00     Vermont’s One Stop Readiness                                     02-00-205-03-390           4                        0

ETA/WIA             02/22/00     Connecticut’s One Stop Readiness                                 02-00-206-03-390           5                        0

 ETA/WIA            02/22/00     New York’s One Stop Readiness                                    02-00-207-03-390           6                        0

 ETA/WIA            03/14/00     Illinois’ One Stop Readiness                                     02-00-209-03-390           3                        0

 ETA/WIA            03/14/00     California’s One Stop Readiness                                  02-00-210-03-390           6                        0



129                                                                                                                  Semiannual Report to the Congress
                                                                                                                      April 1, 2000-September 30, 2000
Appendix- Unresolved Audits Over Six Months Old
  Agency/Program          Date                               Name of Audit               Report Number          Number of      Questioned
                         Issued                                                                              Recommendations     Costs

ETA/WIA             03/22/00         Florida’s One Stop Readiness                       02-00-211-03-390           3                        0

CFO/ADMIN           09/02/99         FY 1998 Management Advisory Comments               12-99-009-13-001           10                       30

CFO/ADMIN           02/29/00         FY 1999 DOL Consolidated Financial Statement       12-00-003-13-001           16                       0

DOL/MULTI           09/16/99         Milwaukee Area American Indian Manpower            05-99-009-50-598           25              352,693

DOL/MULTI           09/20/99         SER Corporation of Kansas                          05-99-021-50-598           3                  3,783

       Total Nonmonetary Recommendations and Questioned Costs:                                                    377           37,839,755

Total Funds Recommended for Better Use:

Management Decision Not Yet Issued by Agency:

ETA/DOWP            09/24/99         NCSC/NSCERC                                        18-99-011-03-360           2               900,000

ETA/WTW             03/24/99         Policy & Technical Assistance to Improve WTW       05-99-008-03-386           1               800,000

       Total Funds Recommended for Better Use:                                                                     3             1,700,000

       Total Nonmonetary Recommendations, Questioned Costs, and Funds Recommended for
       Better Use:                                                                                                380           39,539,755




130                                                                                                        Semiannual Report to the Congress
                                                                                                            April 1, 2000-September 30, 2000
Final Audit Reports Issued by the OIG
DOL Strategic Goal                                                     Date          Report           Number of     Questioned     Funds Put to   Other Monetary
  Program Name                                                        Issued         Number         Non-Monetary      Costs         Better Use        Impact
  Name of Report                                                                                   Recommendation      ($)              ($)             ($)
                                                                                                         s

A Prepared Workforce
Veterans’ Employment and Training Service
      Alleged Violations at a Maryland Job Service Local Office      09/28/00   03-00-009-02-201         5           24,000             0               0

Employment & Training Administration
      Single Audit: State of California - 1998                       06/08/00   12-00-541-03-001         1              0               0               0

United States Employment Service
      Single Audit: State of Ohio - 1999                             07/31/00   12-00-503-03-320         5              0               0               0

      Single Audit: State of Oklahoma - 1999                         07/31/00   12-00-505-03-320         0          205,000             0               0

      Single Audit: Commonwealth of Pennsylvania - 1999              07/31/00   12-00-507-03-320         1           13,236             0               0

      Single Audit: District of Columbia, Department of Employment   09/07/00   12-00-517-03-320         5              0               0               0
      Services - 1997

      Single Audit: State of North Carolina - 1999                   06/08/00   12-00-540-03-320         1              0               0               0

Trade Adjustment Assistance

      Single Audit: State of Tennessee - 1999                        07/31/00   12-00-512-03-330         1              0               0               0

Job Training Partnership Act
      New York State Dept of Labor Job Training Partnership Act      09/28/00   02-00-214-03-340         2              0           6,102,478           0
      Title III Expenditures

      Dislocated Worker Program in a Growing Economy                 06/29/00   04-00-002-03-340         3              0               0               0




131                                                                                                                         Semiannual Report to the Congress
                                                                                                                             April 1, 2000-September 30, 2000
Final Audit Reports Issued by the OIG
DOL Strategic Goal                                                Date          Report           Number of     Questioned     Funds Put to   Other Monetary
  Program Name                                                   Issued         Number         Non-Monetary      Costs         Better Use        Impact
  Name of Report                                                                              Recommendation      ($)              ($)             ($)
                                                                                                    s

      Florida Cash Management Practices Have Increased the      09/20/00   04-00-004-03-340         2          3,438,078       185,000             0
      Federal Government’s Interest Costs

      Analyses of Participant Earnings for Three Kulick Youth   09/20/00   06-00-003-03-340         0              0               0               0
      Opportunity Pilot Sites

      Single Audit: State of New Mexico - 1999, 1998            07/31/00   12-00-500-03-340        12              0               0               0

      Single Audit: State of Oregon -1999                       07/31/00   12-00-501-03-340         4              0               0               0

      Single Audit: State of Montana - 1999                     07/31/00   12-00-502-03-340         0           11,857             0               0

      Single Audit: State of West Virginia - 1999               07/31/00   12-00-504-03-340         2          563,178             0               0

      Single Audit: State of Iowa - 1998                        07/31/00   12-00-509-03-340         3              0               0               0

      Single Audit: National Alliance of Business - 1998        08/31/00   12-00-516-03-340         1              0               0               0

      Single Audit: State of Maine - 1997                       09/18/00   12-00-521-03-340         2              0               0               0

      Single Audit: OIC of America - 1997                       09/18/00   12-00-522-03-340         1              0               0               0

      Single Audit: National Center on Education - 1999         09/26/00   12-00-526-03-340         1          267,251             0               0

      Single Audit: Commonwealth of Kentucky - 1998             09/29/00   12-00-528-03-340         6          613,950             0               0

      Single Audit: State of Florida - 1998                     06/08/00   12-00-535-03-340        11              0               0               0

      Single Audit: Ironton-Lawrence County - 1998              06/08/00   12-00-537-03-340         0           10,768             0               0

      Single Audit: Government of Guam - 1998                   06/08/00   12-00-539-03-340         4              0               0               0

      American Association of Community Colleges                08/04/00   18-00-008-03-340         0          198,687             0               0

Indian & Native American Programs
      Seneca Nation of Indians                                  05/15/00   02-00-208-03-355         0           32,117             0               0


132                                                                                                                    Semiannual Report to the Congress
                                                                                                                        April 1, 2000-September 30, 2000
Final Audit Reports Issued by the OIG
DOL Strategic Goal                                                       Date          Report           Number of     Questioned     Funds Put to   Other Monetary
  Program Name                                                          Issued         Number         Non-Monetary      Costs         Better Use        Impact
  Name of Report                                                                                     Recommendation      ($)              ($)             ($)
                                                                                                           s

      Confederated Tribes of Warm Springs                              07/31/00   12-00-513-03-355         1           34,883             0               0

      Seneca Nation of Indians                                         08/28.00   12-00-515-03-355         1              0               0               0

      Singe Audit: United Sioux Tribe of South Dakota - 1999           09/14/00   12-00-519-03-355         1              0               0               0

      Single Audit: Leech Lake Reservation - 1999                      09/15/00   12-00-520-03-355         2              0               0               0

      Single Audit: Puyallup Tribe of Indians - 1998                   09/25/00   12-00-525-03-355         5              0               0               0

      Single Audit: Ho Chunk Nation - 1999                             09/26/00   12-00-527-03-355         1              0               0               0

Older Workers Program

      Single Audit: State of Arizona - 1998                            06/08/00   12-00-538-03-360         1              0               0               0

Seasonal Farmworkers Program

      Central Valley Opportunity Center                                06/02/00   09-00-003-03-365         7          535,579             0               0

      Audit of Center for Employment and Training                      09/26/00   09-00-006-03-365        11          5,797,229           0               0

      Single Audit: Center for Employment and Training - 1999          07/31/00   12-00-510-03-365         5              0               0               0

      Single Audit: Portable, Practical Education Preparation - 1999   07/31/00   12-00-511-03-365         3              0               0               0

      Single Audit: Central Valley Opportunity Center - 1998           08/08/00   12-00-518-03-365         5              0               0               0

Job Corps
      Career Systems Development Corporation Indirect Cost             09/15/00   02-00-216-03-370         0              0               0               0
      Proposal for the Year Ended December 31, 1999

      Audit of DESI’s Placements                                       08/10/00   05-00-006-03-370         4           13,625             0               0




133                                                                                                                           Semiannual Report to the Congress
                                                                                                                               April 1, 2000-September 30, 2000
Final Audit Reports Issued by the OIG
DOL Strategic Goal                                                 Date            Report           Number of     Questioned     Funds Put to   Other Monetary
  Program Name                                                    Issued           Number         Non-Monetary      Costs         Better Use        Impact
  Name of Report                                                                                 Recommendation      ($)              ($)             ($)
                                                                                                       s

      Followup Audit of Job Corps’ Safety and Health Program     09/22/00     05-00-007-03-370        19              0               0               0
      Reveals that Additional Efforts are Needed to Achieve a
      Model Program

Welfare to Work Program

      Post Award Survey of Devereaux Corporation                 05/22/00     03-00-006-03-386         1            1,995         3,209,953           0

      WTW Survey of Johns Hopkins                                07/31/00     03-00-007-03-386         2              0               0               0

      Single Audit: Rise, Inc.                                   09/20/00     12-00-523-03-386         1              0               0               0

Workforce Investment Act

      One-Stop Readiness Under the Workforce Investment Act      05/04/00     02-00-213-03-390         0              0               0               0

Bureau of Labor Statistics
      BLS Data Security Followup Audit                           09/22/00     03-00-012-11-001         1              0               0               0

                                                                Goal Totals         47                144         11,761,433      9,497,431           0

 A Secure Workforce
Unemployment Insurance Service
      Allegation of Misuse of Unemployment Insurance Fund        09/25/00     03-00-010-03-315         1          1,017,951           0               0

      Survey of Office of Workforce Security Unemployment        09/28/00     03-00-011-03-315        15              0               0               0

      North Carolina Y2K Conversion Expenditures                 09/12/00     04-00-003-03-315         0           39,690             0               0

      Single Audit: State of Delaware - 1998                     07/31/00     12-00-506-03-315         4              0               0               0




134                                                                                                                       Semiannual Report to the Congress
                                                                                                                           April 1, 2000-September 30, 2000
Final Audit Reports Issued by the OIG
DOL Strategic Goal                                                      Date           Report           Number of     Questioned     Funds Put to   Other Monetary
  Program Name                                                         Issued          Number         Non-Monetary      Costs         Better Use        Impact
  Name of Report                                                                                     Recommendation      ($)              ($)             ($)
                                                                                                           s

      Single Audit: Michigan Consumer and Industry - 1998 and        09/22/00     12-00-524-03-315         4              0               0               0
      1999

      Single Audit: State of Idaho - 1998                            06/08/00     12-00-536-03-315         0          148,414             0               0

      Single Audit: State of Louisiana - 1999                        04/17/00     18-00-534-03-315         4          2,429,691           0               0

State Employment Security Agency
      Puerto Rico Department of Labor and Human Resources            09/18/00     02-00-218-03-325         3          287,065             0               0
      Single Audit Requiring Resolution and Closure

      Single Audit: State of Washington - 1999                       07/31/00     12-00-508-03-325         3           20,955             0               0

      Single Audit: State of Florida - 1999                          08/23/00     12-00-514-03-325        10              0               0               0

Federal Employees’ Compensation
      Crossmatching with the Social Security Administration Saves    09/28/00     03-00-008-04-431         2              0           3,600,000      7,121,668
      Money

Coal Mine Workers’ Compensation
      Second Audit of MOU Between SSA and DOL/ESA/ DCMWC             04/28/00     17-00-009-04-433         1              0               0               0

                                                                    Goal Totals         12                47          3,943,766       3,600,000      7,121,668

A Quality Workplace
Mine Safety and Health Administration

      MSHA Managerial Cost Accounting Pilot                          09/28/00     12-00-010-06-001         0              0               0               0

      State of Nevada MSHA Grantee                                   09/11/00     09-00-004-06-601         2              0               0               0



135                                                                                                                           Semiannual Report to the Congress
                                                                                                                               April 1, 2000-September 30, 2000
Final Audit Reports Issued by the OIG
DOL Strategic Goal                                                   Date            Report           Number of     Questioned     Funds Put to   Other Monetary
  Program Name                                                      Issued           Number         Non-Monetary      Costs         Better Use        Impact
  Name of Report                                                                                   Recommendation      ($)              ($)             ($)
                                                                                                         s

Occupational Safety and Health Administration
      Audit of OSHA’s Policies and Procedures Applicable           04/27/00     05-00-005-10-001         5              0               0               0
      to the Home Workplace Letter

      Response to Senate Committee on Small Business Request-      09/20/00     05-00-008-10-001         0              0               0               0
      Audit of OSHA Ergonomics Contracting

Bureau of International Labor Affairs
      Worldwide Strategies, Inc.                                   06/28/00     18-00-007-01-070         0              0               0               0

Office of Federal Contract Compliance Programs

      OFCCP Information Security Needs Improvement                 09/22/00     09-00-005-04-001         3              0               0               0

      OFCCP Region IX Information System Security Needs            09/26/00     09-00-007-04-001         2              0               0               0
      Improvement

                                                                  Goal Totals          7                12              0               0               0

Departmental Management Focus
Office of the Chief Financial Officer
      Fiscal Year 99 Management Advisory Comments                  07/20/00     12-00-006-13-001        22              0               0               0

Multiple Agencies
      Limited Audit of MN Department of Economic Security          08/10/00     05-00-004-50-598         1              0               0               0
      Research and Statistics Office – BLS and ETA Labor Market
      Information Programs for the Period 7/1/96 - 9/30/99

                                                                  Goal Totals          2                23              0               0               0




136                                                                                                                         Semiannual Report to the Congress
                                                                                                                             April 1, 2000-September 30, 2000
Final Evaluation Reports Issued by the OIG
DOL Strategic Goal                                                      Date            Report          Number of     Questioned     Funds Put to   Other Monetary
  Program Name                                                         Issued           Number        Non-Monetary      Costs         Better Use        Impact
  Name of Report                                                                                     Recommendation      ($)              ($)             ($)
                                                                                                           s

A Prepared Workforce
      Evaluation of Outside Work Issues for DOL Employees            9/2/9/2000     2E-08-001-0001         2              0               0               0

      Evaluation of the Welfare to Work Competitive Grant Award       9/29/2000     2E-03-386-0002         5              0               0               0
      Process (Rounds Two and Three)

      Evaluation of DOL’s Policies and Procedures to Debar or          9/28/00      2E-07-740-0001         6              0               0               0
      Suspend Federal Contractors

      Evaluation of PWBA’s “Prohibited Transactions” Exemptions        9/21/00      2E-12-001-0003         2              0               0               0
      Process

                                                                    Goal Totals           4               15              0               0               0

Quality Workplaces
      Review of Space Utilization in the Frances Perkins Building      9/27/00      2E-07-731-0001         7              0           5,000,000           0

      Evaluation of Program Implementation ILAB’s Child Labor         9/28/2000     2E-01-070-0001         5              0               0               0
      Projects

      Review of Fatal Accidents in Metal/Non-Metal Mining/MSHA         6/2/00       2E-06-001-0004         4              0               0               0

                                                                    Goal Totals           3               16              0           5,000,000           0



                                                                    Report Totals        75               257         15,705,199     18,097,431      7,121,668




137                                                                                                                           Semiannual Report to the Congress
                                                                                                                               April 1, 2000-September 30, 2000
         Appendix
                                      Investigations: Detail of Accomplishments


                                                         Division                   Totals
                                                           Totals
Cases Opened:
      Program Fraud                                           177
      Labor Racketeering                                       48                      225

Cases Closed:
      Program Fraud                                           221
      Labor Racketeering                                       57                      278

Cases Referred for Prosecution:
      Program Fraud                                            96
      Labor Racketeering                                       47                      143

Cases Referred for Administrative/Civil Action:
      Program Fraud                                            23
      Labor Racketeering                                        0                        23

Indictments:
       Program Fraud                                           72
       Labor Racketeering                                      45                      117

Convictions:
      Program Fraud                                            71
      Labor Racketeering                                       39                      110

Debarments:
     Program Fraud                                              1
     Labor Racketeering                                        14                        15


Recoveries, Cost Efficiencies,
Restitutions, Fines/Penalties,
Forfeitures, and Civil Monetary Actions:
       Program Fraud                                  $52,634,889
       Labor Racketeering                             $13,766,704            $66,401,593




138                                                        Semiannual Report to the Congress
                                                            April 1, 2000–September 30, 2000
                                                              Appendix
      Investigations: Detail of Accomplishments


Categories                                                               Amount

Recoveries:                                                          $4,793,667

    (The dollar amount/value of an agency’s action
    to recover or reprogram funds or to make other
    adjustments in response to OIG investigations.)

Cost Efficiencies:                                                   $7,143,692

    (The one-time or per annum dollar amount/value of
    management’s commitment, in response to OIG
    investigations, to utilize the government’s resources
    more efficiently.)


Restitutions:                                                       $36,838,912

    (The dollar amount/value of restitutions resulting
     from OIG criminal investigations.)


Fines/Penalties:                                                    $12,681,256

    (The dollar amount/value of fines, assessments,
    seizures, investigative/court costs, or other penalties
    resulting from OIG criminal investigations.


Civil/Monetary Actions:                                              $4,944,066

    (The dollar amount/value of forfeitures settlements,
    damages, judgements, court costs, or other penalties
    resulting from OIG civil investigations.)

Total:                                                              $66,401,593




Semiannual Report to the Congress                                           139
April 1, 2000–September 30, 2000
Appendix- Investigations Case List
                                    Indicted   Convicted   Sentenced   Monetary
      Alien Certification
      Carmel, Avi                      X           X
      Golden State Health Centers      X           X
      Heine, John                                  X          X              $100
      Krishna, Gopala                  X
      Montalvo, Demetria, M.D.                     X          X             $100
      Ong, Justin                                  X          X           $98,124
      Peralta, Antonina                            X
      Ramos, Americus                              X
      Reyes, Daniel                    X           X
      Scully, Matahom                              X
      Vemireddy, Venkateswara                      X
      Vullaganti, Raghu                                       X            $3,100
          Total                        4          10          4          $101,424
      Employee Misconduct
      Burke, Joseph                                X          X            $2,500
      Elbeck, Linda                                X
      Garcia, Bonifacio                                       X          $861,809
      Morgan, Ronald                                          X             $200
      Ochoa, Kinsella                  X
      Plater, Thomas                   X           X          X
      Whitaker, Denise                 X
          Total                        3           3           4         $864,509
      ESA-Black Lung
      Arora, Vasu, M.D.                                       X          $650,886
      Canterbury, Melinda                                     X            $8,711
      Davis, James                                 X
      Holston, Jimmy                   X           X          X            $4,763
      Norton, Richard, M.D.                        X
      Sanford, Charles                 X           X
      Sanford, Linda                   X           X
      Strauss, Frank                   X
      ***Sealed***                     X
          Total                        5           5           3         $664,360
      ESA-FECA
      Alexander, Maria                 X
      Barnes, Nancy                    X
      Beattie, Eugene                  X
      Bieganowski, Victor                          X          X          $383,638
      Bieganowski, Arthur, M.D.                    X          X        $34,135,853
      Billings, Charles                                       X            $30,424
      Bohr, Wilfred, Jr.                                      X             $4,603
      Borquez, Paul                                X
      Campa, John                      X
      Campos, Lucy                                            X             $100
      Cason, Dwight                                           X          $111,049
      Castrovillo, Eugene                                     X          $459,506
      Cheeks, Lonnie                   X
      Couvillion, William              X
      Crawford and Company                                               $700,000
      Cubilette, Samuel                X           X
      Diaz, Gustavo                                X          X             $100
      Dockery, Herbert                                        X          $350,100
      Dye, Wanda                                              X
      Emerson, Shirley                                        X           $45,860


140                                                    Semiannual Report to the Congress
                                                        April 1, 2000-September 30, 2000
Appendix- Investigations Case List
                                         Indicted   Convicted   Sentenced   Monetary
      George, Bobb                          X           X
      Goldberg, Richard, Jr.                            X          X          $500,200
      Hanauer, James                        X           X
      Hardy, Patricia                       X
      Hart, Claire                                      X
      Hart, Debra                                       X
      Haywood, Perry                                    X          X            $1,221
      Holloman, Gene                        X           X          X           $12,490
      Keister, Terry                        X           X
      Kramer, John                                                 X           $15,200
      Krol, Wayne                                                  X
      Lado, Michael                         X           X
      Lansing, Stephen                                             X           $12,000
      Lewis, Lorraine                       X           X
      Lopez, Jesse                                      X          X             $100
      Lopez, Roberto                                               X           $18,890
      Lowe, Gregory                         X
      Miller, David                                                X            $2,525
      Minnelli, Patricia                                           X           $14,160
      Nelson, Phillip                       X           X
      Nolen, Robert                         X
      Nutt, Donnie                                                 X           $87,549
      Pacheco, Phillip                                  X          X            $3,219
      Pirtle, Becky                         X           X
      Powers, Sarah                         X           X
      Schneider, John                                              X            $6,000
      Schuerman, Thomas                     X
      Silva, Chanda                         X
      Smith, Amy                            X           X          X           $28,031
      Stokes, Sherri                        X
      Swoap, Floyd                          X
      Tarbox, Henry                                                X            $98,164
          Total                            24          21          26       $37,020,982
      ESA-Longshore
      Grady, Elizabeth                      X
      Hundley, Kenneth                                             X               $50
          Total                             1           0          1               $50
      ESA-Wage and Hour
      ***Sealed***                                                 X              $100
      Broadbent, Carl                       X
      Contemporary Framing Contractors                             X          $175,400
      Diramerian, Krikor                                           X          $113,828
      Filandrianos, Theodore                X
      Francisco, Arnold                                 X
      Harrison, James                                              X           $10,025
      Lee, Pam                                          X          X           $21,000
      Mulitz, Lewis                                                X           $50,000
      Ng, Yoke                                          X          X            $5,000
      Pan, Wei                                          X
      Pifer, David                          X           X          X             $7,600
      ***Sealed***                                                 X          $404,896
      ***Sealed***                                                 X              $100
      ***Sealed***                                                 X             $3,900
      Taub, Abraham                                                X          $750,000
      Woldiger, Abraham                                            X          $750,000
          Total                             3           5          13        $2,291,849


141                                                         Semiannual Report to the Congress
                                                             April 1, 2000-September 30, 2000
Appendix- Investigations Case List
                                        Indicted   Convicted   Sentenced   Monetary
      ETA-JTPA
      Bates, Barbara                                                           $15,000
      Finan, Michael                                   X          X          $376,160
      Jorgensen, Gina                                             X              $229
      Jorgensen, Wallace                                          X         $1,802,746
      Zimet, Terry                         X
          Total                            1           1           3        $2,194,135
      ETA-Unemployment Insurance/SESA
      ***Sealed***                                     X
      Akhtar, Rabiya                       X
      Alamin, Nur                          X
      Allen, Joseph                                               X             $525
      Allen, Kenneth                                   X          X          $232,543
      Allen, Ronald                                    X          X          $226,020
      Baham, Kaseedra                      X
      Baker, James                                     X          X           $10,596
      Banks, Wayne                         X           X          X            $4,082
      Bass, Ivory                                      X          X            $3,680
      ***Sealed***                         X
      Bowlers of Arkansas                  X
      Chase, Scott                                     X          X            $2,599
      Clark, Howard                                    X          X            $4,146
      Coley, Christopher                   X
      ***Sealed***                         X
      Cravotta, Jon                                               X           $10,307
      Crawford, Anthony                                           X            $8,350
      Davis, Betty                                                X           $24,368
      Dixon (Varner), Penny                X
      Doan, Tam                            X
      Esposito, Mark                       X           X          X
      Faller, Terri                                    X
      Falls, Stephen                       X           X          X            $4,588
      Fowlds, Allan                        X
      Frith, Albert                                               X            $5,475
      Ginnetti, Derek                                             X            $8,380
      Ginyard, Virgil                      X
      Guy, David                                       X
      Harmond, Mark                        X           X
      ***Sealed***                         X
      Holdaway, Diane                                             X          $187,681
      Holdaway, Tobiann                                X
      Hudson, Walter                       X           X          X            $8,769
      Iannacone, Anthony                               X
      Jackson, Reed                        X
      ***Sealed***                         X
      Jones, Jeff                          X           X          X            $2,728
      Kinner, Roger                                    X          X            $5,078
      Lee, Terrell                                     X          X            $3,120
      Levi, Craig                          X
      Macias, Francisco                                X          X           $15,687
      Malkin, Ira                                                 X           $67,805
      Matheny, Marilyn                                 X          X            $1,581
      McClain, Alphonso                                X          X            $2,582
      ***Sealed***                         X
      Mitchell (AKA Ellis), Jerome                     X          X            $2,754
      Nevin, Barbara                                   X          X               $50

142                                                        Semiannual Report to the Congress
                                                            April 1, 2000-September 30, 2000
Appendix- Investigations Case List
                                         Indicted   Convicted   Sentenced   Monetary
      Nevin, Frances                                    X           X          $96,077
      Nickens, Frank                        X
      Pollard, Terrell                      X           X
      Race, Beverly                                     X
      Rodriguez, Marco                      X
      ***Sealed***                          X
      St. Jacques, James                    X
      Stahley, Michelle                     X           X
      Steward, Cynthia                                  X
      Sublett, Joseph                                   X
      Thomas, Andrew                        X           X
      Vo, Kimberly                          X
      Wilhelm, William                                             X            $2,888
      Williams, Charles                    X
         Total                             31          31          28         $942,459
      Benefit Plan
      Alamo, Elena                          X           X          X            $1,050
      ASO North America, Inc.                                                 $769,460
      Belanger, Kenneth, Jr.                X
      Bezmalinovic, Kreso                                          X            $6,250
      ***Sealed***                          X
      BTA Properties                        X           X
      Cabral, Roberta                       X
      Carpenter, Linda                      X
      Close, William                        X           X
      Computer Health Services of Dade                             X          $700,000
      Corrigan, Michael                                            X           $55,982
      Duncan, Eugene                        X           X
      Esposito, Anna                        X           X
      Feinberg, Michael                                            X          $620,000
      Gallant, Leonard                                             X               $50
      ***Sealed***                                      X
      ***Sealed***                                      X
      Halmekangas, Richard                  X           X          X
      Hay, Michael                          X           X
      Hertz, Meir                           X           X
      King, Leslie                          X           X
      Leddy, Thomas                                                X
      Lerner, David                         X           X
      McCarthy, Robert                                             X         $1,600,000
      MCRA Corporation                      X           X
      Miller, Robert, M.D.                                                   $1,300,000
      ***Sealed***                          X           X
      Montesano, Anthony III                            X
      Naimoli, Anthony                      X
      Oneal, Julius III                     X
      Poland, David                                                X            $2,874
      Roach, Chris                          X
      Rodriquez, Roderick                   X
      Samuels, Dwayne                       X           X
      ***Sealed***                          X
      ***Sealed***                          X
      Stern, Harry                                      X
      Tringale, Richard                     X
      Weast, Elizabeth                                             X           $26,476
      Wolfe, John                           X

143                                                         Semiannual Report to the Congress
                                                             April 1, 2000-September 30, 2000
Appendix- Investigations Case List
                             Indicted   Convicted   Sentenced   Monetary
         Total                  25         17          11        $5,082,142
      Internal Union
      ***Sealed***              X
      ***Sealed***              X
      ***Sealed***                          X
      Coleman, Karl                                    X           $39,100
      Coleman, William                      X
      Coupe, David                                     X           $14,147
      Devito, Peter                                    X            $5,000
      Ervolino, Anna            X
      Ervolino, Frank           X
      Ford, Fred                                       X           $15,000
      ***Sealed***                          X
      Ghazi, Tarif              X
      Gigliotti, Frank                      X          X             $6,000
      ***Sealed***              X
      Hvide Marine              X           X          X           $60,400
      Laughner, Robert                                 X          $100,100
      Lopez, Annette            X           X          X
      Lopez, Frances                        X          X           $13,921
      ***Sealed***              X
      ***Sealed***              X
      Murray, Kenneth           X
      ***Sealed***                          X
      ***Sealed***              X
      Sanchez, Teresa           X
      Sandoval, Meyer                                  X           $10,050
      Schweinberg, Charles                  X          X          $100,100
      ***Sealed***              X
      Shugar, Tracy             X           X          X           $34,473
      ***Sealed***              X
      Smalis, Ernest                                   X         $2,728,110
      ***Sealed***                          X
      ***Sealed***              X
      Spencer, Robert                       X          X             $2,817
      Stivason, Victor          X           X          X              $100
      ***Sealed***                          X
      ***Sealed***                          X
      Weiler, Debra            X
         Total                 19          15          15        $3,129,318
      Labor-Management
      Deluca, Robert                                   X             $800
      Fashion Empire, Inc.                                         $35,290
      Frizzi, Anthony                       X          X            $5,100
      ***Sealed***                          X          X            $7,500
      Palmarin, Genio           X
      Shea, Stephen             X
         Total                  1           3           3          $48,690




144                                             Semiannual Report to the Congress
                                                 April 1, 2000-September 30, 2000
            Appendix                       Office of Analysis, Complaints,
                                           and Evaluations: Complaint Activity


The OIG Hotline provides a communication link between the OIG and persons who want to report
alleged violations of law, rules, or regulations; mismanagement; waste of funds; abuse of authority;
or danger to public health and safety. During this reporting period, the OIG Hotline received a total
of 1,105 contacts. Of these contacts, 299 allegations required additional review. Listed below is a
breakdown of those 299 allegations.

Total Contacts for This Period:                                                                 1,105

Allegation Reports by Source:

      Hotline Operations - Calls, Letters, and Walk-ins
           from Individuals or Organizations                                                      255

      Letters from Congress                                                                          3

      Letters from DOL Agencies                                                                      9

      Incident Reports from DOL Agencies                                                             5

      Reports by Special Agents and Auditors                                                         4

      Letters from Non-DOL Government Agencies                                                      22

      Government Accounting Office (GAO)                                                             1

        Total                                                                                     299

Allegation Reports by Referral:

      Referred to OIG Components                                                                    51

      Referred to DOL Program Management                                                          177

      Referred to Other Agencies                                                                    23

      No Further Action Required                                                                    48

         Total                                                                                    299




146                                                                   Semiannual Report to the Congress
                                                                       April 1, 2000–September 30, 2000
